<html>
<title> - H.R. 2578, TO AMEND THE WILD AND SCENIC RIVERS ACT RELATED TO A SEGMENT OF THE LOWER MERCED RIVER IN CALIFORNIA; AND H.R. 1581, ``WILDERNESS AND ROADLESS AREA RELEASE ACT OF 2011''</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
   H.R. 2578, TO AMEND THE WILD AND SCENIC RIVERS ACT RELATED TO A 
   SEGMENT OF THE LOWER MERCED RIVER IN CALIFORNIA; AND H.R. 1581, 
         ``WILDERNESS AND ROADLESS AREA RELEASE ACT OF 2011''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 26, 2011

                               __________

                           Serial No. 112-53

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
67-649                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 26, 2011...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Denham, Hon. Jeff, a Representative in Congress from the 
      State of California........................................     5
    Garamendi, Hon. John, a Representative in Congress from the 
      State of California........................................     7
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     4

Statement of Witnesses:
    Abbey, Robert V., Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................    16
        Prepared statement on H.R. 1581..........................    17
        Prepared statement on H.R. 2578..........................    19
    Babbitt, Hon. Bruce, Former Secretary of the Interior........    41
        Prepared statement on H.R. 1581..........................    42
    Barrasso, Hon. John, a U.S. Senator from the State of Wyoming    10
        Prepared statement on H.R. 1581..........................    12
    Connelly, Hon. Kent, Chairman of the Board, Lincoln County 
      Commission, Lincoln County, Wyoming........................    50
        Prepared statement on H.R. 1581..........................    51
    Freeland, Dave, District Ranger, Retired, Sequoia National 
      Forest.....................................................    88
        Prepared statement on H.R. 1581..........................    89
    Horgan, Chris, Executive Director, Stewards of the Sequoia...    80
        Prepared statement on H.R. 1581..........................    82
    Hugelmeyer, Frank, President and CEO, Outdoor Industry 
      Association................................................    91
        Prepared statement on H.R. 1581..........................    92
    Kleen, Dan, President, Board of Directors, National Off-
      Highway Vehicle Conservation Council.......................    57
        Prepared statement on H.R. 1581..........................    59
    McCarthy, Hon. Kevin, a Representative in Congress from the 
      State of California........................................     8
        Prepared statement on H.R. 1581..........................     9
    Noel, Hon. Michael E., Utah State Representative, District 
      #73, Utah House of Representatives.........................    45
        Prepared statement on H.R. 1581..........................    47
    Pearce, Hon. Steve, a Representative in Congress from the 
      State of New Mexico........................................    13
        Prepared statement on H.R. 1581..........................    15
    Sherman, Harris, Under Secretary for Natural Resources and 
      Environment, U.S. Department of Agriculture................    21
        Prepared statement on H.R. 1581..........................    22
    Simpson, Melissa, Director of Government Affairs, Safari Club 
      International..............................................    77
        Prepared statement on H.R. 1581..........................    78

Additional materials supplied:
    List of documents retained in the Committee's official files.   102
                                     

LLEGISLATIVE HEARING ON H.R. 2578, TO AMEND THE WILD AND SCENIC 
RIVERS ACT RELATED TO A SEGMENT OF THE LOWER MERCED RIVER IN 
CALIFORNIA, AND FOR OTHER PURPOSES; AND H.R. 1581, TO RELEASE 
WILDERNESS STUDY AREAS ADMINISTERED BY THE BUREAU OF LAND 
MANAGEMENT THAT ARE NOT SUITABLE FOR WILDERNESS DESIGNATION 
FROM CONTINUED MANAGEMENT AS DEFACTO WILDERNESS AREAS AND TO 
RELEASE INVENTORIED ROADLESS AREAS WITHIN THE NATIONAL FOREST 
SYSTEM THAT ARE NOT RECOMMENDED FOR WILDERNESS DESIGNATION FROM 
THE LAND USE RESTRICTIONS OF THE 2001 ROADLESS AREA 
CONSERVATION FINAL RULE AND THE 2005 STATE PETITIONS FOR 
INVENTORIED ROADLESS AREA MANAGEMENT FINAL RULE, AND FOR OTHER 
PURPOSES. ``WILDERNESS AND ROADLESS AREA RELEASE ACT OF 2011''
                              ----------                              


                         Tuesday, July 26, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:09 a.m. in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Broun, McClintock, Tipton, 
Noem, Denham, Pearce, Grijalva, Kildee, Heinrich, Garamendi, 
and Markey [ex officio]

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. All right, the Subcommittee will come to order. 
I note the presence of a quorum. The Subcommittee on National 
Parks, Forests and Public Lands is meeting today to hear 
testimony on two pieces of legislation, H.R. 2578, which will 
amend the Wild and Scenic Rivers Act related to a segment of 
the lower Merced River in California and for other purposes, 
and H.R. 1581, to release wilderness study areas administered 
by the Bureau of Land Management that are not suitable for 
wilderness designation and from continuing management as 
defacto wilderness areas and to release inventoried roadless 
areas of the National Forest Service that are not recommended 
for wilderness designation and from certain land use 
restrictions and for other purposes, which is called the 
Wilderness and Roadless Area Act of 2011.
    Under the Committee Rules, opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee, however 
I ask unanimous consent to include any other Members' opening 
statements in the hearing record if submitted to the clerk by 
the close of business today. Hearing no objection, it will be 
so ordered. I also ask unanimous consent that the gentleman 
from California, Mr. Denham, and the gentleman from New Mexico, 
Mr. Pearce, after he gives his testimony, be allowed to join us 
on the dais and participate in the hearing. Without objection, 
so ordered. You just heard the gavel bang.
    Today we are going to hear the testimony on the two bills. 
We are going to do the first one first, so I would invite 
Senator Barrasso, Representative Pearce, Mr. Abbey, and Mr. 
Sherman from the Forest Service if they would come up and take 
the dais in the first place, but I am also going to ask that we 
actually talk about the bills, first of all the Merced River 
bill and then we will discuss the Wilderness and Roadless Areas 
Release Act. Today in the testimony on these two bills we are 
going to first do the one by Congressman Denham, which adjusts 
the Merced Wild and Scenic River's boundary to coincide with 
the Federal Energy Regulatory Commission operational boundary 
for the Merced Irrigation District's New Exchequer Dam Project 
No. 2179 at Lake McClure, which is on the Merced River.
    Now the Public Law that was enacted has the Merced Wild and 
Scenic River already encroaching a half a mile into the 
existing Federal Energy Regulatory Commission operational 
boundary, and even though this already floods most of the time, 
this legislation will simply allow the generation of an 
additional 10,000 megawatts of renewable energy electricity 
that will stimulate job growth, agriculture, and recreation 
activities in the area. This is something that the locals 
desire in this particular area and bureaucrats back here in 
Washington want to have done so they can be secure in 
reprocessing and continuing on with this project.
    The other bill that we are looking at today is H.R. 1581, 
the Wilderness and Roadless Area Release Act, it is another 
important bill and deserves our thoughtful consideration. Even 
though the decisions on the issues of this should have been 
made in 1991 on what is wilderness and what is multiple use, we 
still have wilderness study areas that abound. This would 
release all wilderness study areas that have been evaluated and 
recommended as not suitable for wilderness designation by the 
Bureau of Land Management or the U.S. Forest System.
    This is logical, this is the role that Congress should 
take. There are those who will talk about the values and the 
benefits of effective management through multiple use and the 
serious problems that arise when we default on the management 
position, which is anything but management. This bill simply 
would end the blanket Washington-knows-best approach, and it 
would provide local control and local decisions and land use 
decisions. And the areas in which people live would actually be 
determined, and they would be determined for what is suitable 
for wilderness designation and yet managed as wilderness 
designation, and that which is not suitable would not be 
managed as such.
    The Administration and others may claim that the WSAs, 
wilderness study areas, retain that category until Congress 
acts. Well, that is what we are doing today. Congress is 
acting. Our failure to do anything in the past has not helped 
the situation and, in fact, has made it impossible for 
mechanized conservation, commercial activities, motorized 
access, road structures, facilities become extremely limited in 
these areas, and it hurts people. This is not management. 
Management that puts it in the most restrictive use is not 
management and it hurts people, so we are going to be talking 
about that.
    We are also going to be talking about the concept of 
preventive maintenance. Just as you need it on the vehicles, 
you need it in the forest, for example. The Forest Service is 
currently removing less than 10 percent of new growth on our 
National Forests. In other words, the volume of these forests 
is increasing approximately 90 percent each year, which means 
we end up with unhealthy forests subject to infestation and 
catastrophic wildfire. The past few years that has become the 
norm. That norm is unacceptable. Congress needs to act. This is 
the vehicle in which they can act.
    Contrary to what some will claim, this bill is not a 
handout to special interests. That argument is as ludicrous as 
it is demagogic. But without Congressional action, we are 
failing to use the tools in the toolbox to effectively manage 
our areas and make America's resources more accessible and 
available to all Americans. It is an important bill that we are 
going to be dealing with today. I will yield to the Ranking 
Member for any opening statement he may have.

 STATEMENT OF HON. RAUL GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. H.R. 2578 sponsored 
by our colleague, Representative Denham, is nearly identical to 
legislation the Subcommittee considered last month and would do 
real harm to the Merced Wild and Scenic River. Congress has 
never before authorized the flooding of a designated Wild and 
Scenic River, and this measure must be considered very, very 
carefully. However, the potential damage done to the Merced by 
H.R. 2578 pales in comparison to the destruction that would 
result from Mr. McCarthy's Wilderness and Roadless Area Release 
bill.
    This bill would strip environmental protection from tens of 
millions of acres of public lands, opening up some of our 
country's most scenic forests and wild lands to destructive 
development. Congress has provided our Federal land management 
agencies clear direction to identify Federal land with 
wilderness characteristics and preserve those characteristics 
until Congress can make a final decision to designate those 
areas or to release them.
    Congress also directed the agency to provide 
recommendations regarding which areas should be designated. By 
protecting these areas until Congress can take action, BLM is 
preserving the right of Congress to make the ultimate decision 
on how these pristine places should be managed. Rather than 
preserving the right to make the ultimate decision, this bill 
would short-circuit the process by releasing all wilderness 
study areas that were not recommended for wilderness 
designation by the agencies, in effect turning the decision 
over to BLM and the Forest Service.
    From the Bully Mountains in California to the Ocala 
National Forest in Florida, hundreds of potential wilderness 
areas would be lost to logging, mining, road construction, and 
other activities that would permanently deface the natural 
landscape. Once these wilderness characteristics are gone they 
can never be replaced, and by removing the protection from 
these lands prematurely Congress makes that loss more likely 
and ties its own hands in future efforts to designate 
wilderness areas.
    The legislation would remove existing protections for 
nearly 60 million acres of unroaded national forest. These 
lands were set aside in 2001 by the Roadless Rule, which 
established a nationwide conservation policy for roadless 
areas. This rule followed years of public outreach to local 
stakeholders, yet despite the popularity of that initiative, 
H.R. 1581 would exempt the National Forest System from that 
rule. All told, H.R. 1581 would have devastating impacts on 
some of our nation's most pristine public lands.
    If these natural wonders are destroyed by unchecked 
development, it would be ruinous for small business that thrive 
on hikers, bikers, anglers, and hunters who enjoy this area. It 
would degrade the quality of life for millions of Americans who 
live and work near these protected places, and it would deprive 
future generations of the chance to enjoy our country's rich 
natural heritage. Simply throwing our hands up and passing an 
across-the-board release is irresponsible.
    It is unfair to the local communities and it is shirking 
the responsibilities that Congress reserved for itself when it 
passed the Wilderness Act more than 40 years ago. In closing, 
Mr. Chairman, I would like to welcome all our witnesses here 
today. In particular I appreciate Secretary Babbitt's decision 
to testify and for being here. His extensive record of public 
service and expertise on these issues will make his testimony 
invaluable. With that, Mr. Chairman, let me yield back.
    Mr. Bishop. Thank you, gentleman from Arizona. We note the 
presence of the Ranking Member of the Full Committee. Does Mr. 
Markey have a statement he wishes to make?
    Mr. Markey. Yes, Mr. Chairman, if I may be recognized.
    Mr. Bishop. How long do I have to make that decision?
    Mr. Markey. As long as you want, Mr. Chairman, it is in 
your discretion.
    Mr. Bishop. All right, the rules say you are recognized, 
you are recognized right now.
    Mr. Markey. Thank you, I thank the Chairman very much.
    Mr. Bishop. I recognize you immediately.

 STATEMENT OF HON. EDWARD MARKEY, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank the Chairman. Too often in politics the 
justifications offered for a legislative proposal are not the 
real reasons behind the bill. This is part of what gives 
politicians a bad name. They spend too much time using 
arguments that don't hold water because they know that if they 
tell the public what they are really up to, the American people 
will not support them. That is what is going on with H.R. 1581 
today. Most of the arguments you are going to hear if you stop 
and actually consider them are completely unpersuasive.
    For example, we will hear that we need to release 
wilderness study areas and inventoried roadless areas that were 
not recommended for wilderness because Congress should not be 
bound by recommendations made by the Executive Branch 20 or 30 
years ago. Does that sound like something Congress should do? 
Just as we don't base our health policy on 30-year-old science 
or our defense policy on 30-year-old maps, we should not bind 
ourselves to agency recommendations based on field work done 
during the Reagan Administration.
    Once more, the Republican majority in this House has made 
attacking Federal agencies and employees an art form. To come 
in now and say Congress needs to follow these bureaucrats' 
recommendation to the letter lacks credibility. And most 
telling is the fact that the legislation before us only follows 
agency recommendations to release wilderness study and roadless 
areas. These recommendations were accompanied by 
recommendations to designate new wilderness, but proponents of 
this bill think those suggestions aren't worth following.
    The other arguments we will hear today are similarly 
suspect. The Wilderness Act already allows any action needed to 
fight fires or to protect public safety. We already have 
hundreds of thousands of miles of roads crisscrossing our 
National Forests providing fully adequate recreational access. 
Hunting and fishing are already allowed in wilderness and 
wilderness study areas. Since enactment of the Wilderness Act 
many of the fastest growing communities in the country have 
been those that will have large areas of beautiful protected 
open spaces.
    H.R. 1581 is not really about any of these things. That is 
why these claims fail even to withstand minimal scrutiny. The 
truth is this bill is no different from much of the legislation 
that has come from the majority on this Committee this year. 
H.R. 1581 is simply a wealth transfer from the American people 
to the oil and gas and mining and timber industries. If you 
scratch the surface of this bill, you will find ``Drill, Baby, 
Drill.''
    The stunning vistas, the open spaces, the recreational 
opportunities, wildlife, clean air, clean water provided by 
these areas belongs to all Americans. It is part of our 
American heritage. It is something that has been passed on to 
us, and as Americans we have a responsibility to pass on to 
those Americans who come after us. And this bill would simply 
bundle it up and transfer it to oil and gas and mining and 
timber companies to convert into corporate profits. That is not 
part of our American ethos.
    We have a responsibility to be balanced, we have a 
responsibility to ensure that all Americans have this treasure 
that is left for them. Those areas were passed into our hands 
by our predecessors here in Congress, and H.R. 1581 is an 
abrogation of our responsibilities, a failure of our 
stewardship. It is by definition not balanced because they did 
not listen to all of the recommendations, only those that 
selectively benefit the imbalance that benefits corporate 
America and not all Americans, which were also part of that 
package. So I urge that all who are listening keep that in mind 
until we can have a discussion, a debate, that is something 
that is balanced, which is produced from this Committee. And I 
thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Bishop. Thank the gentleman from Massachusetts for 
joining us and for his statement. We are going to deal with 
H.R. 2578 first, and because of that I am going to recognize 
Mr. Denham for a statement he has on the bill.

  STATEMENT OF HON. JEFF DENHAM, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Denham. Well, thank you, and this bill does hold water 
and I look forward to having bipartisan support out of this 
Committee as we do in the Central Valley, Republicans and 
Democrats coming together to solve a problem in California. 
First of all, I would like to thank Chairman Bishop for 
bringing my bill, H.R. 2578, before the Subcommittee for this 
legislative hearing. This legislation before the Committee 
today is a simple bill that will provide much needed water 
storage during wet years in the Central Valley of California, 
which occur on average only every three to five years.
    The additional water storage in these years will be 
temporary and only occur for three months. This past winter was 
considered a wet water year for California. Currently dams are 
in flood control operations and releasing thousands of acre-
feet of water due to the lack of sufficient storage. There is a 
common saying, to save for a rainy day. When talking about 
water and farming, the saying needs to be tweaked a little bit 
to say, save on a rainy day, meaning that when we have water, 
we have to make sure that we can store the excess water in wet 
years for when the inevitable drought does occur.
    The Central Valley of California is home to the world's 
most productive farmland. The economies of most communities in 
the valley are buoyed by the agriculture production that occurs 
throughout the valley. My district continues to suffer from 
unacceptable high unemployment. Currently unemployment is 
hovering around 17 percent, which is almost double the national 
average. We are dependent on water for jobs, communities to be 
sustainable, and livelihoods associated with farming 
operations.
    H.R. 2578 is a much needed piece of legislation to create 
desperately needed jobs and much needed water storage where 
both are so greatly needed. Simply stated, the bill will allow 
FERC to consider a proposal by the Merced Irrigation District 
to improve existing spillways that will cause the level of Lake 
McClure to rise by 10 feet for 60 days during a wet water year. 
With this legislation the Merced Irrigation District will be 
able to apply with FERC for the proposed spillway modification. 
Their application will still be subject to full FERC review 
once the application is filed.
    It is the intent of the Merced Irrigation District to add 
10 feet to the spillway gates at the New Exchequer Dam. This 
addition will not inundate the river any more than is naturally 
occurring right now today. This legislation will provide up to 
70,000 acre-feet of additional water, which can serve 1,700 
homes and generate roughly 10,000 megawatt hours of clean 
renewable electricity on an annual basis. Finally let me also 
inform this Committee that this project will not cost any state 
or Federal funds. Who wouldn't be for this one? Again, we have 
bipartisan support in the valley, Republicans and Democrats 
coming together to solve a problem where we have huge 
unemployment in California. Again, let me thank Chairman Bishop 
for bringing H.R. 2578 before this Committee.
    Mr. Bishop. I appreciate the gentleman from California. Mr. 
Abbey, Mr. Sherman, I don't know if you have testimony specific 
to this, I am going to give you the option if you do you can 
either respond now or if you want to kind of add that into your 
testimony of both bills together, whichever you would prefer to 
do.
    Mr. Abbey. I believe I could go ahead and incorporate our 
comments on both bills together.
    Mr. Bishop. That is your option.
    Mr. Abbey. OK.
    Mr. Bishop. Mr. Sherman, I don't know if you have testimony 
about this?
    Mr. Sherman. I do not have any testimony, Mr. Chairman, on 
this particular legislation.
    Mr. Bishop. OK. We have had one hearing on this one 
already. Is there any other issues? Mr. Garamendi, you are 
recognized for five minutes.

STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Garamendi. When this bill came up earlier, the issue 
was about a FERC license, that the bill was necessary to allow 
the Irrigation District to proceed to get a hearing or to be 
able to proceed with the FERC licensing, the relicensing of the 
reservoir. I don't believe anything has changed about that, and 
that the real intent of the bill was to allow FERC to consider 
the issue. It now appears as though the argument is that we are 
somehow going to create jobs and water and the FERC licensing 
has not yet been completed. Is that the case, Mr. Denham?
    Mr. Denham. Very little has changed of the bill. We are not 
looking for a new study that will take this out years, no new 
committee hearings. We just want to give the local community 
the opportunity to go before FERC on a project that doesn't 
cost anything that has bipartisan support in the local area. 
Again, this is about jobs. When you come to the Central Valley 
and see the high unemployment and the amount of people that are 
out of work----
    Mr. Garamendi. Reclaiming by time, sir. You did talk about 
jobs, but this is really about changing the Wild and Scenic 
River law ahead of the FERC licensing process. You have jumped 
way, way ahead of what is actually taking place, and that is an 
attempt, a necessity by the Merced Irrigation District to renew 
its license to even use the Merced River and the reservoir. And 
I don't know why you think it is necessary at this point to 
modify, change the Wild and Scenic River law when it was 
suggested earlier that all you really need to do is to allow by 
law FERC to consider as it goes through the relicensing process 
the request by the Merced Irrigation District to allow for 
seasonal inundation. Now it may very well be that FERC says, no 
you can't do that even with this law in place. So I think it is 
an incorrect way to go about allowing the Merced Irrigation 
District to bring this issue to FERC for their licensing 
procedures, in other words a step or a river too far. With that 
I will yield back my time.
    Mr. Bishop. Thank you, I appreciate it. With that we will 
conclude our testimony on the hearing for H.R. 2578, although 
Mr. Abbey and Mr. Sherman may incorporate testimony in their 
comments as well. We will then turn to H.R. 1581. We have the 
full panel out here with us, we are happy to have you here. Let 
me go from, let me start actually with Mr. McCarthy from 
California who is the author of this bill, then we will go to 
Senator Barrasso, I understand both of you are on tight 
schedules. As soon as your testimony is over, if you need to 
leave to other commitments, feel free to do that.
    Representative Pearce will go next. Once again the same 
situation, if you can stay with us you are welcome to join us 
on the dais, if you need to go, you need to go. Then Mr. Abbey 
and then Mr. Sherman. You all know the ritual here. The written 
testimony is there, we prefer the oral one. You see the lights 
in front of you, yellow mean you have a minute, red means I 
have to use the gavel, I haven't done that yet, please don't 
make me. Mr. McCarthy, you are on.

STATEMENT OF HON. KEVIN McCARTHY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. McCarthy. Well, thank you, Chairman Bishop, thank you 
for holding this legislative hearing. Right now, the Bureau of 
Land Management and the United States Forest Service 
administers over 400 million acres of land in the United 
States. Now what does that mean? 45 percent of all of 
California, almost 60 percent of Utah, and nearly 85 percent of 
Nevada are owned by the Federal Government. This means the 
government has significant control over how the lands in our 
state are used, what is done on them, and how the American 
people can access and enjoy them.
    Starting in 1960, Congress enacted several laws that 
require that millions of acres under Federal control to be 
administered for outdoor recreation, range, timber, watershed, 
and wildlife and fish purposes. In other words public lands has 
to be just that, open to the public. However, today there are 
over 42 million acres of wilderness study areas and inventoried 
roadless areas which have been deemed unsuitable for wilderness 
by BLM and the Forest Service respectively.
    Because of the current law and regulations, these lands 
must be managed essentially as if they are wilderness areas, 
the most restrictive management practice which prohibits most 
activities and deny Americans the ability to fully and 
appropriately enjoy their public lands. These lands remain 
under lock and key until Congress chooses to make them 
wilderness areas or release them for multiple use, a decision 
that has been pending for decades. Simply put, my common sense 
bill would release wilderness study areas and inventoried 
roadless areas deemed not suitable for wilderness by the 
existing agencies so they are no longer needlessly held in 
regulatory limbo, which deny the American people full and 
appropriate access to them and require that they be managed for 
multiple use.
    The bill would also return these lands to the local 
management process where decisions on what and can't occur on 
them are made by local land managers, communities and 
stakeholders in and around the areas, consistent with existing 
environmental protections. Why is this bill important? Allowing 
these lands to be managed for multiple use enable local land 
managers and communities to potentially allow for reasonable 
resources development, better healthy forest management, more 
reliable grazing, and numerous recreational activities 
including motorized sports and increased areas for better 
hunting and fishing.
    These activities could create jobs and generate new revenue 
by many rural and outlying communities across the country that 
depend on visitors to our National Forests and public lands. In 
addition, opening up these lands would make it much easier to 
clear fallen and rotten trees and underbrush, reducing the 
danger of the out-of-control wildfires that have been prevalent 
in California and around the Nation in recent years.
    Where I represent there are 11 wilderness study areas in 
which more than 18,000 acres have been deemed unsuitable for 
wilderness. There are 7 roadless areas within the Sequoia 
National Forest around Lake Isabella, with over 200,000 acres 
that have been recommended not suitable for wilderness. 
Actively enjoying the land through recreational activities 
benefit our local communities across the West. In conclusion, 
all this bill does is to act on the recommendations of BLM and 
the Forest Service to release a small percentage of the 400 
plus million acres these agencies are responsible for which has 
been deemed unsuitable.
    As President Theodore Roosevelt, one of the greatest 
champions for our natural wonders said, conservation means 
development as much as it does protection. I recognize the 
right and duty of this generation to develop and use the 
natural resources of our land. I am honored today to have two 
constituents that are going to testify later, Chris Horgan and 
Dave Freeland. And they will tell you from first hand, being a 
ranger, being a committed conservationist that can help 
protects, that as you narrow down the land that you open up you 
actually destroy more land, because those who are able to enjoy 
it have a smaller area and trample over more.
    What this bill does takes the studies that this Congress 
paid for by the BLM and the Forest Service and they actually 
take the study and apply them to what they said would be the 
best outcome while protecting the local environmental by having 
the locals in control. If you have ever been to California, if 
you have ever watched the news and you see the out-of-control 
fires, we know we can have a better way, we know we can open it 
up for more people to enjoy. That was the intent of the 
beginning in the 1960 of opening up these lands. And I yield 
back.
    [The prepared statement of Mr. McCarthy follows:]

Statement of The Honorable Kevin McCarthy, a Representative in Congress 
                      from the State of California

    Well thank you Chairman Bishop, thank you for holding this 
legislative hearing.
    Right now, the Bureau of Land Management and the United States 
Forest Service administers over 400 million acres of land in the United 
States. Now what does that mean? 45 percent of all of California, 
almost 60 percent of Utah and nearly 85 percent of Nevada are owned by 
the Federal government. This means the government has significant 
control over how lands in our state are used, what is done on them and 
how the American people can access and enjoy them.
    Starting in 1960, Congress enacted several laws to require that 
millions of acres under Federal control be ``administered for outdoor 
recreation, range, timber, watershed, and wildlife and fish purposes.'' 
In other words, public lands has to be just that--open to the public.
    However, today there are over 42 million acres of Wilderness Study 
Areas and Inventoried Roadless Areas, which have been deemed unsuitable 
for wilderness by BLM and the Forest Service, respectively. Because of 
the current law and regulations, these lands must be managed 
essentially as if they are Wilderness Areas--the most restrictive 
management practice, which prohibits most activities, and denies 
Americans the ability to fully and appropriately enjoy their public 
lands.
    These lands remain under lock and key until Congress chooses to 
make them Wilderness Areas or release them for multiple-use. A decision 
that has been pending for decades.
    Simply put, my common sense bill would release Wilderness Study 
Areas and Inventoried Roadless Areas deemed not suitable for wilderness 
by the existing agencies so they are no longer needlessly held in 
regulatory limbo, which denies the American people full and appropriate 
access to them, and require they be managed for multiple-use. The bill 
would also return these lands to the local management process, where 
decisions on what and can't occur on them are made by local land 
managers, communities and stakeholders in and around the areas, 
consistent with existing environmental protections.
    Why is this bill important?
    Allowing these lands to be managed for multiple-use enables local 
land managers and communities to potentially allow for reasonable 
resources development, better healthy forest management, more reliable 
grazing and numerous recreational activities, including motorized 
sports and increased access for better hunting and fishing. These 
activities could create jobs and generate new revenue for many rural 
and outlying communities across the country that depend on visitors to 
our national forests and public lands.
    In addition, opening up these lands would make it much easier to 
clear fallen and rotten trees and underbrush, reducing the danger of 
the out-of-control wildfires that have been prevalent in California and 
around the nation in recent years.
    Where I represent, there are 11 Wilderness Study Areas in which 
more than 18,000 acres have been deemed unsuitable for wilderness. 
There are seven roadless areas within the Sequoia National Forest 
around Lake Isabella, with over 200,000 acres that have been 
recommended not suitable for wilderness. Actively enjoying the land 
through recreational activities benefit our local communities across 
the West.
    In conclusion, all this bill does is to act on the recommendations 
of BLM and the Forest Service to release a small percentage of the 400 
plus million acres these agencies are responsible for, which have been 
deemed unsuitable.
    As President Theodore Roosevelt, one of the greatest champions for 
our natural wonders, said, ``Conservation means development as much as 
it does protection. I recognize the right and duty of this generation 
to develop and use the natural resources of our land.''
    I'm honored today to have two constituents that are going to 
testify later. Chris Horgan and Dave Freeland, and they will tell you 
from firsthand, being a ranger, being a committed conservationist that 
can help protect. As you narrow down the land that you open up you 
actually destroy more land. Because those who are able to enjoy it have 
a smaller area and trample over more. What this bill does takes the 
studies that this Congress paid for, by the BLM and the Forest Service, 
and they actually take the study and apply them to what they said would 
be the best outcome; while protecting the local environment by having 
the locals in control. If you've ever been to California, if you've 
ever watched the news and you see the out-of-control fires. We know we 
can have a better way. We know we can open it up for more people to 
enjoy. That was the intent, from the beginning in the 1960s of opening 
up these lands. And I yield back.
                                 ______
                                 
    Mr. Bishop. Thank you, Representative McCarthy, and as I 
said, if you need to go to another event you need to go, but 
you are welcome to stay as long as you can. Senator Barrasso, 
who is also the Chairman of the Senate Western Caucus but as I 
also understand the chief sponsor of a companion bill in the 
Senate, we welcome you over here to the right side, the correct 
side of the Capitol, and we want to recognize you as well.

 STATEMENT OF HON. JOHN BARRASSO, A UNITED STATES SENATOR FROM 
                      THE STATE OF WYOMING

    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
I really appreciate your leadership, your opening remarks, and 
I want to thank the Committee for inviting me to testify in 
support of the Wilderness and Roadless Area Release Act. I have 
introduced a companion bill in the Senate along with Senators 
Murkowski and Enzi and Hatch and Heller, and it is really a 
pleasure to participate in the hearing today along with 
Majority Whip Kevin McCarthy and House Western Caucus Chairman, 
Representative Steve Pearce.
    I also want to welcome Wyoming County Commissioner Kent 
Connelly, he is going to be testifying today, and acknowledge 
his work on public land issues in Wyoming. Commissioner 
Connelly's testimony will provide insight on how this 
legislation will provide relief, relief needed from Federal 
bureaucratic roadblocks in western rural counties. Now, Mr. 
Chairman, Congress did not designate any wilderness in the 
Federal Land Policy and Management Act of 1976. What Congress 
did do was set aside over 70 million acres to temporarily study 
for possible wilderness designation.
    Federal agencies would make recommendations to Congress and 
then Congress would then decide what areas should receive this 
wilderness designation. However, the 1976 law created a giant 
loophole. The loophole allows all lands set aside for 
wilderness study to essentially be perpetually managed under 
wilderness criteria, not by multiple use and sustainable yield 
provisions. The effect of this loophole was to create defacto 
wilderness areas across the West without Congressional 
approval. That is why the Wilderness and Roadless Area Release 
Act is needed.
    Of the over 12 million acres of wilderness study areas, BLM 
recommended about half of those acres as not suitable for 
wilderness designation. The U.S. Forest Service recommended 
that 36 of 61 million acres are not suitable. These decisions 
have been made for over 20 years. This Act ends the cycle of 
indefinite wilderness review and management of these 
nonwilderness recommended lands. This legislation allows local 
Americans and stakeholders to work with agency officials to 
develop management plans that best balance recreation, multiple 
use, and conservation.
    Every released acre and activity will be subject to the 
respective Forest Service and BLM land use planning process. 
Mr. Chairman, you have heard it as well as I have, critics have 
called this bill extreme. They declare passage would result in 
unchecked development and ecological disasters. Well, there is 
nothing extreme about allowing and following nonwilderness 
recommendations, nothing extreme about local stakeholders 
participating in the planning process, nothing extreme about 
land returning to the Forest Service or BLM land use planning 
process, and there is nothing extreme about proactively 
managing forests impacted by the mountain pine beetle.
    I will tell you one of the biggest roadblocks in Wyoming to 
any management activity of the pine beetle is the 2001 Roadless 
Rule. The fact is that this bill today is a common sense bill. 
Opponents want to rewrite history. They want to pretend that 
Congress designated wilderness with the passage of the Federal 
Land Policy and Management Act. They want to maintain the do-
nothing status quo. They want to prevent local stakeholders and 
land management agencies from making land planning decisions, 
and they are obstructing healthy forest management.
    Former Secretary Babbitt is here, and he has stated that 
those who support this bill he said are operating in the 
shadows. I disagree. Those who support this bill are standing 
in the sunshine. I am here in a public setting advocating for 
public participation in land management. This is in stark 
contrast, Mr. Chairman, to secretive events creating the Grand 
Staircase-Escalante National Monument in your home state in 
Utah which was announced from Arizona. This is in stark 
contrast to last year's leaked Treasured Landscapes Internal 
Effort by the Department of the Interior officials.
    This is in stark contrast to the December 23rd Wildlands 
Announcement, made the day before Christmas Eve, and it said if 
you wanted to, it wasn't wilderness they said, but if you 
wanted to access their talking on the conference call the 
access code was wilderness. Mr. Chairman, this legislation is 
not in the shadows, this is in the light of day. This Act is 
good land management policy. Doesn't dictate what will or will 
not happen on the released lands.
    Rather, it returns management to the respective agencies. 
It provides them the flexibility to manage our public lands for 
a multitude of activities. Most importantly it gives local 
Americans, those who live and work and play on public lands, a 
voice. So I fully support this legislation. I commend 
Representative McCarthy for his leadership on this issue. Thank 
you, Mr. Chairman, for the opportunity to testify.
    [The prepared statement of Mr. Barrasso follows:]

  Statement of The Honorable, John Barrasso, a U.S. Senator from the 
State of New York, on H.R. 1581, ``Wilderness and Roadless Area Release 
                             Act of 2011''

    Thank you Chairman Bishop. I appreciate your leadership and your 
opening statement. I want to thank you and Members of the Committee for 
inviting me to testify in support of the ``Wilderness and Roadless Area 
Release Act.''
    I introduced the companion bill, S. 1087, in the Senate, along with 
Senators Murkowski, Enzi, Hatch, and Heller. It is a pleasure to 
testify in favor of this bill along with Majority Whip Kevin McCarthy 
and House Western Caucus Chairman Rep. Steve Pearce.
    I also want to welcome Wyoming County Commissioner Kent Connelly, 
who will testify today, for his work on public lands issues in Wyoming. 
Commissioner Connelly's testimony will provide insight on how this 
legislation will provide relief, from federal bureaucratic roadblocks 
in western rural counties.
    Congress did not designate any wilderness in the Federal Land 
Policy and Management Act in 1976. What Congress did do was set aside 
over 70 million acres to temporarily study for possible wilderness 
designation. Federal agencies would make recommendations to Congress. 
Congress would then decide what areas should receive Wilderness 
designation.
    However, the 1976 law created a giant loophole. The loophole allows 
all lands set aside for wilderness study to essentially be perpetually 
managed under wilderness criteria, not by multiple-use and sustainable 
yield provisions. The effect of this loophole was to create de facto 
wilderness areas across the West without Congressional approval.
    That is why the Wilderness and Roadless Area Release Act is needed.
    Of the 12.27 million acres of Wilderness Study Areas, BLM 
recommended 6.7 million acres as not suitable for wilderness 
designation. The U.S. Forest Service recommended 36 of the 61 million 
acres as not suitable. These decisions have been made for over 20 
years.
    This act ends the cycle of indefinite wilderness review and 
management of these non-wilderness recommended lands. The legislation 
allows local Americans and stakeholders, to work with agency officials 
to develop management plans that best balance recreation, multiple-use, 
and conservation. Every released acre and activity will be subject to 
the respective Forest Service or BLM land-use planning process.
    Critics call this bill extreme. They declare passage would result 
in unchecked development and an ecologic disaster.
    There is nothing extreme about following non-wilderness 
recommendations. There is nothing extreme about local stakeholders 
participating in the planning process. There is nothing extreme about 
land returning to the Forest Service or BLM land-use planning process. 
And there is nothing extreme about proactively managing forests 
impacted by the Mountain Pine Beetle. One of the biggest roadblocks in 
Wyoming to any management activity for the Pine Beetle is the 2001 
Roadless Rule.
    The fact is this is a common sense bill. Opponents want to rewrite 
history. They want to pretend Congress designated wilderness with the 
passage of Federal Land Policy Management Act. They want to maintain 
the do-nothing status quo. They want to prevent local stakeholders and 
land management agencies from making land-planning decisions, and they 
are obstructing healthy forest management.
    Former Secretary Babbitt has stated those who support this bill are 
operating in the shadows. I disagree. Those who support this bill are 
standing in the sunshine. I am here in a public setting, advocating for 
public participation in land management.
    This is in stark contrast Mr. Chairman to the secretive events 
creating the Grand Staircase-Escalante National Monument in your home 
state of Utah, and announced from Arizona. This is in stark contrast to 
last year's leaked ``Treasured Landscapes'' internal effort by 
Department of Interior officials. This is in stark contrast to the 
December 23rd `Wild Lands' announcement. The day before Christmas Eve, 
the phone access code for the BLM's `Wild Lands' call was wilderness.
    Mr. Chairman, this legislation is not in shadows, but in the light 
of day. This Act is good land management policy. It does not dictate 
what will or will not happen on the released lands. Rather, it returns 
management to the respective agencies. It provides them the flexibility 
to manage our public lands for a multitude of activities. More 
importantly, it gives local Americans, those who live, work, and play 
on public lands a voice.
    I fully support this legislation and commend Representative 
McCarthy for his leadership on this issue. Thank you Mr. Chairman for 
the opportunity to testify.
                                 ______
                                 
    Mr. Bishop. Thank you, Senator. Representative Pearce is 
the Chairman of the Western Caucus here. We will be pleased to 
hear from you now.

 STATEMENT OF HON. STEVE PEARCE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Mr. Chairman, Ranking Member 
Grijalva, and members of the Subcommittee. We appreciate you 
holding the hearing on H.R. 1581 today, the Wilderness and 
Roadless Area Release Act of 2011. I appreciate Mr. McCarthy's 
leadership in bringing that forward. As Chairman of the 
Congressional Western Caucus, I am proud to be an original 
cosponsor of this legislation. As we are speaking, large areas 
of the West continue to burn. These fires burn hotter and 
faster than they ever have in years past. This endangers the 
life of humans, plants, animals, and destroys any possibility 
of species benefitting from the forest.
    The fires are burning because of the management of our 
public lands, decades of trees have been allowed to accumulate 
as fuels and now Mother Nature has shut off the water, and the 
drought plus the explosive loads of fuels in our forests are 
causing the fires. The West is very familiar with wilderness 
designations, and my district knows them as well as any other. 
One of the first declared wilderness areas under the 1964 
Wilderness Act, the Gila Wilderness, is in my district.
    While I do not oppose the designation of wilderness in 
areas that qualify by the strict definitions of the 1964 Act, 
it is a costly decision that the Federal Government continues 
to treat millions of acres that do not qualify and it treats 
them as defacto wildernesses. For example, a wilderness area is 
defined as an area of undeveloped Federal land that generally 
appears to have been affected primarily by the forces of 
nature, with the imprint of man's work substantially 
unnoticeable, this is according to the text of the Act.
    The Gila fits this definition. However, as with other areas 
throughout the West there are wilderness study areas within my 
district that do not meet this criteria by this definition, but 
they are being managed by the Wilderness Act. The WSA in Dona 
Ana County, for example, the Robledo Mountains WSA is deemed 
unsuitable for wilderness because of frequent motorized vehicle 
use and air traffic from Las Cruces International Airport, but 
it is being still managed as wilderness. The Sierra de las Uvas 
WSA is considered unsuitable due to off-road vehicle use. 20 
years later both of these WSAs are still governed by the same 
regulations as actual wilderness, despite the Department of the 
Interior deeming them unsuitable.
    This means that no chainsaws can be used to clear 
underbrush and dead timber for fire prevention. Trucks cannot 
come in to haul off material that can set these areas ablaze. 
Last week 4,500 acres of the Gila Wilderness burned due to 
lightning, and the fire crews had difficulty navigating the 
rugged terrain of the wilderness to actually fight the fires. 
While much of the West continues to burn, how much sense does 
it make to keep unsuitable areas under such restrictive 
regulation?
    These areas are tinderboxes just waiting for a lightning 
strike or some other spark to ignite conflagration. This story 
plays out time and time again across the West. It makes much 
more sense to release these WSAs than to just keep them in this 
constant state of limbo. Releasing them will keep them under 
Federal ownership and opens them up to the same management 
practices available on other Federal lands. This will allow the 
various Federal agencies to conduct proper land management to 
prevent the spread of wildfires and to keep these lands healthy 
for both people and animals to enjoy.
    Preventing us from releasing these WSAs only keeps us from 
implementing common sense solutions that can keep our forests 
thriving and maintaining thriving habitats that actually 
benefit wildlife. The way to do this is to move these WSAs into 
the multiple use category. Some people hear multiple use and 
think that it leads to degradation of the environment. It does 
not. It maintains a proper balance to keep the forest and other 
natural areas alive, it maintains a healthy wildlife balance, 
plus it can lead to economic growth through managed timber 
harvesting.
    When we consider the area of Roadless Rules, recently our 
district was host to a large public meeting. The Forest Service 
had claimed they had public meetings talking about declaring 
the Roadless Rules in the Gila National Forest. Keep in mind 
that the Gila Wilderness is almost a million acres right next 
door to the almost 2 million acres of National Forest. The 
Roadless Rule was going to create almost 3 million acres of 
defacto wilderness in one area of our state.
    Now the agency had described public meetings in which they 
had gotten all the public input they got. But when we 
advertised for a week that the Forest Service was talking about 
eliminating people out of 95 percent of the Gila National 
Forest we had 800 people show up on a weekend to testify and to 
say enough is enough. 95 percent of that forest would be 
unavailable to anyone, much less people with disabilities. If 
you Google the word ``roadless'' and U.S. Forest Service, the 
first pages that come up deal with stopping timber. This is the 
agenda of the Roadless Rule and the U.S. Forest Service. Let us 
release these areas and get common sense management. And I 
yield back.
    [The prepared statement of Mr. Pearce follows:]

 Statement of The Honorable Steve Pearce, a Representative in Congress 
                      from the State of New Mexico

    Chairman Bishop, Ranking Member Grijalva, and Members of the 
Subcommittee: thank you for holding this hearing today on H.R. 1581, 
Wilderness and Roadless Area Release Act of 2011. As Chairman of the 
Congressional Western Caucus, I am proud to be an original cosponsor. 
At no point in time has legislation like this been more important. As 
we speak, large portions of the west continue to burn. And these fires 
burn hotter and faster than they have in years past. This endangers the 
lives of humans, plants and animals, and destroys any possibility of 
any species benefitting from the forest.
    The West is very familiar with wilderness designations, and my 
district knows them better than any other. One of the first declared 
wilderness areas under the 1964 Wilderness Act, the Gila Wilderness, is 
in my district. While I do not necessarily oppose the designation of 
wilderness in areas that qualify by the strict definitions of the 1964 
Act, it is absurd that the federal government continues to treat 
millions of acres that do not qualify as de facto wilderness. For 
example, a wilderness area is defined as an area of undeveloped federal 
land that ``generally appears to have been affected primarily by the 
forces of nature, with the imprint of man's work substantially 
unnoticeable'', according to the text of the Act. The Gila fits this 
definition.
    However, as with other areas throughout the West, there are 
Wilderness Study Areas (WSAs) within my district that do not meet the 
criteria of this definition, according to the Department of the 
Interior's New Mexico Wilderness Study Report from 1991, which is the 
last comprehensive study of WSAs. In Dona Ana County, for example, the 
Robledo Mountains WSA is deemed unsuitable because of frequent 
motorized vehicle use and air traffic from Las Cruces International 
Airport. The Sierra de Las Uvas WSA is also considered unsuitable due 
to off-road vehicle use. 20 years later, both of these WSAs are 
governed by the same regulations as actual wilderness, despite the 
Department of the Interior deeming them unsuitable. This means that no 
chainsaws can be used to clear underbrush and dead timber for fire 
prevention. Trucks cannot come in to haul off material that can set 
these areas ablaze. Last week 4,500 acres of the Gila Wilderness burned 
due to lightning, and fire crews had difficulty navigating the rugged 
terrain of the wilderness to actually fight the fires. While much of 
the West continues to burn, how much sense does it make to keep 
unsuitable areas under such restrictive regulations? These areas are 
tinderboxes, just waiting for a lightning strike or some other spark to 
ignite a conflagration. This story plays out time and time again across 
the West.
    It makes much more sense to release these WSAs than to just keep 
them in this constant state of limbo. Releasing them will keep them 
under federal ownership, and opens them up to the same management 
practices available on other federal lands. This will allow the various 
federal agencies to conduct proper land management to prevent the 
spread of wildfires, and keep these lands healthy for both people and 
animals to enjoy. Preventing us from releasing theses WSAs only keeps 
us from implementing commonsense solutions that can keep our forests 
thriving, and maintain thriving habitats that actually benefit 
wildlife. The way to do this is to move these WSAs into the Multiple 
Use category. Some people hear Multiple Use and think that it leads to 
degradation of the environment. It does not. It maintains a proper 
balance to keep the forests and other natural areas alive. It maintains 
a healthy wildlife balance. Plus, it can lead to economic growth 
through managed timber harvesting.
    Similarly, in 1979, the Forest Service recommended that 36 million 
acres of Inventoried Roadless Areas (IRAs) in its last comprehensive 
study of roadless areas, known as the Roadless Area Review and 
Evaluation II (RARE II). In RARE II, the Forest Service recommended 36 
million acres of IRAs are not suitable for wilderness designation, 
about the size of the state of Michigan. Nearly 1.2 million acres in 
New Mexico are not suitable, which equates to the state of Delaware. 
This bill would lift the restrictive practices on these giant tracts of 
land that put the welfare and livelihood of the West at risk, and 
preclude job creation.
    Another positive benefit of releasing these WSAs will be in our 
watersheds. Overgrown forest areas dry out our aquifers and rivers, 
leaving the West ready to burn, and cutting off needed water for our 
communities to use for basic services, including fire fighting.
    I am proud to be here today as an original cosponsor of this 
important piece of legislation, and urge my colleagues to support it. 
H.R. 1581 is good for the West and good for America. It will allow more 
Americans to enjoy our federal lands, and allow us to actually protect 
the habitats of wildlife through proper land management. Again, I think 
the Chairman and Ranking Member for conducting this hearing today, and 
I look forward to answering your questions.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman Pearce. Once again you 
are welcome to stay with us throughout the entire, to join us 
on the dais when you wish to. Mr. Abbey, and also once again if 
you need a little bit more time to come in on both bills, feel 
free to use that as well. You are recognized.

    STATEMENT OF ROBERT V. ABBEY, DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Abbey. I appreciate that, Mr. Chairman, and again it is 
a pleasure to appear before this Subcommittee and to speak to 
the members of this group. I appreciate the opportunity to 
testify on H.R. 1581 as well as H.R. 2578. The Bureau of Land 
Management opposes H.R. 2578, which would for the first time 
de-designate a segment of the river previously designated by 
Congress as a Wild and Scenic River, and would inundate 
additional portions of that river possibly affecting up to 
three Bureau of Land Management-managed areas of critical 
environmental concerns.
    We recommend that an assessment of the impacts be performed 
prior to the Congress passing this legislation, so that we 
fully understand the true impacts of the inundation on the 
values of the river and adjacent areas of critical 
environmental concern. Among potential resource implications of 
this inundation are habitat loss for protected and threatened 
species, also significant cultural and historic resources in 
the area, including the Yosemite Valley Railroad and historic 
goldmine sites would likely be degraded or destroyed.
    I would like to spend the remainder of my time discussing 
H.R. 1581. The Administration strongly supports the 
constructive resolution of wilderness designations and 
wilderness study areas release on public lands across the 
United States. However, the Administration opposes H.R. 1581 
which would unilaterally release 6.6 million acres of 
wilderness study areas. H.R. 1581 is a one-size-fits-all 
approach that fails to reflect local conditions and community-
based interests. It is kind of like using a 30-06 to shoot a 
small rabbit. It is much more of a weapon than is needed, and 
there is not a lot of meat left on that rabbit after you shoot 
it.
    Section 603 of the Federal Land Policy and Management Act 
of 1976 directed the Bureau of Land Management to identify 
areas with wilderness characteristics. This inventory was 
completed in 1980. The Bureau of Land Management identified 
over 800 wilderness study areas in that process, encompassing 
over 26 million acres of BLM-managed lands. Each of these 
wilderness study areas met the criteria for wilderness 
designation established by the Wilderness Act.
    Today approximately 12.8 million acres of the original 26 
million acres remain as wilderness study areas and are awaiting 
final Congressional resolution. The second step of the process 
was to study each of the wilderness study areas and make a 
recommendation to the President on the suitability or 
nonsuitability of each area. The central issue addressed by the 
studies was not to determine whether or not areas possess 
wilderness characteristics. That fact had been previously 
established through the inventory process.
    Rather, the question asked was, was this area more suitable 
for wilderness designation or more suitable for non-wilderness 
uses? Among the elements considered at that time were mineral 
surveys, conflicts with potential uses, manageability, public 
opinion, and a host of other elements. The process was not a 
scientific one by any means, but rather a consideration of 
various factors to reach a recommendation.
    These recommendations are now over 20 years old, and the 
only ground work associated with them is as much as 30 years 
old. In that time resource conditions have changed, our 
understanding of mineral resources has changed, and public 
opinion has changed. If these suitability recommendations were 
made today, many of them would be different. A blanket release 
of lands from wilderness study area status that is based on 
data that is over 30 years old does not allow for meaningful 
review of these lands or their resource values in today's 
society.
    The status of wilderness study areas need to be resolved, 
but in the interim they should be continued to be managed to 
keep Congressional options open. Mr. Chairman, you can bet I am 
just as frustrated as many members of your Subcommittee as to 
how long it is taking for us to determine which of these 
wilderness study areas should be designated as wilderness and 
which ones should be released for other purposes. The answer is 
to move forward in the footsteps of Washington County, Utah, 
and Owyhee County, Idaho, and so many other collaborative 
efforts, not to seek an all encompassing solution to a complex 
issue.
    America's wilderness systems include many of the nation's 
most treasured landscapes and ensure that these untrampled 
lands and resources will be passed down from one generation of 
Americans to the next. Through our wilderness decisions we 
demonstrate a sense of stewardship and conservation that is 
uniquely American and is sensibly balanced with the other 
decisions that we make that affect public lands. These 
decisions should be thoughtfully made and considered, not the 
result of a one-size-fits-all edict. Resolution and certainty 
will serve all, and this Administration stands ready to work 
cooperatively with Congress toward that end.
    [The prepared statements of Mr. Abbey follow:]

Statement of Robert V. Abbey, Director, Bureau of Land Management, U.S. 
Department of the Interior, on H.R. 1581, Wilderness and Roadless Area 
                          Release Act of 2011

    Thank you for the invitation to testify on H.R. 1581, the 
Wilderness and Roadless Area Release Act. The Administration strongly 
supports the constructive resolution of wilderness designation and 
Wilderness Study Area (WSA) release issues on public lands across the 
western United States. However, the Administration strongly opposes 
H.R. 1581 which would unilaterally release 6.6 million acres of WSAs on 
public lands. H.R. 1581 is a top-down, one-size-fits-all approach, that 
fails to reflect local conditions and community-based interests 
regarding WSAs managed by the Department of the Interior.
    Much as the Department of the Interior would oppose a blanket 
designation of all WSAs as wilderness, we oppose this proposal to 
release over 6.6 million acres of WSAs from interim protection. We 
encourage Members of Congress to work with local and national 
constituencies on designation and release proposals, and the Bureau of 
Land Management (BLM) stands ready to provide technical support in this 
process. Public Law 111-11, the Omnibus Public Land Management Act of 
2009, serves as an excellent model for wilderness designation and WSA 
release decisions thoughtfully conceived and effectively implemented.
    The Department of the Interior defers to the Department of 
Agriculture on provisions of the bill affecting lands managed by the 
U.S. Forest Service.

Background
    In 1976, Congress passed the Federal Land Policy and Management Act 
(FLPMA), which provides a clear statement on the retention and 
management of lands administered by the BLM. Section 603 of FLPMA 
provided direction under which the BLM became a full partner in the 
National Wilderness Preservation System established by the Wilderness 
Act of 1964.
    The first step of the Section 603 process, to identify areas with 
wilderness characteristics, was completed in 1980. The BLM identified 
over 800 WSAs encompassing over 26 million acres of BLM-managed lands. 
Each of these WSAs met the criteria for wilderness designation 
established by the Wilderness Act: sufficient size (5,000 roadless 
acres or more), as well as naturalness, and outstanding opportunities 
for solitude or a primitive and unconfined type of recreation. Today, 
approximately 12.8 million acres (545 units) of the original 26 million 
acres remain as WSAs and are awaiting final Congressional resolution. 
Section 603(c) of FLPMA directs the BLM to manage all of these WSAs 
``in a manner so as not to impair the suitability of such areas for 
preservation as wilderness. . .'' WSAs are managed under the BLM's 
``Interim Management Policy for Lands Under Wilderness Review.''
    The second step of the process, begun in 1980 and concluded in 
1991, was to study each of the WSAs to make a recommendation to the 
President on ``the suitability or nonsuitability of each such area or 
island for preservation as wilderness. . .'' The central issue 
addressed by the studies was not to determine whether or not areas 
possessed wilderness characteristics, this fact had been previously 
established. Rather the question asked was ``is this area more suitable 
for wilderness designation or more suitable for nonwilderness uses?'' 
Among the elements considered were: mineral surveys conducted by the 
U.S. Geological Survey and Bureau of Mines, conflicts with other 
potential uses, manageability, public opinion, and a host of other 
elements. This process was not a scientific one, but rather a 
consideration of various factors to reach a recommendation. Between 
July 1991 and January 1993, President George H. W. Bush submitted these 
state-by-state recommendations to Congress.
    These recommendations are now 20 years old, and the on-the-ground 
work associated with them is as much as 30 years old. During that time 
in a number of places, resource conditions have changed, our 
understanding of mineral resources has changed, and public opinion has 
changed. If these suitability recommendations were made today, many of 
them would undoubtedly be different.

Examples of Recent Designations
    Examples abound of WSAs recommended nonsuitable which Congress 
later designated as wilderness after careful review, updated analysis, 
and thoughtful local discussions. A number of such designations were 
incorporated into Public Law 111-11, the Omnibus Public Land Management 
Act of 2009, which designated over 900,000 acres of new BLM-managed 
wilderness and also released well over 250,000 acres from WSA status.
    The Granite Mountain Wilderness designated by P.L. 111-11 is 
located east of Mono Lake in central California. In 1991, the entire 
WSA was recommended nonsuitable in large part due to reports of high 
potential for geothermal resources. Subsequent reviews of mineral 
potential, including several test wells on nearby lands, showed a low 
potential for geothermal resources. In 2008, the BLM provided testimony 
in support of Representative Buck McKeon's legislation, H.R. 6156, 
designating the Granite Mountain Wilderness.
    P.L. 111-11 also included broad-scale wilderness designation and 
WSA release in Utah's Washington County and Idaho's Owyhee County. Both 
of these successful efforts were the result of hard work by the local 
Congressional delegations, working with local elected officials, 
stakeholders, and user groups along with technical support from the 
BLM. They did not rely on decades old suitability studies, but rather 
sought common ground and comprehensive solutions to specific land 
management issues. In Owyhee County, what was once 22 individual WSAs 
is now over half a million acres of wilderness in six distinct 
wilderness areas, as well as nearly 200,000 acres of released WSAs. 
Many acres the BLM recommended nonsuitable in 1992 were designated; 
likewise acres recommended suitable were released by the legislation.
    Similarly, the Northern California Coastal Wild Heritage Wilderness 
Act, P.L. 109-362, designated a number of wilderness areas in northern 
California, including Cache Creek Wilderness located 60 miles northwest 
of Sacramento in the Northern Coast Range. Cache Creek WSA was 
recommended nonsuitable in 1991 due in large part to the presence of 
550 mining claims within the area. Fifteen years later, when 
designating legislation was proposed, all of these claims had been 
abandoned due to the area's low mineral potential.
    Numerous other examples exist, but suffice it to say, every 
situation with every WSA is distinct and deserves to be examined 
individually in a congressionally-driven process involving local and 
national interests and a wide range of stakeholders. This process 
should place stronger emphasis on current resource conditions and 
opportunities for protection, than on decades old recommendations. The 
Wilderness Act and FLPMA put the responsibility for wilderness 
designation and release squarely with Congress. It is an awesome 
responsibility, which has in the past, and must in the future, be 
carefully discharged.

H.R. 1581
    H.R. 1581(section 2) provides that BLM-managed WSAs which were 
recommended ``nonsuitable'' have been adequately studied for wilderness 
designation, and are released from the nonimpairment standard 
established in section 603(c) of FLPMA. This section further provides 
that these released lands are to be managed consistent with the 
applicable land use plan and that the Secretary may not provide for any 
system-wide policies that direct the management of these released lands 
other than in a manner consistent with the applicable land use plan. 
Finally, section 2(e) provides that Secretarial Order 3310 (Wild Lands 
Order) shall not apply to these released lands.
    The Administration strongly opposes section 2 of H.R. 1581. A 
blanket release of lands from WSA status does not allow for a 
meaningful review of these lands and their resource values. Every acre 
of WSA should not be designated as wilderness; neither should 6.6 
million acres of WSAs be released from consideration without careful 
thought and analysis.
    The status of WSAs needs to be resolved but in the interim they 
should continue to be managed to keep Congressional options open. I 
share the frustration of many Members of Congress that resolution has 
taken much too long. The answer is to move forward in the footsteps of 
Washington County, Utah and Owyhee County, Idaho, and so many other 
collaborative efforts reflected in Public Law 111-11, not to seek an 
all encompassing solution to a complex issue.
    We concur with the bill's approach in section 2(c) that lands 
released from interim protection, which we would hope would take place 
in a thoughtful process in the context of overall wilderness 
designation and release legislation, should be managed consistent with 
local land use plans. It is the local planning process through which 
the BLM makes important decisions on management of these lands, 
including, among other things, conventional and renewable energy 
production, grazing, mining, off-highway vehicle use, hunting, and the 
consideration of natural values.

Conclusion
    America's wilderness system includes many of the Nation's most 
treasured landscapes, and ensures that these untrammeled lands and 
resources will be passed down from one generation of Americans to the 
next. Through our wilderness decisions, we demonstrate a sense of 
stewardship and conservation that is uniquely American and is sensibly 
balanced with the other decisions we make that affect public lands. 
These decisions should be thoughtfully made and considered, not the 
result of a top-down, one-size-fits-all edict. Resolution and certainty 
will serve all parties--including the conservation community, 
extractive industries, OHV enthusiasts and other recreationists, local 
communities, State government, and Federal land managers. The 
Administration stands ready to work cooperatively with Congress toward 
that end.
                                 ______
                                 

Statement of Robert V/Abbey, Director, Bureau of Land Management, U.S. 
 Department of the Interior, on H.R. 2578, Amends the Wild and Scenic 
          Rivers Act for the Lower Merced Wild & Scenic River

    Thank you for inviting me to testify on H.R. 2578, a bill amending 
the Wild and Scenic Rivers Act (Act) to reduce the length of the Merced 
River which is designated as a component of the National Wild and 
Scenic Rivers System, while increasing the allowed level of Lake 
McClure in central California. H.R. 2578 would, for the first time, de-
designate a segment of river previously designated by Congress. The 
Wild and Scenic Rivers Act prohibits the Federal Energy Regulatory 
Agency (FERC) from licensing any project works ``on or directly 
affecting any river which is designated'' as Wild & Scenic. H.R. 2578, 
by removing the Wild and Scenic designation of this segment of the 
Merced River, would enable the FERC to consider the relicensing of FERC 
hydroelectric project No. 2179. The Department of the Interior believes 
such precipitous action deprives the public of the opportunity to 
evaluate the potential loss of the wild and scenic values previously 
accorded to the River and opposes H.R. 2578.

Background
    Section 1 of the 1968 Wild and Scenic Rivers Act (Public Law 90-
542) sets forth Congress' vision for management of the Nation's rivers:
        ``It is hereby declared to be the policy of the United States 
        that certain selected rivers of the Nation which, with their 
        immediate environments, possess outstandingly remarkable 
        scenic, recreational, geologic, fish and wildlife, historic, 
        cultural, or other similar values, shall be preserved in free-
        flowing condition, and that they and their immediate 
        environments shall be protected for the benefit and enjoyment 
        of present and future generations. The Congress declares that 
        the established national policy of dam and other construction 
        at appropriate sections of the rivers of the United States 
        needs to be complemented by a policy that would preserve other 
        selected rivers or section thereof in their free-flowing 
        condition to protect the water quality for such rivers and to 
        fulfill other vital national conservation purposes.''
    From its headwaters in the snow-fed streams of the Yosemite 
National Park high country, the Merced plunges thousands of feet 
through boulder lined canyons before emptying into Lake McClure. Over 
122 miles of the Merced River in central California have been 
designated by Congress as components of the National Wild and Scenic 
River System.
    In 1992, Public Law 102-432, extended the previously designated 
Merced Wild and Scenic River by an additional eight miles to the 867 
feet spillover level of Lake McClure. The Bureau of Land Management 
(BLM) manages the upper five miles as a recreational river and the 
lower three miles as a wild river. Under the provisions of P.L. 102-
432, the level of Lake McClure may not exceed an elevation of 867 feet 
above mean sea level, a level intended to balance water and power needs 
of the local community with protection of the outstanding remarkable 
values of the lower Merced River.
    The lower Merced River is noted for having some of the most 
outstanding scenery and whitewater boating opportunities in California 
and the nation. Every summer over 10,000 whitewater enthusiasts test 
their skills on the river. The BLM currently permits 12 commercial 
businesses, which guide most of these recreationists on this section of 
the Merced River.
    The communities of Mariposa and El Portal benefit from these 
whitewater boaters who contribute to the local tourism economies. 
Boaters generate important economic activity during the traditionally 
lower visitation times of spring and early summer, expanding the length 
of the Yosemite region tourism season. This river-dependent tourism 
provides a greater level of economic and employment stability for these 
communities.

H.R. 2578
    H.R. 2578 is a short bill with unprecedented effects. The full 
implications of H.R. 2758 are not clear. Before the Committee takes 
action on the legislation, the BLM recommends that the impacts of de-
designation and inundation to the values of the Merced River that BLM 
manages as part of the Wild and Scenic River System be fully analyzed 
through the lens of the agency entrusted with management of its values 
and resources, which would also include an opportunity for public 
comment.
    Potential impacts from inundation could be substantial to both 
natural resources and local economies. H.R. 2578 reduces the current 
designated segment of river from 8 miles to 7.4 miles and changes the 
water surface level of Lake McClure from 867 feet mean sea level to the 
current Federal Energy Regulatory Commission (FERC) project boundary at 
879 feet. The result of the increase in the FERC project boundary is 
likely an approximately one and one-quarter mile inundation, likely 
resulting in still water conditions, over half a mile of which will 
impact the remaining Merced Wild and Scenic River System.
    Among the potential resource implications of this inundation are 
habitat loss for both the limestone salamander (a California designated 
Fully Protected Species) and the elderberry longhorn beetle (a 
federally listed threatened species under the Endangered Species Act). 
Portions of the BLM Limestone Salamander Area of Critical Environmental 
Concern and the BLM Bagby Serpentine Area of Critical Environmental 
Concern would be flooded. Inundation would include the destruction of 
thousands of individual BLM sensitive listed plants and their seed 
banks. Habitat for the yellow-legged frog, a BLM sensitive species, 
would be inundated from reservoir levels backing up and into the 
Sherlock Creek drainage. Impacts would also include loss of riparian 
vegetation and degradation of the scenic values of the corridor. 
Additionally, significant cultural and historic resources in the area, 
including the remains of the Yosemite Valley Railroad and historic 
gold-mining sites would be degraded.
    A variety of recreation activities within the river corridor could 
also be impacted by the legislation. For whitewater boaters, inundation 
would add another one and a quarter miles to an already arduous paddle 
across flat water to an alternate take-out. In addition to boaters, the 
canyon is becoming increasingly utilized as a recreational destination 
for hikers, mountain bikers, and equestrian riders who could be 
displaced by a likely inundation of five miles of the existing Merced 
River trail.
    H.R. 2578 would, for the first time, weaken the Wild and Scenic 
Rivers Act by de-designating a segment of a river and allowing for the 
inundation of portions of the remaining Wild and Scenic River, and 
could set a troublesome precedent. Such an unprecedented action would 
result in a wild river segment becoming more like a lake than a river 
and could compromise the integrity of the Wild and Scenic River System, 
the purpose of which is to preserve rivers in their ``free-flowing 
condition.''

Conclusion
    Before further action is taken on H.R. 2578, the BLM recommends 
that all of these implications of de-designation of Wild and Scenic 
River and changes to the level of Lake McClure be more fully explored. 
The Department believes the values for which Congress initially 
designated the Merced Wild and Scenic River should not be sacrificed 
without a full analysis through the prism of the BLM.
    Thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Bishop. Thank you. You got both bills in within five 
minutes, congratulations, I am impressed. Mr. Sherman, I 
apologize for forgetting your name at the very beginning, I am 
old, I am gray, it is going to happen a lot.
    Mr. Sherman. Me too.
    Mr. Bishop. The Under Secretary for Agriculture and Natural 
Resources Environment. Same thing, we recognize you for five 
minutes, if you wish to talk about both bills we can fudge 
around with the time.

STATEMENT OF HARRIS SHERMAN, UNDER SECRETARY OF AGRICULTURE FOR 
NATURAL RESOURCES AND ENVIRONMENT, U.S. FOREST SERVICE, UNITED 
                STATES DEPARTMENT OF AGRICULTURE

    Mr. Sherman. OK, thank you very much, Mr. Chairman. I 
appreciate the chance to discuss H.R. 1581, the 2001 Roadless 
Rule, and general considerations about both. At the outset I 
would like to clarify that the President and Secretary Vilsack 
strongly support roadless values in our National Forest and the 
2001 Rule. The 2001 Rule is important for a variety of reasons. 
These are large, intact, unfragmented lands, they constitute 
about 2 percent of the landmass of the United States, and they 
are critically important in protecting a number of key values.
    Over 20 percent of Americans, some 66 million Americans, 
get their drinking water from our National Forests. Over 300 
municipal water districts have roadless areas within their 
watersheds. Roadless areas save these communities millions of 
dollars within their watersheds through the treatment that is 
provided naturally by these forests. As a former water 
commissioner in the City and County of Denver, I can tell you 
that these roadless areas were very important for the city and 
its future water supplies.
    Roadless areas provide also key habitat for 25 percent of 
the nation's threatened and endangered species. These areas 
provide habitat for 65 percent of candidate species and species 
of conservation concern, these are species that we clearly want 
to keep off the threatened and endangered list. Roadless areas 
provide a bulwark against the spread of nonnative invasive 
species, which is a growing serious problem in the West and 
throughout the country.
    And roadless areas are heavily relied upon for disbursed 
recreation by hunters, fishermen, sportsmen, hikers, campers, 
snowmobilers, bikers. In our National Forest System we have 
some 110 million Americans that engage in disbursed recreation 
activities where roadless areas are critically important to 
them, and in turn these activities help support communities and 
help to provide jobs.
    Now while providing these key values, roadless areas also 
have a certain amount of flexibility in accommodating other 
users and needs. Let me give you a few examples. Forest 
restoration work, including the thinning and the clearing of 
timber, can occur within roadless areas to reduce fire risk and 
hazardous fuels. Under certain circumstances hydroelectric 
facilities are authorized under the 2001 Rule. Projects under 
the 1872 Mining Act are allowed to proceed. Mechanized and 
motorized activities can occur in roadless areas.
    Since 2001 and the establishment of the Roadless Rule, we 
have seen a decrease in the amount of litigation that has 
occurred on National Forests. Before 2001 many decisions that 
involved roadless areas became a flashpoint for litigation and 
strained the relationship between stakeholders. Since the 2001 
Rule I think it is fair to say there has been more 
collaboration between stakeholders, concerning forest 
restoration and concerning timber production.
    Our Forest Service personnel are now focusing more on 
projects that have the chance of proceeding, and we are 
pursuing larger landscape scale projects. Let me also say that 
the 2001 Rule allowed us to focus our limited road funds on 
maintaining existing roads. The Forest Service has some 370,00 
miles of roads within its boundaries, which is eight times what 
the Interstate Highway System has. Our current budget allows us 
only to handle a fraction of the maintenance associated with 
the current road system.
    To build new roads in roadless areas would be very 
expensive. These are far away areas, they often are in 
difficult terrain, they are very costly, and they would quickly 
eat up the limited budget that we have. We do not think this is 
a wise use of our limited resources. So for these reasons and 
others we oppose H.R. 1581 and I would be happy to answer any 
questions. Thank you.
    [The prepared statement of Mr. Sherman follows:]

Statement of Harris Sherman, Under Secretary for Natural Resources and 
Environment, United States Department of Agriculture, on H.R. 1581, the 
            Wilderness and Roadless Area Release Act of 2011

    Thank you for the opportunity to provide the Department of 
Agriculture's views on H.R. 1581, the Wilderness and Roadless Area 
Release Act of 2011. I am Harris Sherman, Under Secretary for Natural 
Resources and Environment at the Department of Agriculture.
    H.R. 1581 would direct that the provisions of the 2001 Roadless 
Area Conservation Final Rule and the 2005 State Petitions for 
Inventoried Roadless Area Management Final Rule are no longer 
applicable to inventoried roadless areas within the National Forest 
System (NFS), except those that are recommended for designation as 
wilderness and have been designated as wilderness by Congress prior to 
the enactment of this bill, and would direct that such lands be managed 
according to the applicable land and resource management plan instead. 
The bill would also prohibit the Secretary of Agriculture from issuing 
any system-wide regulation or order that would direct management of the 
lands released by this bill in a manner contrary to the applicable land 
and resource management plan. We defer to the Secretary of the Interior 
to provide views on the provisions in the bill relating to the release 
of public lands managed by the Bureau of Land Management.
    The President and the Secretary strongly support roadless values 
and the 2001 Roadless Rule. By making the 2001 Roadless Rule's 
provisions inapplicable to inventoried roadless areas, and by 
precluding the Secretary from establishing any other system-wide 
management direction for such lands, this bill would undermine the 
ability of the Forest Service to carry out its responsibilities for 
conserving critical resource values. It would also subject local forest 
management efforts to increased conflict, expense and delay, as 
disputes about roadless area protection are reopened and replayed from 
one project proposal to the next, drawing limited capacity away from 
other efforts that could elicit broader support and deliver more 
benefits to rural communities. For these reasons, the Administration 
strongly opposes this bill.
    Roadless areas play an important role in preserving water, 
biodiversity, wildlife habitat, and recreation opportunities including 
hunting and fishing: that's why they are an integral part of the 
Secretary's vision for America's forests. As development continues to 
fragment landscapes and watersheds around the nation, the remaining 
large tracts of undeveloped land represented by inventoried roadless 
areas are increasingly critical in protecting these values.
    Roadless areas cover all or part of over 300 municipal watersheds 
in the U.S., supplying clean and abundant drinking water for millions 
of Americans. Maintaining them in a relatively undisturbed condition 
saves downstream communities millions of dollars in water filtration 
costs. Roadless areas support biodiversity by contributing habitat for 
approximately 25% of all Federally listed threatened and endangered 
animal species and 65% of species identified as needing protection in 
order to avoid such listing. They protect landscapes and resource 
commodities by serving as a bulwark against the spread of nonnative 
invasive species. They provide important backcountry experiences for 
elk hunters, mule deer hunters, trout fisherman and other sportsmen and 
women. And they provide countless opportunities for other forms of 
recreation, including hiking and camping, biking, kayaking, 
snowmobiling, and more. These recreation opportunities connect people 
to the great outdoors, and support outdoor recreation and tourism 
businesses important to local economies.
    The 2001 Roadless Area Conservation Rule strengthens the 
Secretary's ability to protect these values by prohibiting road 
construction and timber harvesting that may result in long-lasting 
impacts on roadless area characteristics. However, the Rule also 
provides important flexibility to permit beneficial management 
activities and allow the Agency to address issues of importance for 
public health and safety. For example, roads may be constructed, 
reconstructed or realigned in order to protect public health and 
safety, provide access to reserved or existing rights including for 
mining or oil and gas leases, conduct actions under CERCLA, or prevent 
resource damage from existing roads. Timber may be cut, sold and 
removed where needed to reduce the risk of uncharacteristic wildfire 
effects, improve habitat for threatened and endangered species, 
maintain or restore ecosystems, or provide for administrative or 
personal use including firewood collection, or where the removal is 
incidental to a management activity not prohibited by the rule or there 
was substantial alteration of an area in the inventory prior to January 
12, 2001. Furthermore, the 2001 Rule places no restrictions on any form 
of motorized or non-motorized use.
    Recent examples of projects that would meet the provisions 
described in the 2001 Rule include forest restoration work to reduce 
fire hazard near towns throughout the West; hydroelectric facility 
developments in Alaska that provide electricity for Sitka, Petersburg, 
Wrangell, Ketchikan, Upper Lynn Canal, and Hoonah; development of an 
aerial tram recreational facility in Ketchikan, Alaska; access roads 
that provide access to State Forest lands in Minnesota; clean-up 
activities at the Monte Cristo and Azurite mines in Washington; 
realignment of roads to reduce erosion effects in Montana, Alaska, 
Wyoming, and Utah; permits to drill methane vents to provide for worker 
safety at the Oxbow mine in Colorado; and mineral explorations under 
the 1872 General Mining Law in Utah, Nevada, Montana, Washington, and 
Alaska.
    In addition to providing a flexible framework that protects 
resource values while permitting important forest management activities 
at the local level, the 2001 Rule allows local managers and 
stakeholders to focus on projects that have broader support and greater 
promise for delivering real benefits to communities. Previously, 
proposals for projects in roadless areas were often accompanied by 
acrimonious procedural battles requiring studies, appeals and 
litigation whose costs exceeded the value of any project benefits. We 
now see more collaborative relationships bearing fruit on individual 
forests in the form of stewardship contracts, landscape restoration 
projects, hazardous fuels reduction efforts, and other important 
activities, reflecting a broader zone of agreement than seen in decades 
about the need for a healthy forest products industry to support the 
infrastructure for maintaining and restoring healthy forest landscapes. 
If this bill becomes law, successes such as these could become a thing 
of the past as we return to the pre-2001 mode of legal challenges to 
individual projects proposed in roadless areas.
    We note that Idaho and Colorado have both petitioned for 
rulemaking, under the Administrative Procedure Act (P.L. 79-404), to 
establish state-specific roadless area management direction. In the 
case of Idaho, we believe the rule there is on balance comparable or 
even more protective than the 2001 Roadless Rule. Likewise, in 
Colorado, the propose rule is comparable or more protective on balance 
than the 2001 rule. Idaho's rule was completed in 2008, while the 
public comment period on Colorado's proposed rule closed on July 16, 
2011. Since much of the roadless area covered by the two state 
petitions is included in the inventory that would revert to applicable 
forest plan direction under the bill, we are concerned about how the 
legislation would impact these respective state efforts.
    We also note that there are multiple cases involving the 2001 Rule 
that have come before the Federal courts, including the following 
three: a California district court decision and Ninth Circuit appeal 
ruling that reinstated the 2001 Rule within the Ninth Circuit and New 
Mexico; a Wyoming district court decision, which we have appealed to 
the Tenth Circuit, that enjoins the agency from applying the 2001 Rule 
nationwide; and an Alaska district court decision that overturns a 
regulatory exemption for the Tongass National Forest and reinstates the 
2001 Rule in that location. The Department has issued interim direction 
reserving to the Secretary the authority to approve or deny projects in 
inventoried roadless areas on a case-by-case basis.
    In closing, the Administration strongly opposes H.R. 1581 because 
its prohibition on applying the 2001 Rule or any other system-wide 
management direction for an entire category of lands would compromise 
roadless area protections and hamper the Forest Service's ability to 
carry out its responsibilities, ultimately undermining the agency's 
ability to protect our Nation's forests while delivering benefits to 
rural communities.
    This concludes my statement. I would be pleased to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. You did it within the five minutes 
as well and you actually were 15 seconds faster than Abbey, so 
congratulations with that. With that, that is right, so 
actually, never mind. With that we are open for questions 
either for Mr. Abbey or for Mr. Sherman, or Congressman Pearce 
can answer questions at this time on this particular panel. I 
am going to ask the Ranking Member if he wishes to go first 
with any questions for these three.
    Mr. Grijalva. Thank you very much. Just a couple. I think 
the first one to all the panelists is a general question, that 
there are currently about 10 million acres of public land that 
the Departments of Agriculture and Interior have recommended 
for wilderness designation. Some of these recommendations have 
been waiting for decades here in Congress for action. If we 
were to follow the logic of the legislation, which is still 
questionable, if we were to follow the logic, then we would be 
releasing land and the recommendations not to designate certain 
lands as wilderness would be followed, but at the same time the 
agencies have recommended those 10 million acres for 
designation. And my question is if we were to follow that, if 
we are really following what the agency did in terms of 
recommendations wouldn't it be a good thing to do the 
wilderness designations as part of the package? And it is not 
in the legislation, but it is a question.
    Mr. Abbey. Well, Congressman, let me take the first stab at 
it and let me first respond to the Chairman's statement why 
Harris took 15 seconds less than my statement, he doesn't have 
the Southern accent so he can speak faster. But I will say that 
the inventories and studies that form the Bureau of Land 
Management's recommendations regarding wilderness study areas 
are now 20 and 30 years old. It doesn't matter whether or not 
we had recommended these areas as unsuitable or suitable. I do 
think it is important that we go back and assess each of these 
areas through localized bills or smaller bills so that we can 
deal with these wilderness issues on a case-by-case basis.
    Mr. Sherman. I might just add that as we do our forest 
plans throughout the country we will recommend certain 
wilderness designation for portions of those lands if they are 
suitable, but we bring that recommendation back to Congress and 
it is up to Congress to make the decision as to whether it 
wishes to include it in the wilderness system.
    Mr. Grijalva. Thank you. Mr. Abbey, and correct these 
figures for me if I am wrong, but only 1 percent of BLM lands 
in the Rocky Mountains is protected as wilderness with that 
designation, and just 8 percent is currently WSA. Yet over 42 
percent is currently under lease for oil and gas industry, and 
so we heard a lot about a balanced approach, so my question is 
that a balanced approach? Furthermore, the lands under lease, 
only about 22, 23 percent are actually in production. So it 
begs the question, does the industry really need more lands 
when it is already sitting on a bunch of leased land with 
approval permits to drill and is not drilling? So the balance 
question which we have heard a lot about, and if you wouldn't 
mind responding to that?
    Mr. Abbey. Congressman, right now we have almost 40 million 
acres under lease for oil and gas. Of those 40 million acres we 
have 12.4 million acres that are actually in production. In 
this Fiscal Year alone, 2011, we have leased, the Bureau of 
Land Management has leased 650,000 acres for oil and gas. We 
have also made another 6,400 acres available for lease under 
coal and we have dedicated 40,000 acres that we have approved 
for solar, wind, and geothermal projects. We are trying our 
best to bring some balance back to multiple use. We believe 
conservation is a component of multiple use management.
    Mr. Grijalva. Thank you. And right now 76 percent of our 
National Forest and BLM lands are open to development. Under 
this legislation we move to 88 percent of that open to 
development. I would say that the balance question continues to 
be on a scale that is not balanced to say the least. Mr. 
Sherman, poll after poll has demonstrated that Americans are 
overwhelmingly favor increased environmental protection of the 
public lands, yet this bill would remove existing protections 
that have been in place for decades for tens of millions of 
acres of American lands. Doesn't this fly in the face of what 
the American people have not only through polls but through 
their advocacy for these special places, that what they want?
    Mr. Sherman. When the 2001 Rule was promulgated, there was 
an enormous amount of public input that went into the 
development of the Rule. The Forest Service received over a 
million and a half comments on the proposed rule, the 
overwhelming majority were in favor of the 2001 Rule. The uses 
that occur in roadless areas, I want to emphasize that there 
are multiple uses that do occur in roadless areas. These areas 
are not being locked up, these area areas that can be used for 
a wide variety of recreational uses and other types of uses. So 
I think there continues to be support for the Roadless Rule. 
Within the Roadless Rule our forest plans, we manage these 
areas, we listen to what the public says about how they want to 
manage it under that umbrella, and I think it has worked 
reasonably successfully in the past and hopefully we can 
continue to do it in the future.
    Mr. Grijalva. Thank you. Yield back, thank you, Mr. 
Chairman.
    Mr. Bishop. Thank you. Representative McClintock?
    Mr. McClintock. Mr. Chairman, may I reserve my time? I am 
still getting up to speed on this.
    Mr. Bishop. OK. Representative Tipton, do you have 
questions?
    Mr. Tipton. Thank you, Mr. Chairman. You know, I think we 
have to be very clear, I think, you know, if we were to poll 
this room everyone is in favor of being able to protect our 
public lands. But it seems to me we almost get it at cross 
purposes. If this bill were to proceed and to pass, do all 
restrictions, all management of this land go away? Director 
Abbey?
    Mr. Abbey. No, Congressman, they would not. They would be 
managed consistent with the local land use plans.
    Mr. Tipton. So there still are protections for the land?
    Mr. Abbey. There could be some protections for some of 
these lands. In some cases there would not be protection.
    Mr. Tipton. Isn't the BLM's purpose to manage those lands 
so you have the authority to make some of those determinations, 
correct?
    Mr. Abbey. We could, by amending land use plans to come up 
with different management prescriptions for the appropriate 
future management of each of these areas.
    Mr. Tipton. OK, so we are clear that should this bill pass, 
protections don't go away, it is still going to be managed by 
the BLM, the Forest Service, and determinations will be made by 
these agencies in terms of development?
    Mr. Abbey. They would be managed for multiple use, and 
those management prescriptions would be defined by land use 
planning.
    Mr. Tipton. Great. Mr. Sherman, we are both out of 
Colorado, and we talk about the Roadless Rule and access. I 
know in our state a lot of the area that has been labeled as 
roadless has roads running all over it, and we are now seeing 
those roads blocked. And I have a real concern and I think you 
probably do as well in terms of some of the potential problems 
that we have with forest fires with the beetle kill that has 
gone on.
    I have visited with some folks out of your office and they 
said that they have a computer model in the event of fire, but 
they are continuing to block some of these roads. Are you very 
confident that the Forest Service is going to be able to 
guarantee us that we will have access to be able to get in and 
not only to protect the lives of the forest firefighters but 
also surrounding areas, that that plan can guarantee us that we 
will have the access necessary?
    Mr. Sherman. Congressman, as I mentioned earlier, we have 
some 370,000 miles of roads in our National Forests. And in 
some of these roadless areas, between the 1979 inventory up to 
2001, additional roads were built in roadless areas. Most of 
these roads are available for use. And our biggest problem to 
date has been that we lack sufficient funding to maintain the 
roads that we have. But where we have roads in place and we 
need to utilize those roads to deal with fire issues we are 
able to do that.
    Mr. Tipton. OK, great, and I guess concern that I have, and 
this is one that expressed, and Mr. Sherman coming now the same 
state and perhaps both of you would like to be able to address 
this, I have a constituent out of Montrose, Colorado, fought in 
the Korean War, was shot up and was somewhat ambulatory, but 
now to be able to get back to his favorite fly fishing area he 
needs to be able to get in on a small four-wheeler. That access 
is now being limited. Have you expressed direct concern for 
Americans with disabilities in terms of some of the access into 
these wilderness areas?
    Mr. Sherman. Well, the Forest Service has an active program 
to help disabled people access our National Forest lands. In 
certain roadless areas if there are trails and you have an off-
road vehicle you can use that to get into particular areas. The 
Roadless Rule itself again is about building new roads. But 
with existing roads and with existing trails these areas are 
open to people coming in and using ORVs, using mechanized or 
motorized equipment.
    Mr. Tipton. You know, we might want to discuss that, 
because we do have photos down in southwest Colorado of 
boulders being placed in the road so there isn't access, those 
are being blocked off. And I want to do that. Before I run out 
of time I do have one other concern. In Colorado, we have the 
most complex water law in the entire country, and what that 
means is first in right, and access to be able to get up to 
clean out head gates, to be able to get delivery of water, in 
terms of some of the road closures that are going on and 
limiting access to these areas, how are you going to be able to 
assure that Colorado farmers and ranchers are going to be able 
to access their water?
    Mr. Sherman. We need to sit down with these individuals or 
water districts and talk about the access that they need. Now 
generally speaking again these water districts have access to 
their storage facilities and their reservoirs and their 
pipelines, that has generally been the case. If there are 
instances where that isn't the case, then we need to sit down 
and discuss how we can work with them.
    Mr. Tipton. Well, I would agree with you that this 
generally is kind of the fly in the ointment, if you will, 
because that water is precious as you know in our state. I am 
sorry, Mr. Chairman, I am out of time.
    Mr. Bishop. Thank you. Mr. Heinrich.
    Mr. Heinrich. Thank you, Chairman. Mr. Abbey, I know my 
colleague from southern New Mexico mentioned a couple of areas, 
several of which are under the administration of the BLM. The 
Gila Wilderness obviously is under Forest Service management, 
but the Robledo Mountains unit and the Sierra de las Uvas 
wilderness study areas were mentioned as we need to be able to 
get into these areas to be able to control wildfire and to make 
sure that we don't have some conflagration. Are you familiar 
with the kind of forest types that are in those WSAs?
    Mr. Sherman. I am. And there is nothing under wilderness 
study status or even designated wilderness status that would 
preclude us from moving forward and taking the actions that are 
necessarily required to deal with emergency situations.
    Mr. Heinrich. Because if my recollection is correct, having 
spent quite a bit of time in Unit 21 doing some deer hunting in 
that area, the forests that I remember in places like the 
Sierra de las Uvas are primarily prickly pear, a little bit of 
ocotillo, and quite a bit of yucca, there is an occasional 
juniper tree, but I don't remember any of those areas being the 
high risk mixed conifer kind of fire conditions that we have 
seen----
    Mr. Pearce. Would the gentleman yield?
    Mr. Heinrich. I would absolutely yield to my colleague from 
New Mexico.
    Mr. Pearce. I am reading my testimony here and I don't see 
where I mentioned anything at all about access and forest fires 
in those particular areas. I mentioned that they are not 
suitable for wilderness designation.
    Mr. Heinrich. If I recall correctly, Congressman Pearce, 
what you said is we need to be able, you described a situation 
in the Gila and said we need to make sure we don't designate 
these areas so that we can actively manage them to prevent 
forest fire. And my point is if you look at the Sierra de las 
Uvas and the Robledos we are painting a very broad brush with 
this legislation that doesn't apply to each and every WSA.
    And if you look at the issue of local control in particular 
you would see that the City of Las Cruces, the City of Sunland 
Park, the Dona Ana County Commission, the Town of Mesilla, and 
dozens and dozens of organizations have suggested that some of 
these areas including the Sierra de las Uvas and the Robledos 
actually do have wilderness characteristics that deserve 
designation. A couple of years ago we had a place in New Mexico 
called Sabinoso. It was designated in the last omnibus lands 
bill as a wilderness area. If we applied the standard in this 
legislation to that area, Mr. Abbey, do you remember whether 
the Sabinoso was actually recommended for wilderness by the 
Bureau of Land Management?
    Mr. Abbey. I don't, Congressman, but I will say this. That 
of the 221 wilderness areas that have been designated by 
Congress and administered by the Bureau of Land Management, 98 
of those 221 areas that have been designated were, or had been, 
recommended as nonsuitable by the Bureau of Land Management.
    Mr. Heinrich. And the Sabinoso was one of those 98 because 
it was described at the time as too remote and difficult to 
access. Now I am not sure with how that doesn't square with 
wilderness characteristics, but the local community decided 
that it obviously did and it was designated. I want to switch 
gears real quick because of something that Under Secretary 
Sherman said and pose a question. You mentioned 373,000 miles 
of roads on our National Forests, many of which are in severe 
disrepair. Back in the 1990s the estimated backlog to bring 
those up to speed and make sure that they were safe and 
workable was about $10 billion. Do you have any idea what that 
figure would be today and how many years it would take you to 
actually deal with that backlog even if you were adequately 
funded?
    Mr. Sherman. I don't have any precise figures, but I do 
know just to deal with passenger vehicle roads, to maintain and 
repair roads that handle passenger vehicle automobiles, that 
would be about a $3 billion expense at the present time. And as 
for the other roads in the system I am sure we could get you a 
figure. But our budget, I think our budget for roads is about 
$250 million a year, so you can just do the math to begin to 
see the magnitude of the maintenance problem that we have.
    Mr. Heinrich. There also, Under Secretary Sherman, there 
seems to be some confusion among some of the folks between the 
differences in how we manage inventoried roadless areas, 
wilderness study areas, and designated wilderness. Could you 
real quickly go over the difference in how the Forest Service 
manages those different designations in conjunction with 
travel?
    Mr. Sherman. There is a significant difference between 
roadless areas and wilderness areas. Wilderness areas you 
cannot have any sort of mechanized or motorized uses that 
occur. Whereas in roadless areas mechanized and motorized uses 
are recognized and can occur. Many activities occur in roadless 
areas ranging from grazing, if there are preexisting before 
2001 mineral leases those are recognized, as I mentioned the 
1872 mining law allows activities to occur in roadless areas. 
There can be situations where there is directional drilling for 
oil and gas outside of roadless areas into roadless areas as 
long as there aren't roads. Existing roads, existing roads in 
the system can be used in roadless areas whereas they could not 
be in wilderness areas. So there is a substantial difference 
and I think there is a misconception that there is a so-called 
lockup of our lands with roadless areas.
    Mr. Bishop. Thank you. You went over your 15 seconds you 
earned earlier, I am sorry.
    Mr. Abbey. OK, thank you.
    Mr. Bishop. Ms. Noem, do you have questions for this group?
    Mrs. Noem. Thank you. Mr. Abbey, I am from South Dakota 
which has a significant amount of BLM land in it. I am curious, 
how many millions of acres does BLM have authority over in this 
country?
    Mr. Abbey. 245 million acres.
    Mrs. Noem. 245 million. And, Mr. Sherman, could you tell me 
Forest Service land?
    Mr. Sherman. 193 million acres.
    Mrs. Noem. OK. All right, what is the potential, Mr. Abbey, 
for economic development on these acres?
    Mr. Abbey. Substantial.
    Mrs. Noem. Such as?
    Mr. Abbey. Oil and gas leasing, coal development, renewable 
energy development, grazing, forest management. The list just 
goes on and on.
    Mrs. Noem. Is there a potential for businesses to be 
established in these areas as well?
    Mr. Abbey. There are quite a few permits that we issue 
authorizing small businesses, including those that are related 
to tourism activities.
    Mrs. Noem. I am curious, a lot of the conversation today 
has circulated around the fact that you don't have enough 
resources to adequately maintain your land, yet we have 
continued to see an explosion in growth of land that has 
continued to come under your jurisdiction. So I am curious as 
to how many acres would be enough, do you think, what would be 
the optimal level of BLM lands in this country that you think 
would fit under your authority?
    Mr. Abbey. Well, Ms. Noem, I don't have that figure. You 
know, again you have not heard me make any mention of our 
budget or the lack thereof. We do our best to manage public 
lands, those that are already under the jurisdiction of the 
Bureau of Land Management and those that are deserving of 
public ownership, to the best of our abilities with whatever 
means that Congress appropriates.
    Mrs. Noem. Mr. Sherman, would you answer that question as 
well for me, as far as what do you think would be the optimal 
number of acres in this country that you think, I know that 
your resources you have referred to a couple of times have been 
limited and the ability to maintain those lands has been 
difficult at times, so I am curious to see how many more acres 
you believe that you would be able to manage?
    Mr. Sherman. I don't think we are actively trying to expand 
the size of the U.S. Forest Service. I mean there are certain 
situations where we have inholdings which are problematic, 
which we try to either acquire or exchange lands to. But the 
Forest Service's land base has remained relatively steady over 
the past years.
    Mrs. Noem. Mr. Abbey, your agency recommends that nearly 
half of its wilderness study areas is not suitable for 
wilderness designation yet you want to keep control of these 
lands. What do you intend to do with them?
    Mr. Abbey. Well, that is up to the Congress. You know, 
these wilderness study areas will be managed to prevent 
impairment activities up until the time Congress makes a 
determination whether or not to designate them as wilderness or 
to release them for other purposes.
    Mrs. Noem. I have heard from many different people in our 
state that are concerned about the impact of not having 
motorized recreation occur on these lands, which is a much 
needed economic development in a lot of the rural areas of our 
state, and won't the wildlands order simply shut out a lot of 
the motorized recreation in many of the BLM lands and 
negatively impact the economic viability of some of these rural 
areas where the options are limited?
    Mr. Abbey. Well, we are not pursuing any kind of wildland 
initiative at this time due to the rider that has been placed 
by the Congress. I will say this, Congresswoman, is that we 
actually manage very little land in South Dakota as far as 
surface acres. We do manage an extensive amount of mineral 
estate in South Dakota. Nationwide the Bureau of Land 
Management manages 526,000 miles of motorized routes on BLM-
managed lands.
    There are 68.9 million acres of BLM-managed lands that are 
open to unlimited OHV use. You know, in Utah alone in the state 
where the Chairman is from, we manage 12 sites specifically for 
OHV recreation and have identified over 200,000 acres that have 
been dedicated to OHV activities or play areas. We do that in 
most of the BLM states that we have holdings.
    Mrs. Noem. Well, South Dakota has about 8.7 million acres 
of BLM-designated wilderness areas in our state, so it is a 
significant amount of acres. So this designation certainly is 
extremely important to our state, and as far as when we are 
looking at the impact of Federal lands on a rural state like 
South Dakota--where there are few options--we are certain you 
appreciate the authority for some local decision-making to have 
some control and input into the process.
    Mr. Abbey. Yes, and I appreciate that and, you know, you 
may have that many acres of wilderness in your state but they 
are not managed by the Bureau of Land Management.
    Mrs. Noem. We have, according to this, about 17 percent of 
the Federal land, of our land is Federal land, BLM has about 
8.7 million acres according to what I have on my records, and 
then we have about 13 million that is currently looking at 
wilderness study areas as well.
    Mr. Abbey. Let us correct that record for you, and I will 
be happy to do so after this hearing.
    Mrs. Noem. Sure, thank you, I appreciate it. I yield back.
    Mr. Bishop. Thank you. Love those riders, don't we? Mr. 
Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. This particular 
piece of legislation simply removes a large area of America 
from the Wilderness Study Act, and yet this Committee over the 
last couple of years has managed to look at these areas in a 
case-by-case way based upon studies that have been done 
locally. I am looking at the Omnibus Lands Act, wilderness, 
that passed this Committee in the 111th Congress. Some areas 
were wilderness study areas that did, that were designated as 
not suitable for wilderness that upon further study actually 
became wilderness areas, and some wilderness areas became open.
    That kind of case-by-case analysis is really what we ought 
to be doing rather than a blanket approach which is what this 
particular bill is. I would like each of the witnesses to 
describe one such case that they may be familiar with, for 
example Mr. McKeon's bill last year that became law in the 
111th Congress in the Mono County area. Are familiar with that, 
Mr. Abbey?
    Mr. Abbey. Yes.
    Mr. Garamendi. Could you just briefly describe the process 
and what actually happened?
    Mr. Abbey. Well, again it is a process that worked. Again, 
at the local level, the public and the various stakeholders 
came together, they talked about the pros and cons of 
designating certain acreage as wilderness and releasing other 
acreage from wilderness consideration. Working through the 
local Congressman and through legislation the Congress, passed 
an Act that did designate some areas and release others. We see 
that often.
    As frustrating as it is for some of us in managing some of 
these lands, we would like to see a more timely action on the 
part of Congress to resolve the wilderness issue once and for 
all, I think overall the Congress has acted very responsibly in 
dealing with the wilderness issue and taking the time necessary 
to try to reach a consensus at the local levels to make sure 
that those areas that are worthy of wilderness designations are 
the ones that are actually designated.
    And then those public lands that are managed under 
currently wilderness study area status that are not worthy of 
designation could be released for other purposes. We see that 
example over and over again. Again, we have testified in 
opposition or raised concerns about the bills that propose 
sweeping designations. A couple of examples, if I may, 
Congressman, is the Colorado Wilderness Act that we testified 
in opposition to in March of 2010, the American Red Rocks 
Wilderness Act that we testified in opposition to in October of 
'09, and then the Northern Rockies Ecosystem Protection Act 
that we testified in opposition to in May of '09.
    Again, those bills were very encompassing and they dealt 
with designating everything that was before the Congress at 
that point in time as wilderness and had very little acreage 
being considered for release. We need a balanced approach when 
we discuss which areas should be designated and which ones 
should be released.
    Mr. Garamendi. So it really is a case-by-case or region or 
area-by-area analysis. This particular bill with regard to the 
wilderness study area simply wipes out and does not take into 
account the individual attributes of an area. Mr. Sherman, if 
you could speak to the roadless issues and the way in which 
that has worked over the last couple of years, rather than a 
blanket approach a case-by-case approach?
    Mr. Sherman. Yes. As I think I said earlier, we have about 
58 million acres of roadless in this country. These lands, 
while they are protected from new roads generally, although 
there are exceptions from time to time that are allowed under 
the Rule, each of these areas is governed by a forest plan, and 
when these forest plans are updated we look at areas that might 
be suitable for wilderness designation and where they are we 
propose this to the Congress. But if it isn't accepted by the 
Congress, clearly we continue to manage these lands for 
multiple uses in the future. But we do this on a case-by-case 
basis, and we think a broad sweep where all lands, all roadless 
lands would be potentially subject to roaded areas would be 
unwise.
    Mr. Garamendi. Thank you, Mr. Sherman. It seems to me that 
this bill is a rather easy way for those of us, Members of 
Congress, to avoid our district responsibilities, to avoid the 
responsibility that we have to work with our constituents in 
our district to resolve these questions of whether an area 
should be wilderness, whether it should be roadless, and that 
it is our responsibility to bring before this Congress specific 
pieces of legislation, and that a blanket approach such as we 
are seeing here is an abdication of our personal responsibility 
to our constituents and to our district. And I think for that 
reason we ought to put this bill aside and get on with doing 
our homework. Thank you.
    Mr. Bishop. Thank you. Mr. Kildee is the last member of our 
Committee who is here. Do you have some questions, Mr. Kildee?
    Mr. Kildee. Just a couple, thank you, Mr. Chairman. And I 
had another hearing this morning. Several years ago when I 
first arrived here in Congress I got passed the Michigan 
Wilderness Act, which has done wonders for Michigan, 92,000 
acres of land, and the Michigan Scenic Rivers Act, 1,000 miles 
of rivers in Michigan. And those will need protecting no matter 
what happens with this legislation. But I would like to address 
a question to Mr. Abbey.
    My home State of Michigan is blessed with great natural 
beauty. It is surrounded by the Great Lakes, the rivers that 
run into those Great Lakes, refurbishing them regularly with 
the largest body of freshwater in the world, rivaled only by 
Lake Baikal in Russia, but so it is blessed with that natural 
beauty. If H.R. 1581 is implemented, how do you see it 
affecting the outdoor recreation economy in Michigan and 
throughout the country?
    Mr. Abbey. Well, Congressman, the Bureau of Land Management 
does not manage any wilderness study areas in Michigan. I will 
say this, that Michigan is a beautiful state and sometimes I 
wish that we would have some lands in Michigan that we manage, 
but we do not today. But directly to your point, this 
legislation could have detrimental impacts to the local 
economies of some of the areas where wilderness study areas 
would be released.
    You know, what gets lost in some of the discussion and some 
of the debates is the amount of money that conservation and the 
conservation of these public lands bring to the local 
communities. We talked about tourism related economies, we 
talked about, you know, the permits that we issue for 
outfitters and guides, we talk about the special experience 
that our recreationists have when they go and visit a roadless 
area. These are very special places for those of us who live in 
this great nation, and I think that we need to be very, very 
responsible as we go forward in making some long term decisions 
on how they should be managed.
    Mr. Kildee. Good, I appreciate that, and I am comforted by 
the fact that there are people out there yet who are really so 
aware of some things that we should leave just as they came 
from the hand of God, and that is what I tried to do when I 
came down here. And there are just some marvelous areas and it 
would be just, as a matter of fact I introduced the bill to 
purchase Grand Island, it is about the size of Manhattan 
Island. A company was going to clear cut about 25 years ago the 
whole island.
    And I arranged, when Sid Yates was on the Appropriations 
Committee Chairman, God bless Sid Yates, Chicago, and we 
finally had one of the conservation groups get an option to buy 
and Sid Yates bought that for the people of the United States. 
And you go up there and you see what it was like a thousand 
years ago, and it is marvelous. And we should know, I am not 
against, my dad was a lumberjack and I am for lumbering, but we 
should know what we should be able to cut and harvest and what 
we should leave in its natural state, and use that wisdom to 
make that distinction. So I am glad we have done that to some 
areas in Michigan, I would like to see some more areas I have 
in mind. Thank you very much for what you do.
    Mr. Abbey. Thank you.
    Mr. Kildee. I yield back, Mr. Chairman.
    Mr. Bishop. Thank you, Mr. Kildee. Let me ask a couple 
questions of my own if I might. I have to tell you both, I have 
already scratched the surface of the bill and all I found was 
page 2. So maybe you all can help me, you all can help me, Mr. 
Abbey, or so. There have been a few that have said that, you 
know, as soon as this bill was passed that development would be 
of land, significant number of lands would be given to oil and 
gas and logging and new roads and everything. Mr. Abbey, 
wouldn't any new lands released in this bill be under the 
current or revised management lands managed with the same kind 
of public input?
    Mr. Abbey. Again, the future management of these areas if 
they were to be released would be subject to the provisions of 
the local land use plans.
    Mr. Bishop. So the number of acres that would actually be 
immediately thrust open is actually zero. Mr. Sherman, I think 
the same thing I would like to ask you. If this bill were 
passed under those processes and authorities, how many acres 
would immediately be opened up to timber, mining, oil, and gas 
drilling?
    Mr. Sherman. Initially these lands would be continue to be 
managed under the current land management plans.
    Mr. Bishop. OK, so the number once again is zero. Mr. 
Abbey, do you have any idea how much of your budget you spend 
on litigation, settlements, attorney's fees?
    Mr. Abbey. I do not.
    Mr. Bishop. Nor do I. Someday maybe you can find that out 
for me. Since we have not got the Solicitor's opinion that was 
promised as far as the wildlands issues, are you currently 
planning or studying or viewing any other potential national 
monuments?
    Mr. Abbey. I am not, no.
    Mr. Bishop. Or under wildlands as well?
    Mr. Abbey. No.
    Mr. Bishop. Or the Department?
    Mr. Abbey. I am not aware of any action that is being taken 
by the Bureau of Land Management or the Department of the 
Interior that is contrary to the rider that is currently in 
place or pursuing any kind of national monument designation.
    Mr. Bishop. Appreciate that, I would still also appreciate 
the Solicitor's opinion at some particular time. You mentioned 
that there have been 98 occasions when Congress has made 
wilderness areas that were not necessarily designated for 
wilderness.
    Mr. Abbey. Or deemed suitable.
    Mr. Bishop. I understand that because I did it, I 
designated wilderness areas. They weren't, it was not 
wilderness characteristics, there was another reason. But that 
as I understand it is indeed the role that Congress has, to 
designate it or not to designate it. And as my ecclesiastical 
leader will always tell me, just because somebody sins does not 
give me justification to sin as well. You testified though just 
a moment ago that you all came and testified against the Red 
Rock Wilderness Bill, yet at the same time that bill has been 
used to justify decisions that have been made by your 
Department and those underneath your Department simply because 
that bill is out there and is floating.
    So what I am going to suggest here is there is a reason 
that perhaps Congress should get involved in these kinds of 
decision making whether it fits the limitations or not. If 
indeed decisions were thrown on a process in a blanket reform, 
sometimes a blanket approach is needed to roll that back before 
you can actually deal with the situations one-on-one so we are 
not always coming back here with the ``oops let us do this,'' a 
do-over approach, which seems to be constantly used on lands, 
once decisions are made then we come up with another do-over. I 
was going to yield. Obviously there is no one here to yield so 
I am going to yield back to myself. And I thank you for your 
presence being here. We have two other potential questioners, 
the Ranking Member of the Full Committee, Mr. Markey, am I 
assuming that you have questions of these gentlemen? You are 
recognized.
    Mr. Markey. Thank you, Mr. Chairman, very much. And thank 
you both for being here. Mr. Sherman, how many acres does the 
Forest Service manage and how many of those acres are 
wilderness?
    Mr. Sherman. The Forest Service manages approximately 193 
million acres. I think the wilderness lands constitute 
somewhere between 30 to 35 million acres.
    Mr. Markey. And how many are inventoried roadless?
    Mr. Sherman. 58 million acres are inventoried roadless.
    Mr. Markey. You mentioned that roadless areas serve a 
number of important goals including biodiversity, recreation, 
watershed protection. Can you expand on how a lack of roads 
serves those other goals as well?
    Mr. Sherman. Yes. I had mentioned in my opening statement, 
from the standpoint of protecting drinking water, roadless 
areas play a very important role in purifying and cleaning 
water which is used by hundreds of municipalities. I mentioned 
that some 66 million people in the United States get their 
drinking water from the National Forests. Roadless areas 
protect a great number of endangered species or candidate 
species or species of conservation concern that we want to keep 
off the endangered species list.
    And roadless areas are extremely important in allowing 
quality outdoor experiences and recreation with hunters, 
fishermen, sportsmen, hikers, bikers, campers. So we think that 
those values are important and we can also at the same time 
accommodate certain other multiple uses without the building of 
new roads into these areas.
    Mr. Markey. How many miles of road are there in the 
National Forest System?
    Mr. Sherman. We have over 370,000 miles of roads.
    Mr. Markey. How many more miles are user created roads?
    Mr. Sherman. There are many additional user created roads 
that are unauthorized.
    Mr. Markey. What would you estimate that to be?
    Mr. Sherman. I would have to get back to you with an 
estimate.
    Mr. Markey. Can you give me a ballpark?
    Mr. Sherman. It would be difficult for me to do that, but I 
will get back to you with an estimate.
    Mr. Markey. Wouldn't even have to be Fenway Park, it could 
be Yellowstone Park, just a broad estimate?
    Mr. Sherman. I really can't give you an estimate, I am 
sorry.
    Mr. Markey. Well, is it your view that those seeking 
motorized recreational activities on the National Forest areas 
have other places that they can go?
    Mr. Sherman. There is no question that we have, I mean we 
have some 200,000 miles of roads that are open to ORV use in 
our National Forest System. Our problem as I had mentioned 
earlier is that we have difficulty maintaining the roads that 
we have.
    Mr. Markey. Is hunting allowed in roadless areas?
    Mr. Sherman. Yes.
    Mr. Markey. It is. In your testimony you mentioned that 
Idaho and Colorado have submitted state roadless plans. How 
would this bill impact those plans?
    Mr. Sherman. I am concerned that this bill might complicate 
or even negate those plans. I mean we would have to look into 
this further, but the inventoried lands that are contained in 
both state petitions obviously overlap with much of the 
inventoried 2001 roads, and the extent to which those roads 
would be turned back to management under local forest plans 
could potentially complicate both of those state petitions.
    Mr. Markey. OK, is hunting allowed in wilderness areas?
    Mr. Sherman. Yes.
    Mr. Markey. It is. Does the Wilderness Act provide the kind 
of flexibility you need to manage wilderness areas?
    Mr. Sherman. Well, it is a different form of management. 
Wilderness areas are less managed than roadless areas, but to a 
certain extent there is management, it is just not through 
mechanized or motorized uses.
    Mr. Markey. So for questions of your management of fire or 
public health and safety issues, do you have the capacity to be 
able to manage those issues in the wilderness areas today?
    Mr. Sherman. Yes, we are able to suppress fires in 
wilderness areas. We typically do it through areal suppression 
when we believe it is necessary.
    Mr. Markey. In your testimony you provided several examples 
of wilderness bills that were passed by Congress that included 
areas not recommended for designation by the agency. Why was 
that the right outcome in those cases?
    Mr. Sherman. Are you talking about the Forest Service now 
or are you talking about BLM?
    Mr. Markey. BLM. I am sorry, for Mr. Abbey, I am sorry.
    Mr. Abbey. OK, thanks. Well, again I think it is a 
recognition on the part of the Congress that the inventories 
and studies that were used to form our initial recommendations 
that were included as part of our wilderness study reports were 
somewhat outdated and they needed a fresher look. And through 
the wisdom of this Congress and other Congress and with the 
input of public land stakeholders, legislation was introduced 
that addressed some of those areas and designated some as 
wilderness and released others for other uses.
    Mr. Markey. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. Mr. Pearce, do you have any 
questions of yourself or these witnesses on the condition that 
you give me the first minute?
    Mr. Pearce. No, thank you, sir, I will just pass if that is 
the case. I will give you the first minute, sir.
    Mr. Bishop. Thank you.
    Mr. Pearce. I thought you were going to answer a question I 
was asking myself, that is the reason I was holding out.
    Mr. Bishop. Let me take the first minute if I could.
    Mr. Pearce. OK.
    Mr. Bishop. Mr. Sherman, and I am only going to do this 
because you just said this again. In your testimony you 
maintained that roadless areas and maintaining roadless areas 
in relatively undisturbed conditions save downstream 
communities millions of dollars in water filtration cost. In 
Denver water they had to spend millions of dollars to remove 
debris that had infiltrated their reservoirs because of the 
2002 Hayman fire that burned through roadless areas in which 
post-fire restoration was limited. You have 28 seconds to tell 
me how that actually is consistent with saving communities 
money and supplying clean drinking water.
    Mr. Sherman. Well, the City and County of Denver has 
focused on how to protect its watershed both because of fires 
near Denver and back country watersheds, the city has decided 
it must protect these watersheds. The watersheds in roadless 
areas are in certain ways better protected because there aren't 
roads going through them, and roads from time to time are a 
complication in terms of sedimentation into streams, impacts to 
water quality. So that is one of the vehicles by which----
    Mr. Bishop. All right, I was serious, I only got that 28 
seconds to do it and it didn't happen. Mr. Pearce, do you want 
the rest of the 3:42 now?
    Mr. Pearce. Sure. Following up on the idea of water, sir, 
we had a hydrol--[phonetic] just recently come into Cloudcroft, 
New Mexico, in the Forest Service and said if we just logged in 
1,000 acres we could provide 100-year supply of water to a 
community that is out. The truth is that the trees crowd out 
the grass, the grass is what slows the water from rushing off 
the hills and the grass allows the water to permeate into the 
aquifer.
    So trees actually crowd the grass out, the water runs off, 
it is what carries the silt down into the streams, contaminates 
them. Nature did not have the number of trees in the forest 
that you are allowing and it is killing the watersheds, the 
watersheds in the West are dying. Now you mentioned that the 
mechanized access is allowed, that vehicles can go into 
roadless areas. Is that sort of your testimony?
    Mr. Sherman. Yes, vehicles can use existing roads.
    Mr. Pearce. OK, so I am going to use your statements here 
and I am going to advertise them publicly in Silver City, New 
Mexico, and with respect to the 95 percent of the Gila that was 
recently put off limits by the new Roadless Rule and you don't 
think that would be a conflict in the minds of the Forest 
Service there?
    Mr. Sherman. Well, I am not familiar with this specific 
instance.
    Mr. Pearce. And would it be a problem anywhere that I can 
go and use your testimony and say, no matter what these local 
foresters say that you can't drive your vehicle out here, the 
man in Washington says it is OK?
    Mr. Sherman. Well, again I think it depends on the site 
specific nature of the issue, but----
    Mr. Pearce. I suspect it does. If I could go ahead and 
reclaim my time, you said it is possible to hunt, it is 
possible to hunt in roadless areas. How far can you drive your 
vehicle off to pick up an animal that you have shot, say a 
1,500 pound elk in the Gila, how far off of the roadless area 
can you get, how far off of the established roads?
    Mr. Sherman. Well, you can't go off the established roads.
    Mr. Pearce. Right, so basically you can hunt as long as you 
can find a deer or an antelope or an elk that will walk into 
the road and you can shoot it there, otherwise you have to 
backpack the thing out. Mr. Abbey, you said that oil and gas is 
possible in WSAs?
    Mr. Abbey. I did not.
    Mr. Pearce. You did not say that?
    Mr. Abbey. No. I said that it would be possible if the 
areas were released from WSA status.
    Mr. Pearce. OK, so that is, the wilderness study areas do 
significantly impact the area like New Mexico to make a living. 
Yes, I will just leave that dangling. How much Forest land and 
how much BLM land is east of the Mississippi?
    Mr. Abbey. There are a couple of thousand acres managed by 
the Bureau of Land Management as far as surface acres.
    Mr. Pearce. OK. Mr. Sherman, a couple of thousand acres 
compared to millions?
    Mr. Sherman. There are millions of acres of Forest Service.
    Mr. Pearce. Millions.
    Mr. Sherman. Yes, under the Weeks Act.
    Mr. Pearce. OK. The reduction in litigation you mentioned, 
who brings most of the litigation? What groups, are they trying 
to get more access or less access into the forest?
    Mr. Sherman. There are a variety of litigants.
    Mr. Pearce. The majority, if you are going to go to 51 
percent or more, who would bring most of the lawsuits, more 
access or less access are they seeking that?
    Mr. Sherman. I can get back to you with a figure, I don't 
have it off the top of my head.
    Mr. Pearce. I suspect since they are all, they are repaid 
by EGA [phonetic] I suspect that those would be groups that 
would not be seeking more access to public lands. Finally, Mr. 
Abbey, do you manage the Camino Real? It is a small museum in 
New Mexico. Excuse me, Mr. Chairman, I would like to, just let 
us take it that you probably do. There might be a museum 
sitting out there that recognizes Camino Real which was back in 
the 1600s, 1500s. Now also in New Mexico we are now assigning 
water rights based on historical use by Native Americans back 
1,000 years ago based on aerial maps showing the lines where 
crops may have been grown.
    And you tell me that we are not going to see that the 30-
year-old data is somehow insignificant? You are the one that 
managed the dadgum museum recognizing from the 1400s, and it 
does, you can still see the effects of that trail. And so when 
I see the language in the Act that you can't see the signs of 
man's interference, I don't think 30 years is going to really 
make that big a deal when you are talking about, well, we have 
to have new data that means Congress needs to appropriate more 
money and somehow you are going to come up with something 
different when you are managing something from the 1400s, just 
doesn't make sense. I yield back, Mr. Chairman.
    Mr. Bishop. Thank you very much. Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. I was trying to 
locate a letter, which I finally did, from a county supervisor 
in Butte County, California. It speaks to the increasingly 
draconian restrictions that the Forest Service has been placing 
on existing roads but it speaks very much to the subject that 
this bill addresses, and I would like to see what would be your 
response to the people that you are hurting with these 
restrictive policies.
    He says the restriction applies to such activities as 
collecting fire wood, retrieving game, loading or unloading 
horses or other livestock, and camping. Besides being 
inconvenient in many cases, when children and animals are 
involved it clearly can be a safety concern. The National 
Forests are part of the local fabric, the roads within the 
National Forests are used by thousands of residents and 
visitors for transportation and recreation.
    These activities generate revenue for our rural communities 
which are critical for their survival. How do you respond to 
the communities that once were thriving because of the ranching 
activities, the mining activities, the timber activities on 
these public lands, recreational activities like hunting, 
horseback riding, and camping, that you are systematically now 
removing from the public lands?
    Mr. Sherman. Congressman, I don't believe the Forest 
Service is systematically removing roads from the system. I did 
explain earlier that we do have a challenge maintaining these 
roads in a condition that will work for the public. That is 
one----
    Mr. McClintock. You are closing them, you are closing 
public access to these roads. If you want to take a look at 
Plumas, for example, your testimony that you are not 
systematically closing these roads is simply false.
    Mr. Sherman. Well, I will get back to you with the 
specifics of that, but I will tell you that we need to maintain 
these roads, and when we can't maintain these roads in certain 
cases we may be forced to close them. There may be other issues 
that come up that we would have to look into the specifics of, 
but as a general matter we provide roads into our National 
Forests that provide recreation for 110 million visitors.
    Mr. McClintock. Roads on the public lands are absolutely 
essential for the public to be able to use those public lands, 
and it seems to be the policy of this Administration to remove 
the public from the public's lands.
    Mr. Sherman. I don't believe that is a fair 
characterization, but----
    Mr. McClintock. I will tell you the folks in my region who 
are flooding my office with complaints believe that it is.
    Mr. Sherman. Well, I would be happy to sit down with you, I 
would like to understand the specifics of the situation that 
you are addressing and maybe we can address it.
    Mr. McClintock. Do we have, Ms. Noem asked the question 
earlier regarding the economic opportunities that are there to 
revive a lot of these communities that once thrived and are now 
withering because of the restrictions, do we have an actual 
number attached to that?
    Mr. Sherman. To what, I am sorry?
    Mr. McClintock. To the economic activities being stifled by 
the increasing restrictions on the public lands?
    Mr. Sherman. Well, we certainly have figures about the 
economic activities that have benefitted from our uses of 
public land. I am not sure I have figures that address the 
issue the way you just phrased it.
    Mr. McClintock. And I would like to emphasize to both of 
you that, yes, there is a crucial responsibility to preserve 
the public lands for future generations, but that does not mean 
denying the public lands to the current generation, and 
unfortunately that appears to be the policy and I am glad to 
see legislation beginning to redress that issue. And with that, 
Mr. Chairman, I would like to yield my final minute to Mr. 
Tipton.
    Mr. Tipton. Thank you, Congressman. Director Abbey, I just 
wanted to do a little bit of a follow up. I had a query come 
from the Colorado State Board of Education. There has been, as 
you are probably aware, trading of state lands for Federal 
lands, but Colorado retained the right to those mineral rights. 
Under these areas that the BLM has determined now not suitable 
for designation as WSAs, will the State of Colorado? This is 
important because it is for children; it is for the Secure 
Rural Schools funding that is going through.
    Mr. Abbey. Yes.
    Mr. Tipton. Is Colorado going to be able to have its right 
to access to those resources so that we can support education?
    Mr. Abbey. We will grant access to those inholdings as 
appropriate. And we are working very closely with the State of 
Colorado on that very issue.
    Mr. Tipton. And what is appropriate if we have this 
designation?
    Mr. Abbey. What kind of designation?
    Mr. Tipton. If there is a WSA designation currently on some 
lands that have been traded?
    Mr. Abbey. Again, it would be the least impacting access to 
that inholding. What we would do is look at the needs of the 
state relative to how they want to manage that inholding, we 
would try to work with them to mitigate the impacts that might 
be caused to the wilderness study area if such development 
occurred, including moving forward with some exchanges as you 
indicated as a tool. In lieu of an exchange or if the State of 
Colorado did not want to exchange out their inholding then we 
would work with them on an appropriate access route.
    Mr. Tipton. So the state will have access to those 
resources and be able to use it for the secure rural schools?
    Mr. Abbey. That would be our goal.
    Mr. Tipton. Great, thank you very much. Thank you, Mr. 
Chairman, thank you, Congressman.
    Mr. Bishop. All right, thank you. Mr. Abbey and Mr. 
Sherman, we appreciate you spending two hours with us.
    Mr. Abbey. Thank you.
    Mr. Bishop. More important I spent two hours with you here 
at the same time. We have two other panels to join us. I am 
going to flip the panels from what we have originally said. The 
second panel that I would like to invite up is the panel that 
is consisting of our elected officials and former elected 
officials, so we would like to invite The Honorable Bruce 
Babbitt, Former Governor of Arizona also Former Secretary of 
the Interior, to be with us.
    The Honorable Mike Noel, State Representative from Utah, 
Kane County. The Honorable Kent Connelly is the Chairman of the 
Board for Lincoln County Commission in Lincoln County, Wyoming, 
he is also Chairman of the Coalition Local Governments in 
Wyoming which include Lincoln, Uinta, Sublette, and Sweetwater 
Counties in Wyoming. And because we are being pressed for time 
here I am going to ask Mr. Dan Kleen who is the Elected 
President of the Off-Highway Vehicle Conservation Council to be 
here so we can balance out the remaining panels. We also have 
one other panel after this as well to hear.
    So we appreciate you all being here with us. Again, the 
same situation I think exists as we mentioned earlier. The 
lights in front of you, green is when your time will begin, 
yellow means you have a minute, red allegedly means that the 
time is over and we need to move on. Your written testimony 
will appear as written. We would ask you simply to add oral 
supplements to that testimony at the same time. And once again 
I think we are all prepared now, maybe.
    And we do appreciate very much your presence here with us 
as well as what you do in your communities. And your name tags 
are OK. What you have OCD, Casey, what is this? But the name 
tags look very nice, thank you. We will begin if we could with 
Mr. Babbitt then go to Representative Noel who I watch to 
mention is not a State Senator, you are on the right side in 
the Utah Legislature as well, the Statehouse, then Commissioner 
Connelly, then Mr. Kleen in that order if we could. And we 
welcome your oral testimony. Mr. Babbitt?

               STATEMENT OF HON. BRUCE BABBITT, 
                FORMER SECRETARY OF THE INTERIOR

    Mr. Babbitt. Mr. Chairman, thank you. Mr. Chairman, I will 
try to be even more brief than the five minutes. Let me start 
by acknowledging that I have, in fact, characterized this bill 
as extreme, and I would like very briefly to suggest why that 
is. Let me start with the BLM wilderness study area issue. I 
have a long history working this issue. It began in 1980 when I 
was approached by Senator Goldwater and Congressman Udall, who 
during my tenure as Governor said, let us get together as 
Arizonans and see if we can resolve the wilderness study issues 
in our state.
    It began a protracted and ultimately very productive 
experience in which all the way across the spectrum, from 
Senator Goldwater, the Arizona Mining Association, to 
Congressman Udall, we put together a series of wilderness 
bills, brought them to this Congress, had them enacted both in 
terms of designating wilderness and releasing those areas which 
were not designated. What I learned from that process and have 
had occasion to work with in the intervening 30 years is that 
the Wilderness Act and its accompanying relationship to FLPMA 
really is an extraordinary legislative achievement.
    What the Wilderness Act does with the FLPMA backup is 
create an architecture of state, Federal, local participation 
in which wilderness decisions are driven by the state 
congressional delegations, in which the local participation is, 
in fact, required to provide the impetus for the delegations to 
come back and resolve these wilderness issues on a state-by-
state basis, always with the final decision reserved to the 
U.S. Congress.
    Now the great enduring mystery to me is why it is there is 
now a proposal to change that manifestly successful process and 
switch over to a preemptive decision coming from on high which 
says to Governors, congressional delegations, mining 
associations, you all can abandon the search for site specific 
consensus which will involve a detailed discussion of every 
acre under consideration to decide whether or not it should be 
wilderness or whether or not it should be released back into 
multiple use. And I think that is, in fact, an extreme measure.
    Just a word about the Roadless Rule. I participated 
extensively in the formulation of this Rule. In some measure 
because of my own experience growing up in a western logging 
town where I saw the devastation caused by clear cutting of a 
vast ponderosa forest in northern Arizona, which had 
deleterious effects on hunting, fishing, water quality, and 
recreational opportunities, and the Roadless Rule, as Harris 
Sherman described it, is to me an attempt to modify that and to 
recenter these roadless issues to prevent that kind of 
devastation.
    I would like to finish with respect to the fire issue. I am 
a certified firefighter, I have spent months out on fire lines, 
and I can tell you that this idea that building roads and 
logging reduces fire risk is mistaken. It is quite the 
opposite. The proliferation of roads, the cutting of old growth 
timber, the scattering of slash on the floor of the forest, the 
removal of the fire-resistant large trees, and the increased 
incidence of human-caused fires as a result of a casual driver 
through traffic are, in fact, increasing the fire risks in 
forests. And it is for all of these reasons that I conclude 
right where I started. This is an extreme measure, it is 
unnecessary, and yes it is a giveaway to the commercial logging 
and other interests. Thank you.
    [The prepared statement of Mr. Babbitt follows:]

   Statement of The Honorable Bruce Babbitt, Former Secretary of the 
             U.S. Department of the Interior, on H.R. 1581

    I would like to begin by thanking the Committee for the opportunity 
to appear before you today to testify on H.R. 1581. It is more than ten 
years since I left office as Secretary of the Interior, and this is the 
first time that I have accepted an invitation to testify on pending 
legislation.
    I have accepted your invitation today because this bill, H.R. 1581, 
is not just another run-of-the-mill proposal. H.R. 1581 is the most 
radical, overreaching attempt to dismantle the architecture of our 
public land laws that has been proposed in my lifetime. This bill must 
not gather momentum in the legislative backwaters of yet another 
routine committee hearing. It needs to be brought out into the sunlight 
of extended public discussion so that the American people can see and 
clearly understand the threat it poses to our public land heritage.
    Among other provisions, H.R. 1581 would eliminate existing 
protections for more than 55 million acres of land within our National 
Forests. Further, this legislation would eliminate existing protection, 
provided under the Federal Land Management Act and the Wilderness Act, 
for nearly 7 million acres of public land managed by the Bureau of Land 
Management.
    These lands, which together equal an area nearly the size of the 
entire state of Michigan would be released from protection by H.R. 
1581. Were this legislation to become law, these lands would 
immediately lose their existing protection, to become available for 
industrial timber cutting and oil and gas exploitation. Simply put, 
this legislation trades protection of wildlife habitat, clean water, 
and clean air for corporate profits. It is nothing more than a giveaway 
of our great outdoors.

BLM-managed Wilderness Study Areas (WSAs)
    The Wilderness Act is perhaps the single greatest achievement in 
America's long and illustrious history of public lands management. The 
Wilderness Act, which passed the U.S. House of Representatives by a 
vote of 373 to 1, set in motion a unique process that charged federal 
land management agencies with assessing public lands to identify which 
lands should be preserved in perpetuity as federally protected 
Wilderness. The Wilderness Act defines Wilderness as:
        ``in contrast with those areas where man and his own works 
        dominate the landscape, is hereby recognized as an area where 
        the earth and its community of life are untrammeled by man, 
        where man himself is a visitor who does not remain.
    An area of wilderness is further defined to mean in this Act an 
area of undeveloped Federal land retaining its primeval character and 
influence, without permanent improvements or human habitation, which is 
protected and managed so as to preserve its natural conditions and 
which (1) generally appears to have been affected primarily by the 
forces of nature, with the imprint of man's work substantially 
unnoticeable; (2) has outstanding opportunities for solitude or a 
primitive and unconfined type of recreation; (3) has at least five 
thousand acres of land or is of sufficient size as to make practicable 
its preservation and use in an unimpaired condition; and (4) may also 
contain ecological, geological, or other features of scientific, 
educational, scenic, or historical value.''
    The Wilderness Act, as passed by Congress and signed into law by 
President Lyndon Johnson in 1964, did not originally apply to the 
public lands administered by the Bureau of Land Management (BLM). In 
1976 Congress rectified this oversight with passage of FLPMA which 
directed the BLM to review its land holdings in accordance with the 
Wilderness Act. Areas identified as possessing the qualities outlined 
in the Wilderness Act were to be identified and managed as Wilderness 
Study Areas (WSAs) by the BLM until such time as Congress decides how 
these lands should be managed long term.
    The enduring success of the Wilderness Act, its public acceptance, 
and the fact that it has served our country well for nearly a half 
century is, in my judgment, due in no small part to the manner in which 
it incorporates the best aspects of our Federal-state system of 
government.
    The Wilderness Act (and FLPMA) delegated to the land management 
agencies the task of defining and mapping areas eligible for wilderness 
consideration. The Act, however, reserves to Congress the ultimate 
authority to designate those areas identified by the agency as 
wilderness or to release eligible lands from further consideration. 
Wilderness bills generally originate with the Congressional delegation 
from the state in which the lands are located. This process assures 
that all stakeholders with an interest in the enormous variety of lands 
and resources on our public lands, have a voice in how these lands are 
managed.
    Since enactment of the Wilderness Act some 155 wilderness bills, 
many of them designating multiple wilderness areas, have been approved 
by Congress. Some of these bills released areas from further study, 
while others did not. Some bills passed without controversy; others 
were enacted only after prolonged debate.
    While this process can be slow and cumbersome, it has produced a 
resource of permanently protected wilderness that is nothing short of a 
national treasure.
    Some days ago, I looked over a list of the remaining Wilderness 
Study Areas, and I noticed that my State of Arizona has largely 
completed the process of designating and releasing Wilderness Study 
Areas. Serious discussions about the future of Arizona's BLM lands 
began some thirty years ago, during my tenure as Governor. Two members 
of Congress, Senator Barry Goldwater and Representative Morris Udall 
led the process. Extensive consultations among environmental groups, 
sportsmen groups, as well as resource users (led by the Arizona mining 
industry), extended for several years, ultimately resulting in several 
state-wide wilderness bills which finally determined the status of most 
wilderness study areas.
    It is this process, sanctioned by more than forty years of success, 
that H.R. 1581 proposes to destroy. Instead of locally-driven processes 
that result in well-supported decisions, this legislation imposes a 
preemptive federal decision, imposed on all states and areas, without 
participation of local, state, and national stakeholders.
National Forest Roadless Areas
    In addition to destroying existing protections for BLM-managed 
Wilderness Study Areas, H.R. 1581 also proposes to hand over more than 
55 million acres of our most pristine National Forest areas for 
industrial logging and oil and gas exploitation. H.R. 1581 would 
facilitate this giveaway of our great outdoors by means of a blanket 
repeal of the forest protection policy established by the Clinton 
Administration.
    As a member of that administration, I can tell you that the reason 
the National Forest Roadless Rule was proposed by the Clinton 
Administration is both simple and compelling. Over the last century, 
the timber industry has taken more than its share from our national 
forests. More than half of the land managed by the Forest Service has 
already been handed over to timber interests.
    Growing up in one of the largest of western logging communities, I 
personally witnessed this process over my lifetime as most of the great 
old growth ponderosa forests of the Coconino Plateau were successively 
destroyed by road building and clear cutting. I watched as watersheds 
were decimated, as wildlife shrank to the margins, and the great yellow 
belly pine forests were reduced to fragments on the sides of 
inaccessible canyons and mountainsides.
    Today, only about 20 percent of our National Forests are included 
within established wilderness areas. What little remains of our old 
growth forests outside of these wilderness areas are the areas now 
demarcated as Roadless Areas, which together amount to only about 58 
million acres (30% of the entire base of our National Forest System).
    The question posed by H.R. 1581 is simply this: Do the American 
people want to allow these last remaining areas to be delivered over to 
the industrial timber and oil and gas industries, or should we take 
this last chance to protect what is left?
    In 2000 the Clinton Administration put forth the proposed rule on 
the management of our roadless national forest lands for consideration 
by the American people. The result was the most extensive and 
transparent rule making process in history. More than 23,000 people 
attended over 400 hearings, and the Forest Service received well over 1 
million comments. Many governors provided public support of the 
initiative as well. On the basis of this public process, the policy 
that provides protection for the Forest Service's roadless areas was 
adopted.
    Opening areas to new road construction, as proposed by H.R. 1581, 
has myriad negative effects. Roads cause habitat fragmentation impacts 
on big game species and degrade backcountry hunting opportunities. The 
hunting experiences described by Theodore Roosevelt in the Grand Canyon 
region are no longer available in many of today's autumn forests.
    In addition to destroying backcountry hunting and fishing 
opportunities, H.R. 1581 would also destroy the forest health and 
watershed protection benefits of roadless areas. Further, the inverse 
relationship between water quality and road density is widely 
documented. Downstream communities benefit directly from intact 
watersheds. H.R. 1581 will cost downstream communities money as 
sediment loads increase and water quality deteriorates.
    Claims that more road building will reduce the incidence of 
destructive wild fires are not supported by the facts. Studies show 
that logging of old growth actually increases fire risk as a result of 
the scattering of fine fuels and slash on the forest floor. And road 
building increases the amount of casual traffic which in turn increases 
the incidence of human-caused fires.
    The Clinton Administration, as a result of my urging, recognized 
that some thinning of undergrowth, including by mechanical means, is a 
necessary aspect of ecological restoration. The Roadless Rule 
specifically allows for access necessary for fire reduction and 
ecological restoration.
    Claims that the Roadless Rule discourages public access are 
likewise untrue. To the contrary, by excluding industrial logging and 
road building for oil and gas development, this policy provides a clear 
management direction to the agency that on these select lands, other 
public, sustainable uses have priority. These uses include, but are 
certainly not limited to wildlife viewing, hiking, biking, backpacking, 
hunting, fishing, and protection of watersheds for downstream 
communities. And motorized recreation is not precluded by the Rule.
    Over the years road building has become part of the institutional 
DNA of the Forest Service. Today, there are over 348,000 miles of roads 
in our National Forests. This represents nearly ten times the mileage 
in the entire Interstate Highway System. The Forest Service road 
maintenance backlog is now approaching $10 billion. The Roadless Rule 
both ensures that we leave some vestiges of our primordial forests and 
that we do not load still more costs onto the Forest Service.
Summary
    H.R. 1581 would destroy the protections established by the Roadless 
rule; it would degrade backcountry hunting and fishing opportunities, 
increase fire risk, destroy recreation economies, impose increased 
water treatment costs, and add to the Forest Service's maintenance 
backlog. H.R. 1581 would terminate time honored and successful 
Wilderness Act procedures for lands administered by the Bureau of Land 
Management.
    H.R. 1581 should be entitled ``The Great Giveaway''. The only 
beneficiaries of this legislation would be industrial timber and oil 
and gas corporations. The losers will be the American public, our 
children and grandchildren and generations to come.
    I urge you to reject this legislation.
                                 ______
                                 
    Mr. Bishop. Thank you. Representative Noel.

                 STATEMENT OF HON. MIKE NOEL, 
           UTAH HOUSE OF REPRESENTATIVES, DISTRICT 73

    Mr. Noel. Thank you, Mr. Chairman and members of the 
Committee. I am going to call myself the on-the-ground guy that 
comes to this Committee. I am a farmer and a rancher, been so 
for over 35 years. I also worked for the Bureau of Land 
Management for 22 years. I now am the Director of the Kane 
County Water Conservancy District which manages the water 
resources in my county. And I am a state legislator for the 
past 9 years. I actually ran on a platform that does some of 
the things that this bill proposes, which is to get us back 
onto a management of the public lands.
    I felt like if I ever got a chance to sit next to the 
Secretary of the Interior I would tell him how disappointed I 
was in the creation of the Grand Staircase in my county and the 
eight different counties that I represent, both Garfield 
County, because it has been an extreme disaster what happened 
there. The environmental impact statement that was written did 
not identify any impacts to antiquities on the land and it was 
strictly a political move, and it has created huge problems for 
me not unlike the WSAs that are in my district.
    It is interesting that now that this WSA program which has 
gone on for some 35 years, the recommendation in Utah was under 
President Clinton and Secretary Babbitt was that only 3.2 
million acres of BLM land had wilderness characteristics, and 
they recommended that 1.9 million acres of those are suitable 
for wilderness designation. So the Clinton Administration was 
the one that said we should remove these and went through an 
extensive review, an extensive process, and here we are 36 
years later and we are still sitting here with these WSAs.
    What do WSAs do to my state, my eight counties that I 
represent? They are very restrictive, they are extreme. When 
you talk about fighting wildfires, I was on the fire line for 
22 years, worked my way up to the incident commander. I was on 
the national forest fire in Yellowstone National Park which 
burned for 225 days. We were not allowed to go into the 
Absaroka wilderness area when there were three small fire, the 
Lovely, the Clover, and the Mist fire. We had to pack up mules 
and go in. That allowed that to burn for 225 days, cost 
millions and millions of dollars. So going in the fire line and 
trying to fight a fire in a roadless area, in an area that is 
WSA, is impossible with modern conditions.
    We can manage forests. The Secretary talked about, I am 
sure the Kaibab National Forest once employed 350 people in 
Fredonia, Arizona, over my border. By the way my great 
grandfather was the first county commissioner in Apache County, 
Arizona, Prime Thornton Coleman, and one of my grandfathers is 
buried in Alpine, so I know a little bit about Arizona. My 
grandmother was born in St. Johns in 1897. I know the state. We 
had lots and lots of people in the logging business in Kanab. 
That has been shut down because of the goshawk and other issues 
there.
    What happened here three years ago? The Kaibab National 
Forest burned and burned up thousands of acre of timber. What 
did that do to watershed? It destroys watershed. Go look at the 
Dixie National Forest where bark beetles were allowed to come 
in. You have up there Douglas fir trees that are completely 
gone, and the urban interface between the private property 
where one-half of the assessed valuations in Kane County are 
located you have an area there that is just waiting to burn. 
The Forest Service has done nothing to protect that area, and 
that is going to burn and it is going to reduce the assessed 
valuations of over a billion dollar in my area and destroy 
watershed.
    Watershed is something you need to protect, and you can 
protect it with management. You can't do it. I have heard 
testimony here today that WSAs actually allow for management. 
They don't allow for management at all. You don't have any 
management in WSA, you just leave it alone, you don't do 
anything with it. This is a multiple use piece, the public 
lands should be done by multiple use, not by single use, and 
that is what happens here.
    We used to have a movie filming industry in Kane County. We 
don't have it. It was called Little Hollywood. When the Grand 
Staircase was created, they precluded any movie filming. You 
can't even film a movie in a wilderness area. You can't bring a 
bicycle into a wilderness area, into a wilderness study area. 
It is absolutely insane. When I worked for the agency, we used 
to do multiple-use management. And when you talk about we are 
going to open these lands up to destruction, hasn't anybody 
heard about the National Environmental Policy Act? Hasn't 
anybody heard about resource management plans?
    This planning will continue to go on. Every single action 
that occurs on the National Forest on public lands in any state 
including Utah will require a full environmental analysis, and 
I know because I have testified in Federal court as an expert 
witness on NEPA. You can't just go in there and willy nilly go 
in and put roads in and put actions in and put drilling in. Let 
us talk a little bit about drilling. We need to drill in the 
public lands. You can recover those public lands under APDs and 
those processes, you can come back and you can restore those 
public lands such that they haven't even been used before. So 
this is all hogwash that you have heard here about destroying 
these public lands and open them up, you will still be 
susceptible to the National Environmental Public Act.
    [The prepared statement of Mr. Noel follows:]

 Statement of The Honorable Michael E. Noel, Utah State Representative 
    District #73, Utah House of Representatives, Kane County Water 
 Conservancy District, on ``H.R. 1581, Wilderness and Roadless Release 
                             Act of 2011''

    I am grateful for the opportunity to testify on H.R. 1581 which due 
to the economic conditions that exist in my state and district, is 
legislation that needs to be passed and implemented as soon as 
possible. I have lived in rural Kane County for over 36 years and have 
served in the Utah House of Representatives for the past 9 years. I 
represent House District #73 which is the most rural district in the 
state and includes all or part of 9 counties. I am a cattle rancher and 
a hay farmer. I am also the executive director of the Kane County Water 
Conservancy District which supplies culinary and secondary water to 
customers in Kane County. I have an extensive background in public land 
management, specifically with the Bureau of Land Management where I 
worked for over 22 years. I have testified in federal court as an 
expert witness on the National Environmental Policy Act and I have an 
extensive background on federal land planning and Environmental Impact 
Statements. During the period of my employment with the BLM which 
started shortly before the passage of the Federal Land Management and 
Policy Act (FLPMA) in 1976, I had a front row seat as the agency 
strayed from its congressionally mandated multiple-use management 
mission, to an agency that now seems to be taking their directions 
directly from grant driven environmental organizations.
    I was the project manager for the Andalex Coal EIS which resulted 
in the creation of the 1.9 million acre Grand Staircase Escalante 
National Monument in Kane and Garfield Counties locking up over 5 
billion tons of low sulfur, high Btu coal that could be used by Utah 
and the nation to meet our critical energy needs. The creation of the 
monument resulted in me leaving the BLM and starting on a new path in 
life. I found out first hand that despite taking oaths to uphold the 
constitution and to obey the laws, the truth doesn't matter to many 
elected politicians and their appointed cabinet members. In reasons 
given for the creation of the GSENM, the truth of the matter is that 
there was never any threat to any antiquities or resources in Utah. The 
Draft EIS prepared by the BLM and OSM which was never allowed to be 
released, stated as much. The reasons given by the Clinton/Gore/Babbitt 
administration for creating the GSENM were in fact bald faced lies as 
are many of these WSA policies that have come about since the passage 
of FLPMA.
    Impacts of WSA's and Special Designations on Utah and Other Western 
States: Since this hearing is focused on the release to multiple use 
management of non-suitable Wilderness Study Areas, I will focus my 
attention on the impacts of these special designations to the people of 
Utah and the citizens of this country. Of the nearly 85,000 square 
miles of surface area in Utah, 17,884 square miles are in private 
ownership-which is about 21%. In Kane County only 423 square miles (or 
about 11%) of 3,992 square miles in the county is privately owned. 
Other counties in District 73 have even less private land, Wayne County 
(4%), Garfield County (5%) while Beaver (13%), Piute (13%) Washington 
(18%) and Sevier (19%) and Iron (36%) are still greatly dominated by 
federal lands. There is a huge disparity between private vs. federal 
lands in relation to the Eastern States where no states east of an 
imaginary vertical line from Montana to New Mexico has more than 14% of 
its land federally owned. In contrast no state west of that line has 
less than 27% of its land federally owned (with the exception of 
Hawaii). Four Western states have more than 62% of their land federally 
owned (Alaska, Idaho, Nevada and Utah).
    Not being able to collect property taxes on 79% of the land in my 
state creates problems in trying to meet the vital state and local 
governmental services including public and higher education. The 
Payment in Lieu of Taxes (PILT) legislation was supposed to make up for 
this disparity but it has never been adequate. It is no wonder that the 
10 year Resource Management Plans, developed by the land management 
agencies such as BLM and the Forest Service are so critical to the 
economic viability of these western states. When the federal land 
management agencies create special designations such as Wilderness 
Study Areas (WSA's), Areas of Critical Environmental Concern (ACEC's), 
Class I Air Regions, Class I Visual Resource Management Areas, National 
Landscape Conservation System, among other designations, the impacts to 
the multiple uses of public lands and to adjacent private and state 
trust lands can be devastating.
    The FLPMA and National Forest Management Act (NFMA) mandated only a 
limited one time review of BLM and Forest Service lands to determine 
which of these lands should be recommended for Wilderness designation. 
The only broad scale wilderness creation effort ever authorized by 
congress was the 15 year Wilderness Study Area effort authorized under 
section 603 of FLPMA. This 15 year review was completed and submitted 
to congress in 1993 by the Clinton Administration identifying which 
lands had wilderness characteristics and created the WSA's. In Utah, 
the Clinton Administration found 3.2 million acres of BLM land that had 
wilderness characteristics sufficient for WSA classification and 1.9 
million of those acres suitable for wilderness designation. This is why 
H.R. 1581 should become law because it merely carries out the results 
of the FLPMA 15 year review and implements the Clinton administration's 
1993 suitability recommendation which in Utah was: release 1.4 million 
of 3.2 million acres of WSA's for multiple use management.
    In Utah, any discussion on Wilderness and Wilderness Study Areas 
(WSA's) involves the Southern Utah Wilderness Alliance (SUWA) an 
organization that has led the fight to lock up over 9.1 million acres 
of lands in wilderness in Utah. Although very small in numbers (less 
than 14,000 members, most of which do not live in Utah) yet heavily 
funded, this environmental organization has built its reputation by 
taking an uncompromising approach for single use land management and 
wilderness designation which includes the 9.1 million acres Red Rock 
Wilderness Bill. Using the federal courts, SUWA has engaged in a 
multitude of lawsuits against the state and counties, and in essence, 
the taxpayers of Utah who have expended untold millions of dollars in 
litigation. SUWA's strategy has been to sue, delay and stop the 
implementation of land management plans and actions, row's, RS2477 road 
designations, mining and drilling, timber harvesting resulting in 
economic losses of billions of dollars in revenue to the state of Utah 
and the federal government. SUWA is particularly focused on the OHV 
community and their desire to access public lands via existing county 
roads. The 20 year battle to maintain access to private lands, school 
trust lands and public lands by the Utah Association of Counties and 
the State of Utah has been fought with SUWA and the Utah Wilderness 
Alliance. The WSAs in Utah are the main reason the RS2477 road issue 
has taken so long to resolve even though FLPMA specifically recognized 
these county roads in the law.
    Background Information on SUWA: Although this radical environmental 
organization has fewer members than found in a Utah legislative 
district they have been able to influence federal land management 
agencies throughout Utah. In the late 1990s, SUWA began building a 
large endowment from grants. The Pew Charitable Trusts and the Wyss 
Foundation were particularly generous. As of 2004, SUWA had amassed 
almost $5 million. Swiss-born billionaire Hansjorg Wyss joined the 
board of SUWA in 1996 and later financed a new $1.4 million Salt Lake 
City headquarters. Though SUWA has been able raise large sums of money 
over the last decade its membership numbers have declined 30% from a 
high of 20,000 to 14,000. Still, SUWA maintains that 70 percent of 
their funding comes from membership dues and donations, and states that 
roughly 80 percent of the organization's income is spent on program 
work. SUWA presents itself as a grass roots organization with mainly 
Utah membership which is far from the truth. It is in fact an elitist 
grant driven litigation machine. In May 2007, New York millionaire Bert 
Fingerhut, who served on the SUWA board of directors for 18 years, pled 
guilty to one count of conspiracy in connection with a plot to reap 
more than $12 million in illegal profits by circumventing rules 
controlling how private banks are converted to public ownership. As 
part of his plea deal, he forfeited $11 million. On August 3, 2007 he 
was sentenced to two years in federal prison. In October 2007 Mark 
Ristow, SUWA's treasurer and a SUWA trustee for about 20 years, pled 
guilty to one count of conspiracy to commit securities fraud in a 
scheme similar to Fingerhut's. In February 2008, he was sentenced to 20 
months in federal prison and forfeiture of $2.8 million in profits.
    On March 1, 2008, a letter signed by 45 members of the Utah House 
of Representatives requested detailed financial records from SUWA. The 
letter which was addressed to then SUWA board Chairman and Swiss 
billionaire Hansjorg Wyss, referred to the guilty pleas of Fingerhut 
and Ristow and said, ``given SUWA's large amount of financial 
contributions and outside sources of funding, and especially SUWA's 
long-time association with these two individuals, the citizens of Utah 
demand your accountability with regard to these matters.'' SUWA never 
responded to the request. Billionaire Wyss who is chairman of a medical 
devices company called Synthes in West Chester, Pennsylvania has his 
own legal problems including 52 felony counts against his company 
stemming from allegations that Synthes illegally experimented on 
patients, three of whom died. Federal prosecutors in Philadelphia did 
not name or charge Wyss, but their June 2009 indictment describes a 
``Person No. 7,'' who was a major shareholder and chief executive 
officer of the company when the alleged illegal conduct occurred, from 
2001 through 2004. A Synthes representative confirmed that Wyss was CEO 
then.
    I bring this information to the committee's attention simply for 
the reason that while as an elected official in the State of Utah, I 
have some minimal influence over the use of public lands in my 
district. However, it pales in comparison to the influence of these 
wealthy foundations, and the Grant Driven Green Groups such as SUWA 
that they support. SUWA and other environmental organizations are 
having undue influence in my district, my state, and on the public 
lands throughout the west in general. I don't believe that the United 
States Congress ever intended for this to happen. The Sagebrush 
Rebellion of the 1970's and 1980's has re-emerged in Utah. For the 
third year in a row, thousands of Utahans who want equal access and 
multiple use of the public lands in Utah will be again marching to the 
Utah Capitol August 20th, to demand that Utah be allowed to have more 
input into how public lands in Utah are managed.
    I am excited about H.R. 1581 and would like to see it signed into 
law as it would help settle a this contentious debate over how public 
lands designated as Wilderness Study Areas are managed in Utah. At 
present, these WSA are not managed for multiple uses. They are simply 
put off limits to any type of management. Kane County is known as 
Little Hollywood where over 160 mostly western movies have been filmed. 
Gunsmoke, How the West Was Won, and Maverick are just a few of the old 
westerns that we all remember and love were filmed in the county. 
Wilderness and WSA's are so restrictive such that a commercial film or 
even still photo cannot be done in a WSA. It is time to release those 
acres that were found unsuitable. Management of these non-suitable 
lands is more restrictive than designated wilderness. In addition, 
passing HR1581 would help settle the majority of the RS2477 road 
litigation and quiet title actions that are literally filling the 
federal courts in Utah thereby wasting precious state and federal 
monies.
    In conclusion, I quote at statement on the website of one grant 
driven environmental organization (the Pew Environment Group) regarding 
their strong opposition to the proposed legislation. ``This legislation 
would take away protections that have been in place for decades, 
including those for our most pristine backcountry. America's tradition 
of managing our lands on the multiple use principle would be upended. 
Mining, logging and drilling are already allowed on more than half of 
our national forests and other public lands. This legislation proposes 
to open up most of the rest putting drinking water for 60 million 
Americans at risk, compromising outdoor recreation and the billions of 
dollars in revenue it generates annually, damaging fish and wildlife 
habitat, and undoing years of work by lawmakers and diverse 
stakeholders to craft balanced land use proposals.'' This statement is 
pure fiction and like SUWA they distort the truth by calling Wilderness 
multiple use management, when it is common knowledge that WSA 
designations preclude almost any other use of the protected lands. In 
regard the statement that drinking water would be put at risk by 
removing WSA designations, the truth is that the creation of WSA's and 
Wilderness Areas does more to put drinking water at risk by allowing 
uncontrolled wildfires, beetle infestations of forests, erosion of 
soils in critical watersheds and by generally eliminating the ability 
to maintain watersheds in good ecological conditions via vegetative 
manipulation.
    I support this legislation and would like the congress to go one 
step further which is to allow the 11 individual western public land 
states to manage the BLM lands and Forest Service lands within their 
boundaries. I think the savings to the federal treasury would be huge 
and the revenues to the states and the federal government would be 
greatly increased. In 1976 the BLM was returning billions of dollars 
each year to the federal treasury. In fact only the IRS contributed 
more to the federal budget than the BLM. The radical shift from 
multiple use management to what is essentially a lock it up and keep 
the public and resource users off the land has resulted in another 
federal agency that spends more money than it takes in. FLPMA states 
that '' the public lands be managed in a manner which recognizes the 
Nation's need for domestic sources of minerals, food, timber, and fiber 
from the public lands including implementation of the Mining and 
Minerals Policy Act of 1970 (84 Stat. 1876, 30 U.S.C. 21a), (13) the 
Federal Government should, on a basis equitable to both the Federal and 
local taxpayer, provide for payments to compensate States and local 
governments for burdens created as a result of the immunity of Federal 
lands from State and local taxation. Utah doesn't want the federal 
government paying us for the loss of taxation that if properly managed 
could in fact come from these federal lands. I believe Utahans and most 
westerners just want the federal government to allow the states to 
management these public lands for multiple use and sustained yield.
                                 ______
                                 
    Mr. Bishop. Thank you, Representative. Commissioner 
Connelly.

               STATEMENT OF HON. KENT CONNELLY, 
          COUNTY COMMISSIONER, LINCOLN COUNTY, WYOMING

    Mr. Connelly. Thank you, Mr. Chairman. I do appreciate that 
you bring the local level in here. When Mr. Noel said that they 
were down close to the public, I am representing the public 
here today. The public themselves call me constantly on this 
issue. Up before you is a map that we sent out to you. I would 
like you to take a good look at it if you would. As a 
Commissioner, I come from an extensive background in a lot of 
different areas, but I also sit as a cooperating agency on 13 
different plans right at the moment, so I have a broad spectrum 
of how many things are going on on these lands that you are 
discussing.
    The map before you, if you look dead center in it, there is 
one white area right in the middle. There is a road at the top 
of that map right there where you come to an intersection where 
I have been to nine recent Forest Service meetings. The 
discussion at that meeting is this. You can go over here on 
your side, this side over here, and it says not suitable for 
sedans. You can come back to the other side over here and it is 
a scenic byway. That scenic byway was built in cooperation with 
the Forest Service and the taxpayers' money, who I represent.
    The way you can't go on with the sedan, you can go in there 
and do treatments and get some of the logs out. The Bridger-
Teton National Forest projection for 2013 is 90 percent of it 
will be dead. If you were to allow that to happen in 
Washington, D.C., right here, I would challenge you to be able 
to say to you, would you be doing something about it? Would you 
be getting rid of those trees so that they don't burn you down? 
Because in this same map, take a very good look over toward the 
bottom, that is the watershed for five communities.
    Inside of that watershed, yes it is pristine, but it is 
also a place where the water comes out of the ground, you know, 
the size of this room, literally. Goes about two miles, drops 
into a sink. In that sink in there then it is naturally 
filtered and comes back up for the drinking water I use in my 
home. In a recent meeting at that intersection with the Forest 
Service the discussion was this. We don't dare go off the road 
for 300 feet, it is designated roadless.
    And when they argue the 300 feet, don't think that they are 
not handcuffed, because they will stand right there in those 
meetings and tell you, we don't know whether that is this tree 
that is 300 foot tall or this one that is 300 foot tall. We are 
only talking about 300 feet of coverage, that particular area, 
not when it burns, I mean if it burns, it is when, bottom line. 
Because the map you are looking at when you go north is 
Yellowstone, it is the Tetons, it is the Wind Rivers. Those is 
what is north of me up there.
    I watched Yellowstone burn. As a Commissioner, we already 
have an emergency declaration in place that we took to the 
Governor of the State of Wyoming because of the pending 
disaster that poses in this area right here. We are working 
with the Forest Service to try to get this taken care of so 
that I don't lose the watershed. Anybody that tells you that a 
roadless area protects the water needs to come to my area. We 
will give you a hands on look at it, any time you would like to 
come, and anybody that doesn't think the Forest Service isn't 
handcuffed by these.
    The two other gray areas out there, those are WSAs. They 
have been there the entire time as this goes on. Both of those 
are skirted by roads. Remember the green area you are looking 
at is listed as roadless, and as you look at all the squiggly 
lines, by the way that is a roadless area with roads in it. 
There is not one of those roads, by the way, that has had a 
blade on them that the county and my taxpayers hasn't been able 
to put money into, the Forest Service doesn't have the money to 
do it, they are not maintaining their roads.
    All you have to do is show up and take a look, don't take 
my word for it, don't take an impassioned speech at this table. 
On the ground this is what is going on up there. This is a 
roadless area with roads in it, it is impacting a watershed. 
The WSAs, I am in my second term as a County Commissioner, I 
have never sat in a meeting, I am on 13 cooperating agencies, I 
have never sat in a meeting and discussed what is going on in 
there. The BLM doesn't have enough money to literally take care 
of their restrooms out in these outlying areas let alone sit 
down in a meeting and discuss what they are going to do in a 
WSA.
    I will say that again, they come to me to clean their 
restrooms. My taxpayers, what do they tell me when they call 
me? They want to know what is going on with the National 
Forests because they drive up a road and it says roadless. They 
don't know what else to do but turn around and go home. There 
are 2,000 four-wheelers come through my community every 
Saturday, they are going somewhere. They are going into areas 
that people don't know what to do and how to handle them.
    I am going to leave you with one final thing so I can keep 
this moving forward. This is of particular interest to me as a 
taxpayer also. The Federal fire budget is in the billions. When 
you were managing the forest and taking care of it as a 
renewable resource, they were in the millions. Where are we 
spending our billions versus our millions? Thank you.
    [The prepared statement of Mr. Connelly follows:]

  Statement of Kent Connelly, Chairman of the Board of Lincoln County 
Commission, Lincoln County, Wyoming; Chairman of the Coalition of Local 
Governments (Lincoln, Uinta, Sublette, Sweetwater Counties Wyoming), on 
         ``Wilderness and Roadless Area Release Act of 2011.''

    By January 2001, inventoried roadless areas had been evaluated for 
potential wilderness in the planning process for the development or 
revision of land management plans for all units of the National Forest 
System. The inventoried roadless areas were evaluated for potential 
recommendation as wilderness in the plan development and revision 
processes. Based on site-specific analyses during the planning process 
and public involvement, management direction was developed for 
inventoried roadless areas during the planning process that included: 
(1) protection of wilderness values in relation to an administrative 
recommendation to Congress that the area be designated wilderness; (2) 
total or partial restriction of certain uses and development activities 
such as road construction or timber management; or (3) minimal 
restrictions to resource management and development actions and other 
allowable uses.
    However, in 2001, via a legally infirm rulemaking, the Clinton 
Administration fundamentally changed the Forests Service's longstanding 
approach to management of inventoried roadless areas by establishing 
nationwide prohibitions generally limiting, with some exceptions, 
timber harvest, road construction, and road reconstruction within these 
areas of the National Forest System. These nationally-applied 
prohibitions superseded the management prescriptions for inventoried 
roadless areas applied through the development of individual land 
management plans as described above, and would not have been able to be 
revisited through subsequent plan amendments or revisions.
    Since the 2001 Roadless Rule's promulgation, there have been nine 
lawsuits filed in United States District Courts in Idaho, Utah, North 
Dakota, Alaska, the District of Columbia, and Wyoming. In fact, Wyoming 
is still currently involved in active litigation over the 2001 Roadless 
Rule.
    Notably, on July 14, 2003, the U.S. District Court for the District 
of Wyoming issued a permanent injunction and set aside the 2001 
Roadless Rule. The District Court held that the Roadless Rule was both 
procedurally and substantively unlawful under the National 
Environmental Policy Act and the Wilderness Act of 1964, in part 
because the timber harvest and road construction prohibitions 
constituted the establishment of de facto wilderness, and pursuant to 
the Wilderness Act, only Congress can designate wilderness areas.
    In response to the Wyoming District Court's holding, then-
Agriculture Secretary Ann M. Veneman proposed a new rule that would 
establish a process for individual governors to work with the Forest 
Service to develop locally-supported rules for conserving roadless 
areas in their respective states. After a lengthy comment period during 
which 1.8 million comments were received, on May 5, 2005, the State 
Petitions Rule was issued, replacing the 2001 Roadless Rule.
    Some of the key features of the State Petitions Rule include: (1) 
Governors had until November 13, 2006, to submit a petition to the 
Secretary of Agriculture for rulemaking; (2) The process was voluntary. 
If a Governor did not want to propose changes to the existing 
management requirements for inventoried roadless areas contained in 
currently approved land management plans, then no petition need be 
submitted; (3) the Secretary would then establish a national advisory 
committee to assist with the implementation of this rule. Members of 
this committee would be representatives of national organizations 
interested in conservation and management of inventoried roadless 
areas; (4) the advisory committee members have 90 days to review each 
petition submitted and provide the Secretary with advice and 
recommendations, with a response due from the Secretary within 180 days 
to the state petitioner.
    After the State Petitions Rule was promulgated, several states and 
environmental groups challenged its propriety in the U.S. District 
Court for the Northern District of California. See California ex rel. 
Lockyer v. USDA, 450 F. Supp. 2d 874 (N.D. Cal 2006). The Lockyer 
District Court held that the State Petitions Rule was also unlawfully 
promulgated and set it aside. In the meantime, the District of 
Wyoming's order setting aside the 2001 Roadless Rule was vacated on 
appeal by the Tenth Circuit Court of Appeals. As a result, the Lockyer 
District Court reinstated the 2001 Roadless Rule. In light of the 
reinstatement of the Roadless Rule and the vacatur of the State 
Petitions Rule, on January 12, 2007, the State of Wyoming renewed its 
challenges to the 2001 Roadless Rule in the U.S. District Court for the 
District of Wyoming. On August 12, 2008, the District Court once again 
held that the 2001 Roadless Rule violated the National Environmental 
Policy Act and the Wilderness Act, and again set aside the 2001 
Roadless Rule. After the second District of Wyoming judgment was 
entered, the Forest Service appealed that decision to the Tenth Circuit 
Court of Appeals. The case has been fully briefed and argued, and the 
State of Wyoming has been awaiting a decision from the Tenth Circuit 
for more than sixteen months.
    In 2009, the Secretary of Agriculture withheld final approval of 
all decisions affecting inventoried roadless areas, even though the 
Wyoming District Court held that the 2001 Roadless Rule was unlawful. 
The Secretary has delegated this approval authority to the Chief of the 
Forest Service. The effective result is that local and regional Forest 
Service officials cannot approve any forest management activity, such 
as logging or vegetation treatments, that involves road construction or 
reconstruction without approval from the Chief and the Secretary of 
Agriculture. This approval has not been given, despite meetings with 
the Under Secretary.
    The legal wrangling which has ensued has caused substantial 
impairment to local and state policymakers in addition to local federal 
land managers, leaving them unable to make sound, responsible decisions 
related to active forest management. Until the case is decided by the 
Tenth Circuit Court of Appeals, the Wyoming District Court's setting 
aside of the 2001 Roadless Rule is the current ``law of the land'' 
within Wyoming. However, the question that policy makers and land 
managers struggle with is how to actively engage in management 
practices on lands that are designated as inventoried roadless areas. 
This legal no man's land and the tremendous confusion in Wyoming about 
the legal authority to take action have resulted in many Forest Service 
managers electing to take no action, leaving the National Forests 
effectively unmanaged. As a consequence, and despite the the Wyoming 
District Court's order holding the Rule unlawful, inventoried roadless 
areas continue to be treated as de facto wilderness areas. As it now 
stands, for any action to be taken by the Forest Service in an 
inventoried roadless area, the Forest Service must embark on a lengthy 
and costly process yielding a document similar to an environmental 
impact statement, and then ask the Secretary of Agriculture, through 
the Chief of the Forest Service for final approval. This adds 
additional layers of unnecessary governmental ``red tape,'' meanwhile, 
our already stressed forests continue to degrade.
    The enacting of the Wilderness and Roadless Area Release Act of 
2011 will enable Forest System lands to be freed from the bureaucratic 
trap in which they are undeniably held. There are hundreds of thousands 
of acres of Forest System lands designated as inventoried roadless 
areas that have not been designated as wilderness and were not 
recommended for designation as wilderness. Yet, these lands continue to 
be treated as de facto wilderness areas with burdensome restrictions 
placed on development in order to protect the areas' ``roadless 
characteristics.'' The economic, social, and health consequences to the 
State of Wyoming are incalculable as our beautiful forests continue to 
be ravaged by drought, overcrowding, wildfire, and bark beetle 
epidemics.
    Locally, inventoried roadless areas in Lincoln and Sublette 
Counties total more than 1.4 million acres, or about one-third of the 
inventoried roadless areas in the State of Wyoming, specifically: (1) 
the Grey Back Ridge roadless area encompasses 301,136 acres, (2) 
Gannett Hills Spring Creek encompasses 45,460 acres, (3) South Wyoming 
Range includes 85,774 acres, (4) Salt River Range encompasses 241,494, 
(5) Riley Ridge encompasses 4,765 acres, (6) Nugent Park Ham's Fork 
Ridge encompasses 21,241 acres, (7) North Mountain encompasses 9,798 
acres, (8) Munger Mountain encompasses 12,826 acres, (9) Little 
Cottonwood encompasses 5,468 acres, (10) Lake Alice Commissary Ridge 
encompasses 166,705 acres, and (11) the West Slope area encompasses 
143,248 acres. Further, there are another 30,000 acres of lands 
classified as roadless on the Ashley National Forest in the Flaming 
Gorge National Recreation Area. These lands are located in Uinta and 
Sweetwater Counties to the south of Lincoln County and are used widely 
by Lincoln County residents.

Local Effects of Current ``Roadless'' Management:
    Critically important to Lincoln County is the Bridger-Teton Nation 
Forest (BTNF). This Forest encompasses over 3.4 million acres of some 
of Wyoming's most scenic landscape. The Forest is located in western 
Wyoming in close proximity to Grand Teton and Yellowstone National 
Parks. In fact, the BTNF is a major component of the Great Yellowstone 
Ecosystem and is a repository for some of the Nation's most important 
natural assets. In 2001, the Secretary of Agriculture identified more 
than 3.2 million acres of inventoried roadless conservation areas in 
Wyoming of which 1.4 million acres are in the Bridger-Teton National 
Forest. Of the 872,739 acres encompassed by the Bridger-Teton National 
Forest, 80% or 702,594 acres are classified as inventoried roadless 
areas.
    The Bridger-Teton National Forest straddles five Wyoming Counties: 
Fremont, Lincoln, Park, Sublette, and Teton. In four of these counties 
(Park County is excluded in the analysis due to its geographic 
location) over 80,000 residents are employed in more than 60,000 jobs. 
These workers earn over $1.75 billion per year with a mean annual wage 
of about $29,000. According to a 2004 estimate, personal income in the 
region totaled approximately $3.18 billion. This figure includes 
government transfer payments and investment income as well as labor 
earnings to residents.
    Due to its natural amenities, Lincoln County draws a significant 
number of outdoor recreation enthusiasts of all types. The County's 
economy reflects this, with its high levels of travel and tourism and 
second home development. Additionally, mineral development has become 
significantly more important to the region with the discovery of large 
deposits of natural gas. Moreover, agriculture remains an important 
part of the regional economy and lifestyle.
    In the absence of the clear ability to manage National Forest 
System lands, Wyoming, and specifically Lincoln County, is losing 
valuable resources every day.

Wood Products:
    A total of 2.8 million board feet (MMBF) of timber was commercially 
harvested in the five BTNF Counties in 2005. Of this total 1.8 MMBF 
(62.4%) was harvested in Fremont County, 1.0 MMBF (35.0%) was harvested 
in Lincoln County, 42,000 board feet (1.5%) was harvested in Teton 
County, and 23,000 board feet (0.8%) was harvested in Sublette County. 
These figures represent harvest from all types of land, not just the 
BTNF.
    There were a total of 15 wood product facilities in four of the 
BTNF Counties in 2005: 6 sawmills, 5 log home operations, 3 log 
furniture operations, and 1 post and pole operation. With the decline 
of access to a stable supply of timber, the labor earnings from the 
lumber and wood products industry declined steadily from approximately 
$19.1 million in 1978 to just $2.0 million in 2000.

Permitted Livestock Grazing:
    Data from the U.S. Department of Commerce's Bureau of Economic 
Analysis indicate that the gross revenue for agricultural operations in 
the five BTNF Counties was $153.4 million in 2004. Of this total $121.2 
million (79%) came from livestock operations, $19.1 million (13%) came 
from crop production, and $13.1 million (9%) came from other sources. 
Clearly, livestock production is critically important to these 
Counties.
    Between 1970 and 2006 the beef cow inventory for the BTNF Counties 
averaged nearly 120,000 head. During the same time period, 1970 to 
2006, the sheep inventory of the BTNF Counties declined substantially. 
In 1970, the total breeding sheep inventory in the four county area was 
nearly 200,000 head.
    Currently, there are approximately 122 permits to graze cattle and 
12 permits for sheep grazing on the BTNF. These grazing permits 
currently support approximately 39,000 head of cattle and 51,370 head 
of sheep.

Wildlife and Big Game:
    According to the Wyoming Game and Fish Department, the BTNF 
provides 32 percent of the total seasonal range, 40 percent of the 
spring/summer/fall seasonal range and 76 percent of the migration 
corridors for elk in the four county area. Elk, deer, and pronghorn 
hunting resulted in over 300,000 hunter days annually in the region. 
This hunting generated $57.7 million in revenue. The non-local portion 
of these revenues supported 1,828 jobs and $26.7 million in labor 
earnings. The average earnings per job for this employment were 
$14,610. Accordingly, the BTNF plays a significant role in supporting 
this economic activity in Lincoln County.
    Fishing is estimated to represent about 4.3 percent of the 2.8 
million annual visits to the BTNF. This represents approximately 
120,000 annual fishing related visits. Of these visits, 84,000 (70%) 
were estimated to be by non-local visitors, supporting 100 jobs in the 
local economy and generating $2.2 million in labor earnings.

Revenue Impacts:
    Revenue impacts felt in Lincoln County include: (1) foregone energy 
development, yielding less sales and use tax revenues and fewer local 
jobs; (2) a truely glacial pace of vegetation treatments and logging, 
again yielding fewer sales and use tax revenues and fewer local jobs; 
(3) decreased tourism, and its attendant decrease in local economic 
activity, due to reduced access; and (4) severe economic impacts should 
catastrophic wildfire destroy larges areas of the County and force 
people from their homes and displace wildlife.
    These are the concrete impacts from the current Forest Service 
management of inventoried roadless areas that Lincoln County faces each 
year the Forest Service fails to follow the law and address the serious 
resource issues after being asked time and time again by local elected 
officials.

Minerals:
    In 2006, in four of the five Counties in the BTNF area, the total 
mineral assessed valuation was $5.9 billion. Of that total, natural gas 
production represented more than 90% of the mineral assessed valuation, 
crude oil represented nearly 7%, coal represented slightly more than 
1%, and sand and gravel represented slightly less than 1%.
    The only non-energy mineral production operations occurring in the 
BTNF are sand and gravel operations and landscape rock production. 
These commodities are important to two sectors of Wyoming's economy: 
transportation, where these common varieties are necessary for road 
maintenance and winter sanding; and the construction sector, where 
concrete and landscaping stone are employed. Indeed, almost 1.8 million 
tons of sand and gravel was produced in the region in 2005, employing 
232 people.

Energy Resources:
    The assessed valuation of natural gas in the BTNF Counties has 
increased more than 17 times, from $273.4 million in 1990 to $4.7 
billion in 2006. Currently, 150,587 acres of the BTNF are leased for 
energy development and the leases for 44,600 additional acres are under 
appeal. In the BTNF, at least 14 gas wells are currently in production. 
In 2004, those wells produced 131.0 billion cubic feet, up from 81.5 
billion cubic feet in 1987. It is estimated that the 2005 natural gas 
production on the BTNF had a value of $822.1 million. Moreover, it is 
estimated that BTNF natural gas production supported 248 jobs (direct 
and secondary) throughout the economies of Lincoln, Sublette, and 
Sweetwater Counties. Labor earnings associated with that employment 
were estimated to be nearly $13 million. Tax revenues collected in 2005 
from natural gas generated in the BTNF were $35.7 million in ad valorem 
taxes, $34.3 million in severance taxes and $30.8 million in federal 
mineral royalties for Wyoming. The total tax revenue to Wyoming from 
the 2005 production was estimated to be $100.9 million.

Energy Projects:
    Energy projects, which hold promise for jobs and revenues in the 
communities of Lincoln County, have been canceled, put on hold or 
otherwise reversed, in large part due to the impacts on these 
inventoried roadless areas. While the Forest Service has repeatedly 
stated that the 2001 Roadless Rule does not preclude mineral leasing, 
the process to offer a lease has been delayed time and again without a 
decision and with the outcome that energy development in Lincoln County 
has been stymied. Examples of this delay to development include: (1) an 
environmental impact statement (EIS) supporting a 44,720 acre lease was 
appealed, reversed, and its analysis revised. Despite that, no decision 
is slated until December 2012 (Lincoln County does not expect that 
deadline to be met); (2) a 2008 Geothermal programmatic EIS was 
approved but the project was then cancelled in 2010; (3) True Oil's 
master development plan has been placed on hold; (4) Noble and Plains' 
exploration development plan has also been placed on hold; and (5) 
rights-of-way for wind electricity or natural gas are continuously 
directed away from National Forest System lands.

Visitor Amenities:
    In 2005, the estimate for visitor spending in four of the five BTNF 
Counties was $682.5 million. These expenditures represent overnight 
trips to the area that were not of a local commuting nature. Direct 
employment from travel spending in the four County region was 
calculated in 2005 to be 8,690 jobs. What these figures demonstrate is 
that that BTNF is a cornerstone of the local economies. Lincoln County 
has suffered significant impacts due to the continued implementation of 
the 2001 Roadless Rule.

Local Access Issues:
    Inventoried roadless areas in the BTNF actually contain many roads 
that provide critical access to homes, recreation, hunting, and 
livestock grazing permittees. Access to and through the National Forest 
is essential to the citizens of Lincoln County and other surrounding 
counties. We have large areas of Forest that are within the 
``roadless'' boundary where there are contour ditches, previous timber 
harvests, and engineered roads. These areas should not have been 
classified as ``roadless,'' yet continue to be classified as such. 
Please refer to Exhibit 1 for a map depicting the Lincoln County areas 
described.
    The limits on land uses in roadless areas are felt throughout 
Lincoln County. The Lincoln Board of County Commissioners is repeatedly 
faced with these limits. For example, the Forest Service has undertaken 
unannounced road closures in the roadless areas, without notifying the 
county governments, permittees, or the public. In one sadly comical 
case in the summer of 2008, the Forest Service landlocked a sheep 
permittee by placing trees across the road. The road closure prevented 
him from driving out with his sheep after grazing on the National 
Forest during the summer. In fact, the Forest Service has unilaterally 
closed many popular forest roads in Lincoln County in the BTNF. Again 
we find this most often occurs in the inventoried roadless areas, with 
the effect of denying access to hunters and recreationists as well as 
ranchers who have grazing permits.

Catastrophic Fire Danger:
    Catastrophic wildfire in the BTNF is imminent. At this point, it 
could be any day when hundreds of thousands of acres of Forest System 
lands erupt in conflagration. Though direly needed, hazardous fuels 
reduction projects simply are not conducted in inventoried roadless 
areas. Moreover, Lincoln County estimates that between 40 and 50 
percent of the lands on its National Forests are composed of diseased 
timber, trees infested with pine beetle, or both. Statewide, by 2010, 
Wyoming has experienced 3.1 million acres of tree mortality due to bark 
beetle since the mid-1990s. Clearly, this is a ticking time bomb that 
will result in western Wyoming looking like the gates of hell, much 
like northeastern Arizona did earlier this summer when uncontrollable 
flames erupted.
    The Forest Service has recognized this situation for more than 
seven years but has not exhibited either the will or the ability to 
address the threats of catastrophic wildfire. Lincoln County at one 
point has had to rescind its memorandum of cooperation with Forest 
Service fire agencies due to the high risk of fire and the agency's 
unwillingness to conduct fuel management that might mitigate or prevent 
wildfire.
    Had Lincoln County not seen a high snowfall during the winter and a 
wet spring, there could have been extensive, devastating wildfires 
already this year. And we are not in the clear just because the 
moisture levels have increased in the local trees, shrubs, and grasses. 
Indeed, heavy winter and spring precipitation have increased the amount 
of on-the-ground vegetation, which, once dried in the summer and fall 
months, will yield even higher fuel loads that will readily support a 
wildfire. At the same time, western Wyoming has long suffered from 
drought, contributing to the current epidemic of pine beetles and 
related pine diseases. These effected trees are dead or rapidly dying.
    As another justification for denying wildfire mitigation projects, 
the Forest Service points to a perceived need to conserve habitat for 
Canada lynx. Apparently little or no thought is given to the 
significant loss of Canada lynx habitat that will occur if western 
Wyoming suffers the catastrophic wildfire that it is sure to result 
unless fuel mitigation projects are allowed to go forward. The Forest 
Service rarely acknowledges the other environmental impacts of 
wildfires, like soil erosion, noxious weed invasions, and the direct 
mortality of wildlife, not to mention air quality degradation.
    Moreover, the stream degradation that will surely result from 
wildfire will significantly impact local water supplies. In Lincoln 
County, the Hams Fork Drainage is the major municipal water supply for 
five Wyoming towns. When the Forest burns and the watershed is 
destroyed, where will these municipal residents find domestic water? 
How will the livestock and wildlife drink? These are issues that remain 
in the forefront of discussion of which there does not seem to be no 
satisfactory answers from the Forest Service.

Vegetation Management:
    Vegetation management projects that are proposed and actually 
implemented are very small in comparison to the size of the problem. 
The salvage and vegetation treatments that are approved involve a scant 
few hundred acres each, despite that more than a million acres are at 
risk. It is more alarming that these projects often have been delayed 
or abandoned altogether. Included is a specific list of local efforts 
which have been stymied: (1) the LaBarge Aspen treatment was put on 
hold, revised, and now may be implemented in September 2012; (2) the 
Pine Creek vegetation treatment has also been put on hold; (3) the Hams 
Fork vegetation treatment has now entered a scoping period; (4) the 
Star Valley vegetation treatment environmental assessment was scoped in 
2011 but has resulted in no further movement; (5) the Hobble Creek 
treatment has been canceled; and, (6) the Pole Creek project was 
started in 2010 and took more than a year to complete.
    Without proper vegetation management, flooding and redirection of 
stream flow is of crucial concern in many Wyoming Counties. This year, 
Carbon County experienced an unprecedented amount of water flow causing 
serious and catastrophic flood levels. It cannot be ignored that much 
of the Medicine Bow National Forest's timber is dead and those stands 
that would have mitigated runoff are no longer functioning. Four people 
have died as a result of the flooding. It is time that the Forest 
Service take proactive steps regarding vegetation management instead of 
waiting for more people to lose their lives in unnatural flood events.

Conclusion
    With 2,619,816 acres of federal lands in Lincoln County, the local 
economy depends on multiple use principles that support our existing 
customs and culture. People do not live and work in Wyoming to go to 
the opera. We are here because we love to hunt, fish, ride our horses, 
hike, camp and use our four-wheelers. Certainly most of our photo 
albums contain pictures of the wide open spaces and breathtaking views, 
but nearly every picture also contains us. We are hunting. We are 
fishing. We are hiking. We are moving cows. We are drilling. We are out 
there. This is truly our custom and our culture, in addition to being a 
mainstay of our way of life and our way of making a living.
    If Teddy Roosevelt and Gifford Pinchot were alive today, they would 
be appalled at the forest conditions in Wyoming. Consider the following 
statement from Theodore Roosevelt to the Society of American Foresters 
in 1903:
        ``And now, first and foremost, you can never afford to forget 
        for one moment what is the object of our forest policy. That 
        object is not to preserve the forests because they are 
        beautiful, though that is good in itself, nor because they are 
        refuges for wild creatures of wilderness, thought that, too, is 
        good in itself, but the primary object of our forest policy, as 
        the land policy of the United States, is the making of 
        prosperous homes. . .Every other consideration comes as 
        secondary.''

        ``You yourselves have got to keep this practical object before 
        your minds; to remember that a forest which contributes nothing 
        to wealth, progress or safety of the country is of no interest 
        to the Government, and should be of little interest to the 
        forester. Your attention must be directed to the preservation 
        of forests, not as an end in itself, but as a means of 
        preserving and increasing the prosperity of the nation.'' 
        (Evergreen Magazine, Winter 1994-1995 Edition).
    To close, in the absence of clear statutory authorization to 
release these areas of land that we call ``roadless'' that are stuck in 
federal governmental purgatory, Wyoming County Commissioners continue 
to be placed in a position with their constituents that defies all 
reason or common sense. Almost daily, County Commissioners are asked by 
citizens, ``Why can't we just cut them down and put them to a good use, 
instead of seeing our beautiful sea of green turn to a dismal black?'' 
Another frequent question is, ``What do you mean this area is 
`roadless' there are several roads already in the forest?''
    My fellow County Commissioners and I are asked to answer these 
questions daily; we are without the ability to give an answer because 
of inconsistent federal practices and layer upon layer of governmental 
process. Our Forests are part of our identity in Wyoming, and the 
wildlife that resides there embodies the spirit of our State. As 
inventoried roadless areas are being lost simply because of a lack of 
active forest management, the United States government is doing 
irreparable harm to our environment, our economy, but more importantly, 
our state and local customs and culture. This waste is reprehensible 
and cannot be permitted to continue. The examples provided in this 
testimony are real and the economics associated with this ill-thought 
policy are real for working Wyoming citizens determined to make a 
living and remain in the place where they love.
    Only Congress can designate a wilderness area, and with the 
proposed legislation, we will once again return to the Congressional 
intent of the Wilderness Act, not the poorly conceived agency rules or 
the political pressures placed by environmentalists that forever change 
the Wyoming landscape, and not for the better.
                                 ______
                                 
    Mr. Bishop. Thank you, Commissioner. Mr. Kleen?

STATEMENT OF DAN KLEEN, PRESIDENT, NATIONAL OFF-HIGHWAY VEHICLE 
                      CONSERVATION COUNCIL

    Mr. Kleen. Thank you, Mr. Chairman and distinguished 
Subcommittee members. My name is Dan Kleen, I live in 
Pocahontas, Iowa, I am President of the Board of Directors of 
the National Off-Highway Vehicle Conservation Council, or 
NOHVCC, and I appreciate this opportunity to testify before you 
today in support of H.R. 1581 and to share with you a different 
point of view when it comes to access to our public lands. I 
have been involved with NOHVCC for 16 years and I have also 
been involved with the Iowa Off-Highway Vehicle Association for 
more than 20 years.
    My involvement with these groups has not only allowed me to 
meet with some super people in this country, but it has also 
given me the opportunity to visit and enjoy some of our 
beautiful public lands. I have been able to ride in 19 states 
and parts of Canada, and I have truly appreciated each trip. 
None of these experiences would have been possible for me 
without my use of my OHVs.
    Many of the areas I have had the privilege of riding were 
in Forest Service lands or Bureau of Land Management lands. I 
would support H.R. 1581 which would release these areas that 
have been deemed nonsuitable for wilderness designation by the 
appropriate agency and to allow them to be used for multiple 
uses. While I understand that OHV recreation isn't acceptable 
on every acre of public land, I believe that managers should 
have the ability to manage and H.R. 1581 would allow them to 
make better decisions on these areas that have been locked up 
for decades.
    Almost 20 percent of Americans are living with some sort of 
disability. This is the combined populations of California and 
Florida. Wheelchair users like myself make up for 3.3 million 
of that total. When you look at the aging of America, it is 
estimated by 2030 71 and a half million Americans will be over 
the age of 65. One in every five of us in this room either are 
already dealing with some sort of disability or may have to 
deal with a disability in our lifetime. Hopefully all of us 
will get to deal with the aging issue.
    How and where Americans with special needs choose to 
recreate with their families friends may vary. For myself and 
many others off-highway vehicles make it possible to 
participate in and enjoy more experiences while lessening the 
burden on those we want to spend time with. Improving 
independence for people with disabilities also improves quality 
of life. In 1987 I was injured in a diving accident. I am an 
incomplete C-6 quadriplegic and a full time wheelchair user.
    I spent nine months in the rehab hospital. During that 
stay, I spent a lot of time thinking of how I may adapt to 
continue to get outdoors and enjoy my favorite sports. At that 
time many off-highway vehicles were less user friendly and for 
people with limited mobility than they are today. But now many 
machines can be used with little or no modifications, making 
them easier and less expensive to use. Automotive type hand 
controls which have been used for years can easily be adapted 
to recreational off-highway vehicles are commonly called side 
by sides.
    We have been able to introduce several of our wounded 
veterans who have suffered lower leg amputations to our sport 
with the help of this type of hand control modifications. It 
has been a long personal goal to establish a national program 
to introduce wounded veterans to the experience that off-
highway vehicles can provide. Through NOHVCC and other 
organizations I hope to get such a program off the ground in 
the future.
    I would like to share with you one particular ride that 
stands out. As we were getting ready to leave Richfield, Utah, 
on our ATVs, another small group of riders stopped and asked us 
for suggestions on trails that they may enjoy that day. We 
invited them to join us on our ride. Our destination was Monroe 
Mountain, more than a 70-mile ride that would take us through 
parts of the Fishlake National Forest and the Richfield 
District of the BLM, Monroe Mountain is still one of my 
favorite places to visit.
    When we and our new friends arrived at the top of the 
11,200-foot peak, I told one of them that if she wanted to talk 
to God it was a local call from up here. That particular day I 
did not take my wheelchair with me, and it was not until that 
evening and we returned back to Richfield and I got off my ATV 
back in my wheelchair that our new friends even realized I had 
a disability.
    One of them had a pretty good laugh and commented that I 
had just ridden over 70 miles up over 11,000 feet and without a 
problem, but when I got back to the parking lot a six-inch curb 
made me push a half a block out of the way to join them at the 
campfire. I sometimes wonder, in closing, I wish you would 
consider these access opportunities of the 54 million Americans 
with disabilities are elderly and veterans on your decision on 
H.R. 1581 or any other possible legislation for public 
responsible access. Thank you.
    [The prepared statement of Mr. Kleen follows:]

        Statement of Dan Kleen, President, Board of Directors, 
           National Off-Highway Vehicle Conservation Council

    Good Morning, Mr. Chairman and Distinguished Subcommittee Members.
    My name is Dan Kleen, I live in Pocahontas, Iowa. I am the 
President of the Board of Directors for the National off-Highway 
Vehicle Conservation Council (NOHVCC) and I appreciate this opportunity 
to testify before you today in support of H.R. 1581 and to share with 
you a different point of view when it comes to access to our Public 
Lands.
    I have been involved with NOHVCC for 16 years, and I have also been 
involved with the Iowa Off-Highway Vehicle Association for more than 20 
years. My involvement with these groups has not only allowed me to meet 
some great people, it has given me the opportunity to visit and enjoy 
some of our beautiful Public Lands. I have been able to ride in 
California, Oregon, Nevada, Arizona, Utah, Idaho, Montana, Wyoming, New 
Mexico, Texas, Nebraska, South Dakota, Wisconsin, Iowa, Missouri, 
Michigan, Ohio, West Virginia, North Carolina and parts of Canada. I 
have truly appreciated and enjoyed each trip. None of these great 
experiences would have been possible without the use of my Off-Highway 
Vehicles.
    Many of the areas I had the privilege of riding were on Forest 
Service and Bureau of Land Management lands. As a result I support H.R. 
1581, which would release areas that have been deemed not suitable for 
wilderness designation by the appropriate agency and allow them to be 
used for multiple uses. While I understand that OHV recreation isn't 
appropriate on every acre of public land, I believe that land managers 
should have the ability to manage and H.R. 1581 would allow them to 
make better decisions on areas that have been in limbo for decades.
    I would also like to take this opportunity to share with you how 
many of the over 54 million Americans with disabilities may use Off-
Highway Vehicles (ATVs, Side by Sides, Motorcycles, Full Size 4X4s and 
other vehicles) to recreate on some of our nation's most beautiful 
areas with our families and friends.
    Almost 20% of Americans are living with some sort of disability. 
That is the combined populations of California and Florida. Wheelchair 
users like myself make up 3.3 million of that total. When you look at 
the aging of America it is estimated that by 2030, 71.5 million 
Americans will be over the age of 65. One in every Five of us in this 
room are already dealing with, or may have to deal with a disability in 
our lifetime. Hopefully all of us will get to deal with the aging 
issue.
    How and where Americans with special needs choose to recreate with 
their families and friends may vary. For myself, and many others, Off-
Highway Vehicles make it possible to participate in and enjoy more 
experiences while lessening the burden to those we want to spend time 
with. Improving independence for people with disabilities also improves 
quality of life.
    I grew up on an Iowa farm. Some of my fondest memories are of 
hunting, fishing, riding motorcycles, snowmobiles and horses with my 
family and friends. In 1987 I was injured in a diving accident, I'm an 
incomplete C-6 quadriplegic and a fulltime wheelchair user. I spent 9 
months in a Rehab Hospital and during that stay I spent a lot of time 
thinking about how I would need to adapt to continue to get outdoors to 
enjoy my favorite sports.
    At that time most Off-Highway Vehicles were less user friendly for 
people with limited mobility than they are today. But now many machines 
can be used with little or no modification, making them much easier and 
less expensive to use. Automotive style hand controls that have been 
used for years can easily be adapted for use on Recreational Off-
Highway Vehicles (commonly called, Side by Sides). We have been able to 
introduce several of our wounded veterans who have suffered lower leg 
amputations to our sport with the help of this type of hand control 
modifications. It has long been a personal goal to establish a national 
program to introduce wounded veterans to the experience that off-
highway vehicles can provide. Through NOHVCC and other organizations we 
hope to get such a program off the ground in the future.
    One example of what an outreach group can accomplish is the 
Adaptive Sportsmen group located in Wisconsin. For the last 7 years 
they have held an annual 2-day ATV ride for people with disabilities in 
northern Wisconsin with 25 to 30 riders participating each year. This 
has been a very successful program. Several of the new riders being 
introduced to the sport at these rides have commented that learning 
from and riding with an experienced rider who also has a disability 
made it much more enjoyable.
    I would like to share with you one ride in particular that stands 
out. It was a beautiful September day in Utah. As we were getting ready 
to leave Richfield, Utah on our ATVs another small group of riders 
stopped us and asked us for suggestions of trails they may enjoy riding 
that day. We invited them to join us on our ride. Our destination was 
Monroe Mountain. A more than 70mile ride that would take us through 
parts of the Fish Lake National Forest and the Richfield District of 
the BLM. Monroe Mountain is still one of my favorite places to visit. 
When we and our new friends arrived on the top of the 11,200 foot peak 
I told one of them that if she would like to talk to God it is a local 
call from up here. That particular day I did not take my wheelchair 
with me on my ATV. And it was not until that evening when we returned 
to Richfield and I got off my ATV that our new friends even released I 
had a disability. We had a pretty good laugh when one of them commented 
that I had just ridden over 70 miles and up over 11,000 feet without a 
problem and yet a 6 inch curb in the parking lot made me push my 
wheelchair over a \1/2\ block out of my way to join them at the 
campfire.
    I sometimes wonder that if being from Iowa where we have no Federal 
lands to enjoy and where 98% of our State is privately owned does not 
make me appreciate each of the Nation's public areas I have visited 
even more. I do know that without the opportunity to responsibly use my 
Off-Highway Vehicles on these Public Lands I could not have enjoyed 
them.
    In closing, I ask you to please consider the access opportunities 
of the 54 million Americans with disabilities, our elderly and veterans 
in your decision on H.R. 1581 and any legislation that may address 
access for responsible Americans.
    Thank You!
                                 ______
                                 
    Mr. Bishop. Thank you very much, I appreciate the testimony 
of all four of you, I appreciate how religiously you held to 
that five-minute clock there even cutting things off in mid 
sentence, so thank you very much. I am going to ask my 
questions last. Ranking Member Mr. Grijalva, do you have 
questions for these four?
    Mr. Grijalva. Yes, thank you. Let me just thank you, 
Secretary, for being here today. Some figure that we heard 
today was 60 million Americans secure their drinking water from 
the National Forests. The question I think is if anything these 
WSAs and wilderness the biggest resource that we protect worth 
billions and billions of dollars is water. And my question is 
what would be the impacts if the supply if tens of millions of 
forest land are opened to oil and gas drilling and potentially 
other polluting activities, have the impact on that drinking 
water availability to those millions of Americans? To you, Mr. 
Secretary Babbitt.
    Mr. Babbitt. Well, I think that that is really the set of 
issues underlying the adoption of the Roadless Rule. 50 percent 
of the National Forest lands are today open and being used for 
timber cutting, clear cutting, road building, oil and gas. The 
question we have here is whether or not there should be, could 
be a different management regime for another 30 percent of the 
National Forests. And the Roadless Rule was crafted to say 
those lands will be open for recreation, they will be open for 
motorized recreation, there will be access for forest thinning 
and forest health activities written into the rule.
    The decision that was made in the Roadless Rule was that 
there are two activities that are manifestly incompatible with 
vigorous robust public recreation, ecological health and 
watershed protection of upstream communities, and the issue 
simply is not whether this is wilderness, it isn't. It is not 
whether or not Mr. Kleen has access to the 30 percent 55 
million acres under the Roadless Rule. You do have access. The 
question is what are the minimum exclusions necessary to ensure 
a robust ecosystem including a watershed provision for most 
western communities. That is the Roadless Rule.
    Mr. Grijalva. A process question, Mr. Secretary. The role 
of agency recommendations in this process that we are talking 
about, and so the agency is making the recommendation, what 
should the role of Congress be? Since this bill seems to be 
taking us in another direction.
    Mr. Babbitt. Mr. Grijalva, obviously Congress has the final 
say in the management of public lands. The question is how best 
to exercise that oversight. The reason I believe this bill is 
extreme is because rather than getting into the details of 
management prescriptions it simply blows away the protections 
in terms of the wilderness study areas and by repealing the 
Roadless Rule.
    I thought Mr. Sherman's description of the Roadless Rule 
issues was really worth listening to because they are not 
wilderness areas, they have a spectrum of uses. And my advice 
to the Congress would simply be, those are the issues that 
should be debated in this Congress. Maybe the Roadless Rule 
should be reshaped, but I think it is wrong and against the 
manifest will of the majority of Americans simply to blow it 
off and say we are going to give it away to extractive 
interests.
    Mr. Grijalva. I have an additional question, but I will 
yield.
    Mr. Bishop. All right, we will have another round obviously 
to go through here. Mr. McClintock, do you have questions for 
these witnesses?
    Mr. McClintock. Yes, thank you, Mr. Chairman. Mr. Noel, as 
I listened to Governor Babbitt, it sounds like he is saying, 
look we are not closing the public lands we are just closing 
the roads in the public lands. How do you respond to that?
    Mr. Noel. Well, Congressman, they are closing the road. Let 
me just tell you, you have heard of Revised Statute 2477, that 
was the law that was passed in the 1800s that allowed for 
counties to acquire access to public lands. This has been the 
entire debate of the wilderness group such as the Southern Utah 
Wilderness Alliance and the Wilderness Society, that is why in 
Utah we have spent untold millions of dollars to try to get our 
roads open. These are roads that were built by taxpayers, that 
have been maintained by taxpayers, and in 1976 when FLPMA was 
passed those roads were grandfathered in.
    These WSAs, and you know what the definition of a 
wilderness area is, 5,000 acres of roadless areas, this is 
where the battle is right at the pinnacle is on these roadless 
issues, on these issues that deal with roads on BLM, to try to 
obtain these roads and get them the name of the counties that 
access private lands, that access state lands, that access 
resources, and access the public lands that would stay here. 
This is the whole issue behind this, no one wants to talk about 
this but this is why we are fighting this battle.
    Right now we are in court with five or six different 
lawsuits. We have been to the 10th Circuit Court of Appeals 
twice and we have won on these issues. We are going to court 
next month, we should get, the first RS 2477 road recognized 
was in my county, in Kane County. I have been fighting this 
battle for 14 years now and we are finally getting to a head. 
But this WSAs, they were recommended by the Secretary, Former 
Secretary's Administration that we release these. This was the 
plan when FLPMA was passed.
    This is what the absurdity of all this is. FLPMA was passed 
as a multiple use bill. You remember the sage brush? I remember 
that time. I just joined the agency in 1975 right before 1976, 
a month before this all started, and the whole issue was, you 
can have access to the minerals, you can keep your water, you 
can have control of the state trust lands, and this whole thing 
has changed in the last 35 years.
    Mr. McClintock. Well, these extremists understand that if 
you can close the roads or prevent roads from being used you 
can close the public lands to the public.
    Mr. Noel. Absolutely.
    Mr. McClintock. And that I am convinced is their objective. 
I reflect on the days of Plantagenet England when the crown 
closed one-third of the land area of southern England declaring 
it a royal forest, became the private preserve of the crown, 
the royal foresters, and the favored constituents of the crown, 
and it became such an object of the public disgust and outrage 
that no fewer than five clauses of the Magna Carta were devoted 
to a redress of the public's grievances, and I think that we 
are watching that same phenomenon, something in our own human 
nature that tends to drive government to want to extend 
exclusivity over vast amounts of land, and that is exactly what 
it appears to me that they are doing.
    Now let me just ask panelists, is there anybody here who is 
advocating clear cutting of our forests? Of course not. So that 
is just a straw man, that is a device, an intellectually 
dishonest device. Nobody is suggesting that. The problem is we 
have now gone to the other extreme where we can't even salvage 
fire killed timber after a forest fire. And I think that there 
is a big difference between clear cutting and the sustainable 
forest management practices that once produced not only much 
healthier forests than those we have today but also a much 
healthier economy and much healthier revenues coming to the 
public treasury.
    We are now having far more frequent forest fires, far more 
intense forest fires because of the policy shifts of the last 
20 or 30 years. Because the Federal Government is now 
forbidding the removal of overpopulation and overgrowth of 
timber and as one forester told me, that overgrowth is going to 
come out of the forest one way or another, it will either be 
carried out or it will be burned out, but it will come out.
    When we carried it out, we had healthier forests and a 
healthier economy. Since the radical extremists seized control 
of our public policy 20 or 30 years ago we are now watching 
that overgrowth being burned out in devastating forest fires 
and there is nothing more environmentally devastating to a 
forest than a forest fire, and it is these policies that are 
promoting that sorry condition.
    Mr. Bishop. Thank you. Mr. Heinrich.
    Mr. Heinrich. Thank you, Chairman. Representative Noel, I 
wanted to ask. There are currently several million acres of 
public land that both the Department of Agriculture and the 
Department of the Interior have also recommended for wilderness 
designation. Some of these recommendations as you know go back 
just as long, 20 or 30 years depending on the inventory. If 
Congress acts on the recommendation in this legislation to 
release certain WSAs, how would you feel about at the same time 
including language that would designate the portions that were 
recommended as wilderness in those same inventories?
    Mr. Noel. I haven't been a strong proponent of wilderness 
in my own but I know some of these Congressional bills that 
have come forward, Congressman, have been compromises. So I 
think that should be up to the individual state and the 
congressional delegation of those states. I think there needs 
to be input from the Legislature, the State Legislature, 
because they are on the ground.
    Mr. Heinrich. I don't disagree with you, Representative 
Noel, but I question why there should be local input into 
designation but no local input into the release of tens of 
millions of acres of WSAs, including places in New Mexico where 
the local communities have very strongly said we want these 
WSAs even though they are not recommended to be designated as 
wilderness. So why the double standard?
    Mr. Noel. I am not proposing that, I never have. I think 
there should be local input if there is a particular area. 
But----
    Mr. Heinrich. This legislation takes that input away 
because it says that those WSAs in New Mexico that have local 
support will be released under this legislation, including in 
places like we heard about before from Congressman Pearce, the 
Sierra de las Uvas, the Robledos, and many, many others.
    Mr. Noel. But I thought you were talking about wilderness 
areas per se, not the ones that were found unsuitable. I think 
we have to follow the law, which says if it is found 
unsuitable, there are court cases in the 10th Circuit Court of 
Appeals that said if it is unsuitable it can't be managed for 
wilderness. So if these were found unsuitable they shouldn't be 
in that category. If you want to propose a bill from a local 
area and a Congressional bill and that comes before Congress, 
that is a different situation than what this legislation does. 
This talks about an existing law that has been in place since 
'76 that allows for these lands to be released, and I think 
that is all we are doing, under this Administration, under the 
Clinton Administration.
    Mr. Heinrich. So we are going to do half our job but we are 
not going to do the other half of our job. We are going to 
release the ones that were found unsuitable and we are not 
going to designate the ones that were found suitable?
    Mr. Noel. I am saying the ones that were found suitable, 
again that is a different process, that is a two-prong process. 
The first process is the release of WSAs.
    Mr. Heinrich. No, in many of these bills over the last 30 
years including the case you heard about in Arizona we did all 
of this together with local input, and I think it is worth 
looking at that model. And that even applies to places like the 
Cedar Mountains, which our Chairman designated as wilderness 
despite the fact that much of that was not recommended as 
wilderness. Commissioner Connelly, you mentioned Yellowstone 
National Park, and we all know the scale of the fire in 1988. 
How many of those roads were effective fire breaks in the 
summer of '88 in Yellowstone National Park, those critical 
roads for fire breaks?
    Mr. Connelly. All of them were.
    Mr. Heinrich. How many of them were successful fire breaks?
    Mr. Connelly. Some were, some weren't enough----
    Mr. Heinrich. Not a single road held. The only successful 
fire break in the summer of '88 to my knowledge was Yellowstone 
Lake. That was the one place where spotting didn't jump because 
it is a lot more than two miles wide.
    Mr. Connelly. The map you are looking at right in front of 
you is from the Fontenelle Fire, and the road that is right 
above the line right in there if you take a look at an aerial 
photograph on it and I would be more than willing to send you 
that, that stopped that fire. Cost my county $4 million.
    Mr. Heinrich. I will look forward to taking a look at that. 
I think I have a minute and 15 seconds left. I think the last 
thing I would like to address is the fact that Congressman 
Pearce brought up the idea that if you can't get an ATV into 
the back country you can't harvest an elk. Now I haven't 
actually seen a 1,500 pound elk. I would love to see a 1,500 
pound elk. This is more on the order of maybe 750 pounds that I 
harvested about as a crow flies maybe five miles from a road, 
it was a longer pack than that.
    The reason why I was able to harvest it on the first 
morning of hunting season was because it was a roadless area, 
and because of that habitat security that elk seem to move to 
where they don't have access via off-road vehicles, via four-
wheel-drives. I have hunted the Jemez extensively, I took an 
elk out of a roadless area last year. In other parts of the 
Jemez where the road density was dramatically higher you can't 
find an elk during hunting season because all of them move to 
the places where they have habitat security. So with that I 
will before I run out of time and break the Chairman's rules I 
will leave it back.
    Mr. Bishop. Thank you, Mr. Heinrich. You know, we talked 
about this before, you were able to do it because you were 
young and vigorous. Fat old people like me can't do that 
anymore here.
    Mr. Heinrich. I am going to reserve my right to dispute 
either part of that allegation.
    Mr. Bishop. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman. Congressman Heinrich, 
I want to bring you up to Colorado. We have elk standing in the 
middle of Highway 145, so come up there, we will get a little 
bit easier for you. Mr. Babbitt, Secretary Babbitt, thank you 
for taking the time to be here. And I did want to ask you a 
question. You claim that H.R. 1581 strips Congress of its right 
to make individual determination on wilderness areas. However, 
under a WSA lands are managed as defacto wilderness, which 
Congress did not authorize, even though it is being managed as 
defacto wilderness in many respects. So how does the managing 
of lands as wilderness without local consensus and the 
characteristics of Congressional wilderness actual designation 
give any greater deference to Congress and the constituents 
impacted?
    Mr. Babbitt. Mr. Congressman, the release of the lands from 
WSA as Mr. Abbey explained dumps that land back into other 
buckets of BLM management. Now there may be an entire spectrum 
of possibilities, but the one thing that does not automatically 
happen is the maintenance of that land as suitable for a 
wilderness designation by this Congress.
    Mr. Tipton. Now, Former Secretary of the Department of the 
Interior, as Mr. Abbey just made in his comments, you can 
assure us that that land still does have protection even 
without that WSA?
    Mr. Babbitt. No, I certainly can't assure you of that.
    Mr. Tipton. You can't assure us of that, there are no 
regulations under BLM?
    Mr. Babbitt. That is up to the land managers.
    Mr. Tipton. And those are regulations?
    Mr. Babbitt. Along with statutory direction.
    Mr. Tipton. And so there are regulations?
    Mr. Babbitt. Well, there are administrative rules and 
regulations spanning----
    Mr. Tipton. Which would require approval?
    Mr. Babbitt. By whom?
    Mr. Tipton. If an application is made to change the usage 
of that land, who makes the determination?
    Mr. Babbitt. Well, it falls back obviously into the 
resource management plan.
    Mr. Tipton. So there are regulations.
    Mr. Babbitt. Into the RMPs.
    Mr. Tipton. So the land is still protected?
    Mr. Babbitt. It depends on the administrative criteria that 
are being applied either under the resource management plan or 
generically across that landscape by the Bureau of Land 
Management.
    Mr. Tipton. Maybe you can----
    Mr. Babbitt. It will if it is released from the wilderness 
study area it will not have the protections afforded by the 
Wilderness Act for that land pending a determination by this 
Congress.
    Mr. Tipton. Great, let us follow that up. You know, I 
respect the BLM and our men and women in our Forest Service and 
the BLM, you know, for their efforts on our land. Maybe you can 
help me understand some of the challenge I think many of us 
wrestle with on this is when we are talking about lands by the 
BLM that are deemed not suitable, they have been deemed not 
suitable, what is the resistance to saying, we don't need to 
study this anymore?
    Mr. Babbitt. Well, as I believe Mr. Heinrich and perhaps 
Mr. Markey explained--I am sorry, would you ask me the question 
again?
    Mr. Tipton. You bet. When we are deeming, and this is per 
the BLM----
    Mr. Babbitt. What is the resistance?
    Mr. Tipton. Yes, what is the resistance to it? They have 
said it is not suitable.
    Mr. Babbitt. That is merely one administrator's decision in 
time. As they explained, this Congress has on multiple 
occasions overruled that determination because that is the 
function of the Wilderness Act and the power reserved to 
Congress. There are multiple occasions in which this body has 
said, notwithstanding that the Administration has said it is 
not suitable we the Congress determine that it is suitable and 
proceed to make a statutory wilderness area.
    Mr. Tipton. OK, and so you kind of followed this process. 
Many of us are not career politicians in Washington, and coming 
in, if some land is, is there any prohibition against any 
Member of Congress if they think that it needs to be designated 
introducing legislation to designate?
    Mr. Babbitt. There is already a statutory process for the 
Congress to do that.
    Mr. Tipton. Right. And so we have lands that for 30 years 
have been under study areas that have been deemed maybe by one, 
two, three, we don't know how many people that are on the 
ground looking at it as not suitable for wilderness and it 
hasn't been introduced, and so we may have a bit of an answer 
on some of that, don't you think?
    Mr. Babbitt. No, because the Wilderness Act provides the 
solution. It is for you and the Colorado delegation to get 
together, call folks together, and bring legislation to this 
Congress.
    Mr. Bishop. OK, thank you. Now I have questions for the 
first round but Mr. Grijalva has another appointment here. I am 
going to yield to him for his second round questions first. Mr. 
Grijalva?
    Mr. Grijalva. Yes, because, and Secretary Babbitt, because 
of the history discussion we have been having here, going back 
to the Magna Carta, the premise of this bill to me is that 
Congress should blindly follow agency recommendations made 
decades ago. I find that full of problems and problematic to 
begin with. But during these time periods where the wilderness 
suitability determination was made, and are they still relevant 
today, Mr. Babbitt? Haven't, I think, haven't public values and 
our knowledge of the lands themselves changed considerably and 
these recommendations since then could be dated and when they 
were established? So if that is the premise and we are looking 
now from a historical perspective and Congress's role in the 
determination, don't you feel that the information has changed 
in two decades, a decade?
    Mr. Babbitt. Mr. Grijalva, I think it is fair to say that 
when a wilderness study area went into effect that the 
decisions that were made about designation versus release would 
always have a shifting character as a function of the 
composition of the Congress, the desires of the local people, 
technological advances in the kinds of uses and impacts on the 
area, and that each Congress going forward would undoubtedly be 
looking at these issues in a shifting matrix of facts and 
events and the opinions of the elected officials.
    That is as true today as it was 30 years ago. But it 
doesn't for me alter the architecture of the Act, which says it 
is for Congress to make the decision. What Bob Abbey may have 
recommended 30 years ago or 10 years ago or yesterday is 
nothing more or less than advice for this Congress to take into 
consideration when it meets its statutory function of making 
the decision.
    Mr. Grijalva. Thank you, Mr. Secretary. I think the point 
is that we could resolve all these issues, Mr. Chairman, if 
Members of Congress would do their homework. You get the 
stakeholders in the room, you get out the maps, a Sharpie, and 
you go to work with the people that have an investment in a 
potential designation. And it is really hard work, having 
learned that painfully with the Tumacacori Highlands as we went 
through that process.
    And you start with the old agency recommendations, then the 
compromising process begins, then you have an understanding and 
you craft legislation, you bring it to your colleagues, and 
then you try to pass it. And I think across-the-board releases 
or designations is not the process and it is not the path to 
lasting success in these issues. With that let me yield back 
and thank you for your courtesy.
    Mr. Bishop. Thank you, Mr. Grijalva. Let me have a chance 
to ask a couple of questions. I have some questions for all of 
you and some things I would like to read at the same time. So 
let me start the first one and just ask all of you a yes or no 
question. It has been claimed that this bill is an extreme 
bill. I want your answer on if you think this bill is an 
extreme bill, just yes or no, starting with Mr. Kleen? No. Mr. 
Babbitt?
    Mr. Babbitt. In order to be consistent with my prior 
testimony my answer is yes.
    Mr. Bishop. I think that was accurate, yes. Mr. Noel?
    Mr. Noel. No.
    Mr. Bishop. Mr. Connelly?
    Mr. Connelly. No, Mr. Chairman.
    Mr. Bishop. All right, let me talk just simply about the 
reality that we have in the process that we are talking about 
here. It seems that what we do around this place is we say, OK, 
this is considered wilderness, we will designate it as such, 
that is the end of the discussion, it is over. Anything that is 
not considered wilderness we are going to do do-overs and 
reconsider and reconsider until we finally make it wilderness. 
At no time do we ever reverse that process.
    You are right in saying it is Congress's decision. This 
bill is Congress's decision. Now whatever standard we want to 
work with it, that is Congress's decision. We don't go 
backwards on wilderness area but we always go forwards in this 
process. The process in reality is screwed up, and that is why 
it is simply unacceptable. Let me ask some questions then I 
want to do some reading. Let me start with Mr. Kleen if I could 
and try and go down there as much as we can. Mr. Kleen, I would 
like you to give me some more personal examples, it is a 
wonderful story you have, of the difficulty you have or how it 
is that you are able to take veterans, however you are able to 
use different kinds of equipment as you go out in the efforts 
that you do on the lands that we have here.
    Mr. Kleen. Yes, sir. Again, most of the machines are very 
user friendly these days, and the adaptives of the hand control 
that I mentioned. There are lower-leg amputees, wounded 
veterans coming back, who can't operate a car or a side-by-side 
without the use of these hand controls. One thing that has 
really been rewarding as well is we have the issue that not all 
disabilities are visual where it is. Obviously, I am in a 
wheelchair. Some of these are called closed-head injuries, and 
they cannot operate a machine with hand controls or not. But 
those soldiers and those people with that type of disability 
can go out and recreate and ride as a passenger safely on these 
vehicles.
    Mr. Bishop. Thank you, I appreciate it. Commissioner 
Connelly, in your experience and especially dealing with the 
pine beetle, could you contrast what has happened in areas that 
are roadless areas versus those areas where mechanical vehicles 
have been able to go in and do treatment for the pine beetle 
and other insect manifestations?
    Mr. Connelly. It is very glaring. When I mentioned earlier 
about the map up there, where the mechanical treatment is being 
done, and the Fontenelle Fire was stopped in mechanical 
treatment on roads because that was where the Forest Service 
had the tools to fight with. The green new growth stopped the 
Fontenelle Fire. It is very glaring on a map. Management of the 
forest is essential in preventing forest fires. A healthy 
mosaic forest means everything to how it operates. It is no 
different than the lawn out here just outside. If you don't 
thatch it, it overgrows and it dies. The National Forest is no 
different. And if you treat it that way it will grow and 
prosper and do well.
    Mr. Bishop. Thank you. I am just going to have to do a 
second round as well. Mr. Noel, you got a minute and a half 
here to tell me how this land's designation impacts education 
funding in my state, because I am still on retirement from the 
system.
    Mr. Noel. Well, it impacts it because we have the state 
trust lands, Section 216-32 and 36, that are surrounded in many 
cases by these WSAs. We were supposed to be able to get revenue 
as a state from those lands. When you have a WSA in those 
areas, number one, many of them don't have access, number two, 
if you try to develop anything on the state trust lands or even 
private lands and you have to access those through a WSA the 
costs are greatly increased. You cannot go through a WSA, you 
can't put a pipeline in the ground that is substantially 
unnoticeable, you can't do anything in a WSA.
    So the normal land laws, the Title V FLPMA rights of ways 
that were given to us in FLPMA cannot be exercised on WSAs. So 
you have limited the ability of the State of Utah to get those 
monies that were given to the children of the State of Utah, 
and again on private property, you have limited the building on 
private property, where we get property taxes. You get zero 
property taxes from the Federal lands. And so they not only 
limited the property taxes on Federal land, they have 
eliminated it on trust lands and on private property because 
you can't get any rights of ways and access those lands.
    Mr. Bishop. So it doesn't come as a surprise to you that 
the 13 states that have the slowest growth in their education 
funding happen to be the 13 states that are public lands in the 
West?
    Mr. Connelly. Comes as no surprise to me. I said I manage 
the Kane County Water Conservancy District, we draw on about 20 
percent of the land in the county, we draw about a million 
dollars in tax revenue from property taxes, guess how much we 
get from the Federal Government. Zero. Yet 3 million tourists 
come through there that want water, want access, want phones, 
want motels. So we lose on that accord. And WSAs and special 
designations makes it even more difficult to fund education.
    Mr. Bishop. The ratio is actually two to one, 68 percent 
growth in the East, 39 percent growth in the West. We are on 
our second round. Mr. Garamendi.
    Mr. Garamendi. Thank you. My apologies for having to duck 
in and out, a lot of things going on. First, Secretary Babbitt, 
thank you for all that you have done over these many, many 
years to protect and preserve and make available to Americans 
in so many different ways their land. This is not the Federal 
Government land, this is the land that belongs to the American 
people. And we debate forever, I think going back to the very 
earliest days of the western portion of the United States, 
about how those lands should be used, so it is no surprise that 
we continue to debate it today. But, Secretary Babbitt, thank 
you for all that you have done.
    What I have found in a series of hearings that we have had 
on various bills is that problems that exist in one or another 
place in the United States have ballooned into legislation that 
affects all of the United States. Mr. Chairman, you had a bill 
that took 100 miles along the American border and basically 
opened, gave the Homeland Security Secretary power over a 100-
mile stretch of America along all of its borders when, in fact, 
there was a specific problem, I believe it was in Arizona, that 
needed to be addressed. And we have a similar situation here 
today in which we have problems in a given area, and we just 
discussed at length the Utah situation, that deserves the 
attention of the Congress and should be brought to the Congress 
in a specific bill dealing with that particular set of 
circumstances.
    Instead we have a bill before us that is all across America 
and takes all WSAs and all roadless areas and says, forget it, 
we are going to deal with them in one sweeping move, when in 
fact we have had legislation as recent as a year ago, a year 
and a half ago, that dealt with specific areas and made 
adjustments, in some cases WSAs becoming wilderness even though 
they were designated as non-wilderness, and in other cases 
being returned to multiple uses.
    That is what we ought to be doing here. And I think it is a 
very serious mistake to do a blanket approach across the entire 
nation. Mr. Babbitt, Secretary, if you would comment on that, I 
have noticed you nodding as this issue has come back and forth, 
if you could comment on a site specific or a region specific 
versus a blanket approach such as we have before us today?
    Mr. Babbitt. Well, Mr. Garamendi, I would like to do that 
by going back to the Utah example that was discussed. The 
creation of parks, monuments, and protected areas in Utah has 
resulted in a massive increase of the assets and funding 
available to the Utah School Trust. How did that happen? In 
1999 I sat down with Governor Levitt who was expressing concern 
about how Utah could develop its hundreds of thousands of 
inholdings of school trust land in parks, monuments, and 
protected areas.
    We sat down and worked out a land exchange in which Utah 
gave up these lands, landlocked, in the protected areas and got 
what? A cornucopia of coal reserves up in the Book Cliffs, 
which vastly increased the economic return and economic future 
to the Utah School Trust. A nice example initiated by a 
Governor of a deal which was worked out, put into legislation, 
and brought to this Congress for site specific passage. Now I 
believe that is the template for dealing with these issues.
    Another example is Commissioner Connelly who talks about 
the need for managing for fire health to get mosaic style 
forests. That is absolutely true. That is a excellent 
management objective. It is underway today because it was 
initiated in the Clinton Administration as forest health 
legislation, which was brought to this Congress in September of 
2000 to initiate the process of getting at thinning west wide 
to clear out overgrown forests including with mechanical means.
    So it is a fiction to say that there is anything in this 
bill that is going to have any useful effect on forest health 
and the real need to do forest thinning. It is the kinds of 
generalizations that sweep along on these bills. I would refer 
you back to the legislation of September of 2000, and if you 
are really interested in getting at the conceded fire problem 
in National Forests, to look at what is being done and to 
examine the levels of funding by this Congress and what are the 
main obstacles to the forward motion of those programs.
    Mr. Bishop. Thank you. Thank you for bringing up the Utah 
education system. I take it you will be my first cosponsor on 
the Utah Apple Act, which I am dropping in September. I 
appreciate your agreement to that, sir.
    Mr. Babbitt. I would be delighted to work with you.
    Mr. Bishop. No I am putting your name on already, we have 
gotten past that here. Where am I? Second round, Mr. 
McClintock.
    Mr. McClintock. Just a couple of points. We were talking 
about extreme policies, I wonder if I could ask do you believe 
it is an extreme policy to prevent the harvesting of fire 
killed timber after a forest fire?
    Mr. Babbitt. The issue of harvesting fire killed timber is 
complex. It needs to be made by land managers on a case-by-case 
basis. A lot of trouble with salvage in the Pacific Northwest 
because of the erosion problems that were created by getting in 
over those damaged landscapes. In other areas the fire damaged 
landscape tends to be, fires typically do not blacken 
landscapes uniformly. They have a kind of if you will a mosaic 
pattern to them that makes it very complicated and often quite 
destructive to get at the salvage logging. So the answer is, 
there isn't a single nationwide prescription.
    Mr. McClintock. Mr. Kleen, do you think that is an extreme 
policy, to prevent the salvaging of fire killed timber?
    Mr. Babbitt. There are circumstances----
    Mr. McClintock. Yes, no, Mr. Babbitt, I heard your answer. 
Mr. Kleen?
    Mr. Kleen. Please repeat the question?
    Mr. McClintock. Do you think it is an extreme policy to 
prevent the harvesting of fire killed timber, that is timber 
that is killed by a forest fire, after the fire goes through 
there and kills the timber? Do you think it is an extreme 
policy to prevent its salvage?
    Mr. Kleen. No, sir, I am no expert on fire forests, being 
from Iowa, but I do know that on the trails with the downed 
wood and the downed trees maintenance and management is a plus.
    Mr. McClintock. Mr. Noel?
    Mr. Noel. No, I have a background in biology and a master's 
in plant ecology, and I can tell you right now this is an 
extreme policy that the environmental community, which 
unfortunately the Babbitt Clinton Administration bought into on 
many of these issues, and it is absolutely insane that you 
can't go in and harvest dead burned trees and get them out of 
there.
    What happens after you harvest those trees in many cases 
are the timber companies go in and replant new trees in that 
area, as opposed to leaving them sitting there and rotting. If 
you talk about real and gully erosion and problems with 
erosion, that is where you are going to get it, in those fire 
areas. You look and see the mud slides we get in Utah after we 
have had a fire that goes down and destroys the watershed, 
destroys private property. The extreme position is not to 
harvest it, Mr. Congressman.
    Mr. McClintock. Mr. Connelly?
    Mr. Connelly. He is absolutely correct. The extreme version 
is not to harvest it. As the son of a 37-year retired Forest 
Service employee, they have plans that they can use to do it, 
they know how to do it. We should be letting them do it.
    Mr. McClintock. Governor Babbitt, I particularly want to 
thank you for your candor in this, I think that this pulls into 
very sharp focus the fact that I guess extremism is in the eye 
of the beholder. And I find it hard to understand a philosophy 
that views it extreme to open public lands to the public that 
have already been designated as not fit for designation as 
wilderness. That is an extreme policy, but the government 
preventing the harvesting of fire killed timber after a forest 
fire is in your view not an extreme policy.
    And I find that fascinating and I think it offers us very 
clear choice between two different approaches to these issues. 
I might also add, I know the Ranking Member has left, but he 
suggested that instead of this we ought to just pull together 
the stakeholders and come to an agreement. I was reminded of 
the Quincy Library Group in my district where almost 20 years 
ago they did exactly that, they pulled together all of the 
stakeholders. They met in the Quincy Library so that nobody 
could yell at each other. They ultimately came up with a pact 
to provide for the very limited harvesting of surplus timber in 
that region. Everyone agreed to it, great concessions were 
made, and Congress ratified it.
    It has never been implemented because of extremist 
environmental groups from San Francisco keep filing lawsuits to 
prevent its implementation. And the human result of that is we 
have had now three mill closures, Quincy, Sonora, and Camino in 
the last couple of years because these lawsuits have prevented 
the implementation of this pact that was agreed to by all the 
local stakeholders including all the local environmental 
organizations. 300 jobs at each one of those mills, 300 
families without work. That is extremism.
    Mr. Bishop. Mr. Tipton, do you have any questions on this 
round?
    Mr. Tipton. Thank you, Mr. Chairman, maybe just one more. 
Mr. Babbitt, one of your comments that you just made was that 
the single greatest obstacle for management is funding, a 
moment ago. I think I probably know your answer, but I do want 
to ask the question. Is it sensible for us given the economic 
circumstances that we are facing right now in the country, 
limited resources, to not take advantage of that opportunity 
for the wilderness areas that we have already designated to 
make sure that those are managed properly, to continue to 
expend resources on study areas as defacto wilderness? And this 
is with respect, and I do respect you, sir, to land that has 
been under study for over 30 years.
    And your commentary seemed to indicate that effectively 
once it is designated as a study area it is in perpetuity at 
that point, it can always change, but if we go back to the 
authoritative body of Congress there would be no problem if at 
some point in the future to take a look again. But in the mean 
time these areas have been studied, we need to be able to free 
up resources. Wouldn't it be a sensible thing right now to be 
able to preserve and protect some of those very significant 
areas that have already been designated, free up those 
resources, eliminate these WSAs, and use those resources now?
    Mr. Babbitt. Mr. Congressman, with all due respect, I don't 
agree. What I do agree with is that there have been plenty of 
studies in these wilderness study areas. The issue in my 
judgment is not expending money for studies. The issue is using 
the procedures that are already in law to move toward a locally 
state consensus driven piece of legislation in each state and 
area of concern. Now I understand that consensus may not always 
be possible. I think it is underrated.
    We used a consensus process in Arizona for 30 years and 
have largely resolved our wilderness issues. Now my suggestion 
for Colorado is, you are right, you don't need any more 
studies. What you need to do in Colorado is to take these 
wilderness study areas, get out to your constituents, and say, 
I am ready to draft release language. Let us have a Colorado-
based discussion, see how much consensus we can get, and then 
bring that bill back with the benefit of that process and make 
a decision.
    Mr. Bishop. Thank you. Mr. Babbitt, let me ask a few, I 
didn't leave you out the first time on purpose, I just had a 
few specifically for you this time around here. Let me ask 
first of all, because you mentioned the Arizona Wilderness Act 
of 1984 in which you had a part, do you consider that Act to be 
a success?
    Mr. Babbitt. Yes.
    Mr. Bishop. I am sorry?
    Mr. Babbitt. Yes.
    Mr. Bishop. OK, maybe you need to pull that.
    Mr. Babbitt. Yes.
    Mr. Bishop. Thank you then. There are some things also if I 
could just briefly. ``If Congress perceives that the national 
interest is at stake, it ought to identify that interest 
through legislation rather than leaving identification to 
agency administrators. For state natural resource managers they 
are weakened by the possibility of interpretation of the 
language of the statutes, administrative practices are marked 
by inconsistency in the degree of shared decision making.
    The lack of judicial recourse for states under most 
statutes leave the states at the mercy of the departmental 
administrators who have the authority to decide what proposal 
programs is or is not in the national interest. Experience with 
many projects indicates that BLM permitting decisions are often 
made independent of land use plans. Land use plans tend to 
merely catalog BLM decisions rather than to guide them. The 
states must be given more meaningful role in planning 
development on Federal lands within their borders. In fact, as 
a general rule, no use of public land should be permitted that 
is prohibited by state or local zoning.
    Mr. Babbitt, when you were Governor of Arizona those words 
were wonderful, and those words I wish were the exact concept 
that we should be using today. You also took me to task 
personally, by name, in a speech you gave at the press club 
here in which you criticized one of my proposed amendments. I 
just want you to know that even though you criticized that I am 
still giving you credit for its birth because indeed it was 
your idea when you were Governor of Arizona that two thirds of 
the state should be given the power to sunset or repeal Federal 
laws, it was one of your proposals.
    I put it into a constitutional amendment form instead of 
statute, but I thought it was a damn good idea you had when you 
were Governor and I still think it is a good idea whether you 
criticize me for that or not, it is still a darn, darn good 
idea. Can I ask you since you did go into, no, Mr. Noel first 
of all. You talked, Secretary Babbitt, Former Governor Babbitt 
talked about the deal that was made with the Department as well 
as Governor Leavitt. Washington County lands I know for a long 
time were held up, we never got title to those lands. Do we 
actually have title to those lands now?
    Mr. Noel. We don't. We have not. In fact, in the planning 
process, Congressman, what is happening now, those bureaucrats 
that are doing the bill are actually putting in, instead of 
putting in the wilderness areas and restricting development, 
they are putting in ACECs so that the Lake Powell Pipeline 
Project may be precluded because of the way they are writing 
the land use plan on this bill.
    Mr. Bishop. All right, 15 seconds. The Book Cliffs land had 
coal production. Was that ever put in production, does that 
compare to what was in Kaiparowits?
    Mr. Noel. No it doesn't at all.
    Mr. Bishop. All right, Mr. Babbitt, this is the problem, 
when you said you solved our education issues by that deal, 
that deal was never consummated, the land that was promised 
still has not been given to the state, the production 
opportunities still was not given to the states. Secretary 
Udall, one of your predecessors, once looked at the Kaiparowits 
and said, that is the future engine of the economics of this 
nation.
    The Grand Staircase-Escalante Monument done by use and I 
think misuse of the Antiquities Act took that economic engine 
of the United States away, out of production, and the school 
kids in Utah have never been able to reap the benefits of that 
nor have they been able to reap the benefits of the alleged 
exchange that was made between the United States government and 
the Secretary Leavitt, who had no idea this was happening until 
the morning of its announcement, despite what was told to him 
by both the Department of the Interior as well as the White 
House.
    Mr. Babbitt, there are three reasons on why an Antiquities 
Act can be used to create designation. One of them has to be an 
emergency situation for a specific reason, specific 
archeological or cultural reason and for the smallest footprint 
possible. Do you remember back to those halcyon days when you 
came up with this concept and used the Antiquities Act, what 
were those three reasons specific to Grand Staircase-Escalante? 
What was the emergency, what was the specific article that was 
to be preserved, and what was the smallest footprint possible 
to do that?
    Mr. Babbitt. Mr. Chairman, my memory after ten years is not 
perfect, but first of all with respect to the area to be 
preserved, Theodore Roosevelt took that on when he used the 
Antiquities Act to protect roughly a million acres in Grand 
Canyon. It was litigated and affirmed. There is no emergency 
provision to my knowledge in the Antiquities Act, that was not 
a consideration. With respect to the objects to be protected, 
again I would go back to what Theodore Roosevelt had to say 
about Grand Canyon, it is archeology, geology, biology, 
wildlife, scenic values, all of the values that prompted prior 
generations of Utah representatives to protect many of the 
areas that kind of went into the matrix in Bryce and the other 
monuments and parks right on the western boundary. Same 
considerations, it is a huge marvelous integrated landscape.
    Mr. Bishop. Mr. Babbitt----
    Mr. Babbitt. Let me say, Mr. Chairman, just one thing. I 
hear you about the Book Cliffs, and I must say I will leave 
this conference room even though I am now out to pasture with a 
real vivid commitment to try to understand and do what I can, 
because I think that was a part of a deal that I expected to be 
carried out when I made it with the Governor.
    Mr. Bishop. I thank you for that, and I do take you at the 
word, I believe you will actually do that. I also realize it is 
somewhat unfair to ask me to go back past two administrations 
and ask for the details. The problem I have with that is when 
Ms. McGinty was asked that a month after the fact she couldn't 
answer those three questions either. But please when we are 
talking about footprint, in the debate that passed the 
Antiquities Act in the first place the question was asked, 
would this be 100 acres?
    And they said, no it may be more, it may be 3 to 600 acres, 
that is what was envisioned. You created in this one monument 
alone, just this one, 1.9 million acres, you created a monument 
that was bigger than eastern states. You created a monument 
that was 60 percent the size of Connecticut, 50 percent the 
size of New Jersey. And neither you nor your solicitor at the 
time nor anyone else that was working, especially Ms. McGinty, 
can to this date tell me what it was you were trying to 
protect.
    That statute says there has to be something that is in harm 
otherwise it should not be used, and there has to be something 
specific. So I appreciate I think it is unfair to ask what the 
specifics were, I will accept your answer for that. But I want 
to say that we have never heard the specifics, and this is 
still a sore point. And I appreciate your willingness to go 
back and look at that because the so called deal was never 
consummated, it was never helped in any particular way. And I 
apologize for going over, which means I won't ask another 
question of this panel but I do appreciate you. Is there anyone 
that wants another round of questions? Mr. Garamendi. I have 
another bill that you can sponsor too depending on the answer 
on this one as well. Oh I don't, go ahead, you are recognized.
    Mr. Garamendi. Like I said, always willing to work with 
you, Mr. Chairman. I think the major point about this 
particular piece of legislation is that it is blanketing the 
entire nation and touches many different regions in a way that 
may be good, may be bad, we just don't know. And I would much 
prefer to see legislation come before us that is site specific 
or region specific. Obviously the Grand Staircase-Escalante has 
been controversial, I know it was when I was the deputy at the 
Department of the Interior working with Mr. Babbitt on it, and 
it remains so today listening to the Chairman of this 
Committee.
    If there are specific things that need to be done there, 
that should be brought to us in a piece of legislation and we 
should deal with it. And with regard to the way in which we 
manage the forests, there really is a funding problem. I am 
very familiar with the forests in the West, particularly in 
California, and there is a serious problem of funding the 
necessary studies to go forward to deal with the harvesting of 
burned timber as well as the harvesting of timber in any 
particular National Forest. The personnel is simply not there, 
and I would call to the attention of Mr. McClintock and others 
that are concerned about it as am I that if we want to move 
forward with harvesting burned timber we need to do it in a way 
that follows the law, and that requires personnel.
    And so efforts that have been made, and this is most 
recently in the bills that we have seen on the Floor in the 
last month and a half to two months, those pieces of 
legislation reduce the funding for the Forest Service, and 
hence we should not be surprised when forest harvest plans are 
not expeditiously handled. With that, a question to the 
Representative from Utah, Mr. Noel. You said in your testimony 
that one of the problems you have is trying to deal with the 3 
million visitors that come through your area. Are they just 
passing through or are they stopping or are they buying soda 
pop and wine and beer or whatever else?
    Mr. Noel. Most of them go to the Lake Powell area in 
Arizona. Unfortunately even though most of the lake is in Utah 
all the concessions are in Arizona so they get all the benefits 
of that. But they do come through and we do have tourism, there 
is no question about it, they do come through our area and we 
benefit from that. Again, those monies do not accrue to the 
school kids like property taxes would.
    Mr. Garamendi. Well, that would be an issue for you as a 
state representative to make a modification so that those might 
actually go to the school kids.
    Mr. Noel. Well, when you have two-thirds of your state, Mr. 
Congressman, in Federal land ownership, any of these 
designations has an impact, and we do a pretty good job in Utah 
to educate our kids and we do have a balanced budget.
    Mr. Garamendi. Well, I am pleased to see that that is the 
case, but the issue that you raised was the sales tax revenue 
not available for the school kids, and that is something you 
could deal with as a representative.
    Mr. Noel. It is available to the school kids but not like 
property taxes. It is a three-prong approach to how we educate 
our kids, and property taxes is a huge part of that, so we do 
need that.
    Mr. Garamendi. My point is that with the application of 
your----
    Mr. Bishop. Would the gentleman yield? Would the gentleman 
yield to that point?
    Mr. Garamendi. If I get an extra 30 seconds, of course. 
Shall we negotiate this?
    Mr. Bishop. Just keep talking, I won't gavel you down 
anyway. I think what Mr. Noel is trying to tell you very 
quickly is in Utah all income tax is dedicated for schools. 
Property tax the majority is dedicated for schools. Sales tax 
is not dedicated for schools, but the State Legislature when it 
fills the coffers uses sales tax money, so it does do that, 
they are using that approach to it.
    Mr. Garamendi. That is my point is that there are options 
available with regard and tourism is a very, very important 
part of it. One of the things that the Grand Staircase-
Escalante provides for the future is an extraordinary portion 
of American land, public lands, that are available forevermore 
in the future in their natural state. I understand that there 
are individual problems that were in the '90s when we were 
working with this that there are certain parcels of land that 
for one reason or another preclude development on adjacent 
land.
    Those need to be worked out in a specific piece of 
legislation that deals with the controversies and the 
opportunities that are present. Again, this particular piece of 
legislation is a blanket on and covers all of America where the 
roadless issues and where the wilderness study areas are 
existing. And my point is that it is much wiser for us to take 
these things in a reasonable arena rather than coming in and 
taking all of it in one fell swoop. And that is my last comment 
after four times around on it.
    Mr. Bishop. Thank you. You are penciled in there, it is 
there. Does anyone else, I know that was just the call for 
votes, does anyone else have a question for this round? If not, 
to the four of you once again we thank you very much for your 
attendance here, for your testimony, which will be in the 
record, and for your frank response to the questions that have 
been asked.
    Mr. Babbitt. Mr. Chairman and Committee members, thank you.
    Mr. Noel. Thank you, Mr. Chairman.
    Mr. Bishop. Let me invite the last panel up here, let me 
try and explain what is happening here. We have just been 
called for votes. We have three votes scheduled as well as an 
activity that I am estimating will take about a half hour, but 
this first vote will not be completed for another 15 minutes. 
So what I would like to do if possible if we can invite the 
next panel up and at least get two or three of the witnesses' 
testimony done and then ask you if it will be kind enough of 
you just to cool your heels and wait for us to come back after 
this series of votes. And I apologize for that situation, this 
is just the way it is.
    So, nothing personal, but I want you guys to go away. And 
we can invite, thank you, Mike, we can invite up to take seats 
at least for a while here Ms. Melissa Simpson from the Safari 
Club International, Mr. Chris Horgan, the Executive Director of 
the Stewards of the Sequoia, Mr. Dave Freeland, a retired 
District Ranger from Sequoia National Forest, Mr. Frank 
Hugelmeyer, I hope I pronounced that properly, the President 
and CEO of the Outdoor Industry Association.
    And if it is possible, you know the drill about the five-
minute rule and yellow light, the green light, and the red 
light and all that bit. We still have your written testimony, 
we would ask you if you would add your oral testimony for the 
record. We will go for at least a couple of witnesses, see how 
many we can get in here before we have to break for the votes, 
and then we apologize, it is a nice place in Washington to sit 
around for a half hour. All right, I am lying, but we will come 
back in about a half hour from that. So, Ms. Simpson, if I 
could ask you to start with your oral testimony I would 
appreciate it.

                 STATEMENT OF MELISSA SIMPSON, 
                   SAFARI CLUB INTERNATIONAL

    Ms. Simpson. Sure. Mr. Chairman and members of the 
Committee, thank you for the opportunity to be here before you 
today. It has been a very interesting afternoon and I am very 
happy to have an opportunity to speak with you. My name is 
Melissa Simpson, I serve as Director of Government Affairs for 
Safari Club International, SCI. I am pleased to be here to 
share with you the views of SCI and the mainstream hunting 
conservation community, the vast majority of which supports 
H.R. 1581, the Wilderness and Roadless Area Release Act of 
2011.
    SCI's missions are the conservation of wildlife, protection 
of hunting, and education of the public concerning hunting and 
its use as a conservation tool. SCI believes in the legacy of 
Teddy Roosevelt and his definition of conservation. President 
Roosevelt described conservation as meaning sound development 
as much as it means protection, and that natural resources must 
be used for the benefit of all people.
    SCI strives to uphold this legacy encouraging the 
sustainable use of our natural resources and the expansion of 
recreational opportunities on public lands where suitable. We 
strongly support H.R. 1581 because it would release lands 
identified by BLM and the Forest Service from the most 
restrictive of management policies and direct that these lands 
be managed for multiple use, including recreation.
    Mr. Chairman, one of the main concerns of the sportsman's 
community is that by managing public lands as wilderness the 
BLM and Forest Service are greatly reducing the ability of 
hunters to access this land. Detractors will argue that hunters 
can access these lands by foot. But hunters are understandably 
reluctant to hunt in areas where any harvested game cannot be 
readily accessed for transportation out of the field.
    From a larger perspective, members of this Committee 
understand that hunters and anglers contribute the majority of 
dollars spent on conservation through license fees and excise 
taxes. The hunting and fishing industry also supports local 
economies, helps fuel jobs, and creates economic growth in 
rural America. The most recent data available shows that 
hunting and fishing supports 1.6 million jobs across the 
nation, and these cherished pastimes directly contribute $76 
billion to the national economy.
    In addition to this direct impact hunting and fishing 
create an economic ripple effect of $192 billion per year. 
Hunters and anglers keep people working in gas stations, 
retail, restaurants, and hotels. By releasing the lands in H.R. 
1581 Congress would be increasing hunting and fishing access 
and increasing the economic benefit those outdoor sports 
provide to rural economies. Mr. Chairman, I would like to 
highlight the impacts that the restrictive management of 
wilderness has on disabled, elderly, and youth hunters.
    These hunters are faced with specific access issues that 
are illustrated in the BLM and Forest Service's own wilderness 
decision tool. This tool is used to guide agency decisions 
about the use of wilderness areas by persons with disabilities. 
The document is attached to my written testimony and contains 
case studies that exemplify how restrictions are being imposed. 
One of the case studies centers around a disabled hunting group 
requesting to use simple carts to help disabled hunters remove 
harvested game through hunting trips.
    The decision tool states that this request should be denied 
because a deer cart does not meet the definition of a 
wheelchair, nor is it a medically prescribed assistive device. 
Even worse, exceptions to allow wheelchairs may only apply to 
persons with approved disabilities and wheelchairs must be 
suitable for indoor use. It is not likely that a battery 
powered wheelchair is going to meet the challenges of back 
country terrain.
    The current agency policy for managing areas in H.R. 1851 
discriminates against hunters who are unable to maneuver 
through rough territory but may not be technically considered 
disabled. Releasing these lands to multiple use would remove 
onerous restrictions on land and allow disabled, elderly, and 
youth hunters access to all of the public lands. SCI members 
cherish our outdoor heritage. We have worked to bring back game 
populations from the brink during the 20th century, and we are 
proud stewards of the land.
    Today all we are asking for is the ability to reasonably 
access and enjoy our public lands. There are far better ways to 
conserve treasured hunting lands than to continue a one-size-
fits-all approach that has been rejected by land managers for 
decades. I thank this Subcommittee for addressing this 
important issue to the sportsman's community and to the health 
of the rural economies. We look forward to working with 
Congress, the agencies, and others to open these lands so they 
can be enjoyed by hunters and anglers. I would be happy to 
answer any questions.
    [The prepared statement of Ms. Simpson follows:]

 Statement of Melissa Simpson, Director of Government Affairs, Safari 
   Club International, on H.R. 1581 the Wilderness and Roadless Area 
                          Release Act of 2011

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. My name is Melissa Simpson. I 
serve as the Director of Government Affairs for Safari Club 
International (SCI). I am pleased to be here to share the views of 
Safari Club International, and the mainstream conservation community, 
the vast majority of which supports H.R. 1581, the Wilderness and 
Roadless Area Release Act of 2011.
    SCI's missions are the conservation of wildlife, protection of 
hunting, and education of the public concerning hunting and its use as 
a conservation tool. SCI believes in the legacy of Teddy Roosevelt and 
his definition of conservation. President Roosevelt described 
conservation as meaning ``sound development as much as it means 
protection'' and that ``natural resources must be used for the benefit 
of all people.'' SCI strives to uphold this legacy, encouraging the 
sustainable use of our natural resources and the expansion of 
recreational opportunities on public lands where suitable.
    For this reason we strongly support H.R. 1581. The legislation 
would release all Wilderness Study Areas (WSAs) and Inventoried 
Roadless Areas (IRAs) that have been evaluated and recommended as not 
suitable for a wilderness designation by the Bureau of Land Management 
(BLM) or the U.S. Forest Service. It will release these lands from the 
most restrictive management, and direct that these areas be managed for 
multiple-use, including recreation. Between the BLM and the Forest 
Service over 42 million acres would be opened, immediately resulting in 
increased access for hunting, fishing and outdoor recreation.
    It is important to emphasize that all of the lands affected by this 
legislation have been evaluated by the BLM and Forest Service and these 
agencies have determined that these lands are not suitable for 
wilderness designation by Congress. Therefore, these lands have been 
managed under the most restrictive management regime for decades even 
though the federal land managers disagree with the designation.
    Mr. Chairman, one of the main concerns of the sportsmen's community 
is that by requiring these lands to be managed as wilderness, the BLM 
and Forest Service are greatly reducing the ability of hunters to 
access this land. Hunting plays an unquestionably significant role in 
recreation, wildlife management and conservation throughout our public 
lands. Hunters developed and implemented the North American model of 
wildlife conservation, which has been central to the successful efforts 
to return wildlife to abundant populations in the United States.
    Detractors argue that hunters can access these lands by foot, but 
hunters are understandably reluctant to hunt in areas where any 
harvested game cannot be readily accessed for transportation out of the 
field.
    From a larger perspective, members of this committee understand 
that hunters and anglers also contribute the majority of dollars spent 
on conservation through license fees and excise taxes. The hunting 
industry also supports local economies, and fuels jobs and economic 
growth in rural America. The most recent data available shows that 
hunting and fishing support 1.6 million jobs across the America, and 
these cherished pastimes directly contribute 76 billion dollars to the 
economy.
    In addition to this direct impact, hunting and fishing create an 
economic ripple effect of $192 billion a year. Hunters and anglers keep 
people working in gas stations, retail, restaurants and hotels. By 
releasing these lands Congress would be increasing hunting and fishing 
access and increasing the economic benefit those outdoor sports provide 
to rural economies. http://www.sportsmenslink.org/sites/
sportsmenslink.org/files/Bright%20Stars%20of%20the%20Economy.pdf)
    Mr. Chairman, hunters and anglers are also concerned about the 
impact that the restrictive management of Wilderness Study Areas and 
Inventoried Roadless Areas has on disabled, elderly and youth hunters. 
These hunters are faced with two additional problems when attempting to 
access the type of lands that would be released by H.R. 1581.
    First, these hunters have a particularly difficult time getting to 
hunting destinations that are inaccessible due to being located in a 
Roadless Area. If indeed they are able to access a hunting area located 
within one of these areas, they have difficulty negotiating the often-
demanding terrain without assistance. And of course, they have an even 
larger problem in attempting to transport harvested game out of the 
field.
    As our population ages it is vital to continue to provide quality 
hunting opportunities to older and disabled hunters, and to promote 
youth hunting to grow the next generation of hunters. SCI believes that 
there are many less restrictive land designations that would be more 
appropriate for these lands that would allow for increased hunter 
access and other multiple use activities while protecting them from 
exploitation.
    A prime example of the application these unnecessary restrictions 
on disabled hunters can be found in the BLM and Forest Service's own 
Wilderness Access Decision Tool. This tool is to be used by federal 
land managers to make consistent decisions about the use of wilderness 
areas by persons with disabilities. This document, which is attached to 
my written testimony, contains case studies that exemplify how rules 
should be imposed. One of these case studies centered around a disabled 
hunting group requesting to use simple carts to help disabled hunters 
remove harvested game during hunting trips. The decision document 
states that this request should be denied as, ``a deer cart does not 
meet the definition of a wheelchair, nor is it a medically prescribed 
assistive device.'' (Wilderness Access Decision Tool at 21)
    Even worse, exceptions to allow wheel chairs only apply to persons 
with approved disabilities, and wheelchairs must be approved for indoor 
use. (Wilderness Access Decision Tool at 7) This discriminates against 
elderly or youth hunters who may have a hard time maneuvering through 
rough terrain but may not technically be considered disabled, thus 
ineligible for any consideration by land managers. There is no need for 
these absurd restrictions. Releasing these lands to multiple-use would 
remove these onerous restrictions on land use and allow disabled, 
elderly and youth hunters and anglers to enjoy all of our public lands.
    SCI members cherish our outdoor heritage. We have worked to bring 
back game populations from the brink during the 20th Century, and we 
are proud stewards of the land. Today, all we are asking for is the 
ability to reasonably access and enjoy our public lands. There are far 
better ways to preserved treasured hunting lands than to continue a 
one-size fits all approach that has been rejected by land managers for 
decades. Land managers can use travel management plans and other land 
designations that do not impose an undue burden on hunters and 
recreational interests. The time has come for Congress to act and 
release these areas that land managers have already designated as not 
suitable for wilderness.
    I thank the subcommittee for addressing an issue that is very 
important to the sportsmen's community and to the health of rural 
economies. We look forward to working with Congress and the agencies to 
release these lands so that they can be enjoyed by hunters, anglers and 
other multiple-use activities.
    I would be happy to answer any questions that the Committee might 
have.
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Horgan, if you would?

STATEMENT OF CHRIS HORGAN, EXECUTIVE DIRECTOR, STEWARDS OF THE 
                            SEQUOIA

    Mr. Horgan. Sure, Mr. Chairman. Dear Mr. Chairman and 
Committee members, thank you very much for this opportunity to 
appear before you.
    Mr. Bishop. Can you pull it right to your mouth so we can 
hear that?
    Mr. Horgan. My name is Chris Horgan. I am Executive 
Director of Stewards of the Sequoia. We are the largest on-the-
ground volunteer organization in the Sequoia National Forest. 
We have 2,400 members who care deeply about the lands in the 
Sequoia National Forest. Stewards of Sequoia is based out of 
Lake Isabella, California, with a population of about 16,000. 
Our award-winning Trail Appreciation Program has performed 
maintenance on over 1,900 miles of trail since 2004. We have 
formally adopted nine trails and have a stewardship agreement 
with the Forest Service.
    Stewards volunteers have also planted hundreds of trees in 
order to help speed reforestation after the devastating McNally 
150,000-acre wildfire. Stewards of the Sequoia mission is to 
promote responsible recreation and environmental stewardship. 
But those are not just words, we roll up our sleeves and put 
our time and sweat into the stewardship of the public lands we 
hold so dear. I am here today to talk to you about three 
things, the environment, the economy, and the public, and how 
they are affected by this bill.
    H.R. 1581, Wilderness and Roadless Release Act of 2011, 
fully embodies both recreation and stewardship, so this bill is 
something every reasonable person can heartily support by 
releasing lands which decades ago were determined by the Forest 
Service and the BLM to be unsuitable for wilderness 
designation. These lands have a rich history of ranching, 
mining, timber harvesting, and recreation. Even without the 
reports we can easily see they are unsuitable for wilderness, 
but look for yourselves. These pictures were all taken on the 
unsuitable lands proposed for release in the Sequoia National 
Forest.
    These lands contain cabins, roads, mines, cell towers, 
lookout towers, developed campgrounds, motorized trails, and 
even hazmat sites. There is no doubt these lands do not meet 
the Wilderness Act criteria of untouched by the hand of man. 
These unsuitable lands have languished in many case for over 20 
years awaiting release back to their intended uses. During that 
time, many of the uses on these lands have been restricted as 
if they had actually been designated wilderness but without 
Congressional approval or authority.
    This bill is about sharing the land and embracing the 
environment. Under the Wilderness and Roadless Release Act 
families would continue or again enjoy all forms of recreation 
on these lands including camping, mountain biking, hunting, 
dirt bike riding, 4-by-4, hiking, and fishing. These unsuitable 
lands could once again benefit from active management as needed 
to promote forest health and prevent wildfires.
    These unsuitable lands could once again provide renewable 
resources and minerals, reduce dependency on foreign sources. 
These unsuitable lands could once again generate revenue 
instead of being a cost burden as they are now. Releasing these 
unsuitable lands from further consideration for the wilderness 
designation would not release them from management. These lands 
and all activities on them would still have to meet the 
strictest regulations in the world for multiple use lands, such 
as riparian regulations, habitat regulations, density 
regulations, erosion regulations, botanical regulations, 
seasonal regulations, water quality regulations, air quality 
regulations, threatened species regulations, Endangered Species 
Act, National Environmental Policy Act, National Historic 
Preservation Act, and more.
    Wilderness is not the only form of land management. 
Multiple use lands allow recreation and renewable resource 
harvesting only if they at a minimum meet all these 
regulations. So you see there are more than enough adequate 
protections to ensure these unsuitable lands remain in 
excellent condition for future generations. With the passage of 
H.R. 1581 the U.S. Forest Service and the BLM would no longer 
have their hands tied and will be able to actively manage our 
public lands and promote forest health and reduce catastrophic 
wildfires.
    Should these unsuitable lands ever be designated as 
wilderness there would be few if any places left for people to 
enjoy most forms of recreation. There is little doubt the 
communities around Lake Isabella would dry up and there would 
no longer be enough population or business to support it. A 
good example of this was when the State of California recently 
restricted fishing on some segments of the Kern River for a 
period of about one year. As a result of this restriction on 
fishing, the local chamber of commerce stated that many 
businesses closed or came near to closing, and others 
complained of a drastic reduction in sales which, if continued, 
would have forced them to close also.
    There are probably wilderness advocates who will demand 
that these lands, which are clearly unsuitable for wilderness, 
continue to be studied, reviewed, and held in limbo until they 
can somehow find someone that is willing to ignore the facts 
and find them suitable. These public lands have languished in 
limbo for too long. I encourage this Congress to fulfill their 
promise and release these unsuitable lands. This bill is good 
for the environment, good for the economy, and good for the 
public. And I have here with me today over 3,000 letters that 
were submitted by the public in support of H.R. 1581, and these 
are just a small portion of the letters which have been 
submitted. I will give this to the Clerk. Thank you for your 
time.
    [The prepared statement of Mr. Horgan follows:]

            Statement of Chris Horgan, Executive Director, 
                 Stewards of the Sequoia, on H.R. 1581

    My name is Chris Horgan. I am the Executive Director of Stewards of 
the Sequoia, the largest on the ground volunteer organization in the 
Sequoia National Forest. We have over 2400 members who enjoy all forms 
of recreation. The Stewards of the Sequoia formed in 2004 and is based 
out of Lake Isabella, California with a population of about 16,000.
    Our award-winning Trail Appreciation program has performed 
maintenance on over 1900 miles of trails since 2004. We have formally 
adopted nine trails and have a stewardship agreement with the Forest 
Service. Steward's volunteers have also planted hundreds of trees in 
order to help speed reforestation after the devastating McNally 150,000 
acre wildfire.
    Stewards of the Sequoia mission is to Promote Responsible 
Recreation and Environmental Stewardship, but those are not just words, 
we roll up our sleeves and put our time and sweat into stewardship of 
the public lands we all hold so dear.
OVERVIEW
    All Wilderness Study Areas (WSA) and Roadless areas in Sequoia 
National Forest and adjacent BLM lands have been evaluated by the BLM 
and Forest Service and almost all were found to be unsuitable for 
Wilderness Designation back in 1988.
    Yet twenty two years later many of these lands continue to be 
subject to inappropriate management regulations as if they were 
Wilderness, because they have yet to be released.
    Active Fire Management is needed, but prohibited in these areas. 
Recreation and other land uses desired by the community and the public 
are needlessly restricted or prohibited, such as Mountain Bike, Off 
Road recreation and other uses.
    Our public lands were set aside in order to meet the need for 
future generations. Our rural communities depend not only on access to 
their public lands for all forms of recreation or multiple use, but 
also the income from tourists who come for the same reason.
    The long overdue Release of Wilderness Study Areas (WSA) and 
Roadless Areas is hampering land management and harming the environment 
in our Sequoia National Forest and surrounding BLM Lands, and likely in 
other areas of public lands. A significant amount of resources and 
funding are wasted each year in patrolling and monitoring these lands 
for Wilderness standards, even though they are not suitable for 
Wilderness.

BACKGROUND
        1.  All Roadless Areas are required to be evaluated and 
        considered for recommendation as potential Wilderness per 
        Section 219.17 of the 1982 CFR by the USDA Forest Service. 
        Likewise the BLM must evaluate and recommend all Wilderness 
        Study Areas that are suitable for Wilderness Designation under 
        Section 603 of FLPMA no later than fifteen years after the 1976 
        approval of the FLPMA.
        2.  Under FLPMA section 603 (b) the President has two years 
        after each Wilderness area report is provided to the Secretary 
        of the Interior to determine if an area is suitable for 
        Wilderness.
        3.  Both agencies must consider a number of criteria such as 
        Wilderness Value, Feasibility of Wilderness management and 
        anticipated long term changes in plant and wildlife communities 
        should the area be designated as Wilderness.

DETERMINATIONS
    Both the Forest Service and BLM have done the required 
comprehensive evaluations.
    As an example in the Lake Isabella area in California:
        1.  None of the Roadless Areas on the Sequoia National Forest 
        Service lands were found to be suitable for Wilderness 
        Designation as shown in the attached 2000 Inventoried Roadless 
        Area Map from the Sequoia Forest Service (Exhibit 1, 2 & 3)
        2.  Out of nine Wilderness Study Areas (WSA) near the community 
        of Lake Isabella, only part of one is suitable for continued 
        Wilderness Study. The rest were found not suitable for 
        Wilderness Designation. (Exhibit 4)
        3.  The BLM determined the entire 5,213 acres of WSA lands were 
        unsuitable for Wilderness (Exhibit 5) from the 1988 BLM Piute 
        Cypress (CA-010-046) WSA report. These lands need to be 
        released from further consideration as Wilderness and be 
        returned to Multiple Use lands.
        4.  The BLM found the following 4123 acres of WSA lands to be 
        unsuitable for Wilderness Designation. They need to be released 
        from further consideration as Wilderness and be designated as 
        Multiple Use lands:
                <bullet>  Owens Peak WSA (CA-010-026) 310 acres
                <bullet>  Piute Cypress WSA (CA-010-046) 3,453 acres
                <bullet>  Rockhouse WSA (CA-010-029) 130 acres
                <bullet>  Sacatur Meadows WSA (CA-010-027) 140 acres
    An example of the need to release these lands is the Piute Cypress 
tree, which requires fire to reproduce, but in a WSA active management 
is not allowed, so the fires will run rampant in the overgrown brush 
and likely harm the valued Piute Cypress.
    The Secretary of the Interior Record of Decision determined 4.8 
million acres in 147 BLM Wilderness Study Areas in the State of 
California should be released from further consideration as Wilderness 
and designated as Multiple Use lands (Exhibit 6).
    The BLM, Forest Service and Park Service currently manage over 109 
million acres of lands designated by Congress, so we have a very 
considerable amount of land already under Wilderness Designation. H.R. 
1581 does not seek to remove any of those lands from Wilderness 
Designation.
    H.R. 1581 would release non Wilderness lands that have been 
determined to be unsuitable for Wilderness from further consideration 
for Wilderness.

LACK OF SUITABILITY AS WILDERNESS
    The agencies have identified many reasons that these areas are 
unsuitable for Wilderness including but not limited to:
        1.  Lack of wilderness qualities
        2.  Military over flights
        3.  Existing Mining claims within the areas
        4.  Adjacent to existing communities
        5.  Difficulty in signing and patrolling
        6.  Difficulty in fencing
        7.  Existing historical motorized use
    The government made a promise to release lands found unsuitable for 
Wilderness consideration, however the release of these lands also makes 
sense when considers how it would benefit:
        <bullet>  The Environment
        <bullet>  The Economy
        <bullet>  And The Public
    H.R. 1581 Wilderness and Roadless Release Act of 2011 fully 
embodies both recreation and stewardship, so this bill is something 
every reasonable person can heartily support by releasing lands which 
decades ago were determined by the Forest Service and the BLM to be 
unsuitable for Wilderness designation.
        1.  These lands have a rich history of ranching, mining, timber 
        harvesting and recreation. Even without the reports we can 
        easily see they are unsuitable for Wilderness, but look for 
        yourself. These pictures were all taken on the unsuitable lands 
        proposed for release in the Sequoia National Forest. These 
        lands contain cabins, roads, mines, cell towers, lookout 
        towers, developed campgrounds, motorized trails and even hazmat 
        sites. There is no doubt these lands do not meet the Wilderness 
        Act criteria of untouched by the hand of man.
        2.  These unsuitable lands have languished in many cases for 
        over 20 years awaiting release back to their intended uses. 
        During that time, uses on many of these lands have been 
        restricted as if they actually had been designated Wilderness, 
        but without Congressional approval or authority.
        3.  Many of the trails on these unsuitable lands were built 
        with and are maintained by motorized recreation fee dollars 
        from the Recreation Trails Program, California Off Highway 
        Motor Vehicle Green Sticker Program or appropriated motorized 
        funds.
    This bill is about sharing the land and embracing the environment.
    Under the Wilderness and Roadless Release Act:
        1.  Families would continue or again enjoy all forms of 
        recreation on these lands including camping, mountain biking, 
        hunting, dirt bike riding, 4x4, hiking and fishing.
        2.  These unsuitable lands could once again benefit from active 
        management as needed to promote forest health and prevent 
        wildfires.
        3.  These unsuitable lands could once again provide renewable 
        resources and minerals to reduce our dependency on foreign 
        sources.
        4.  These unsuitable lands could once again generate revenue 
        instead of being a cost burden as they are now.
    Releasing these unsuitable lands from further consideration for 
Wilderness designation would not release them from management. These 
lands and all activities on them would still have to meet the strictest 
regulations in the world for multiple use lands such as:
         1.  Riparian regulations
         2.  Habitat regulations
         3.  Density regulations
         4.  Erosion regulations
         5.  Botanical regulations
         6.  Seasonal regulations
         7.  Water Quality regulations
         8.  Air Quality regulations
         9.  Threatened Species regulations
        10.  Endangered Species Act
        11.  National Environmental Policy Act
        12.  National Historic Preservation Act and more
    Wilderness is not the only form of land management. Multiple Use 
lands allow recreation and renewable resource harvesting only if they 
at a minimum meet all these regulations. So you see there are more than 
adequate protections to ensure these unsuitable lands remain in 
excellent condition for future generations.
    With the passage of H.R. 1581, the U.S. Forest Service and BLM will 
no longer have their hands tied and will be able to actively manage our 
public lands to promote forest health and reduce catastrophic 
wildfires.
    More and more agencies have recognized the need to actively manage 
our forests to reduce catastrophic wildfires which destroy 
irreplaceable forest lands. For example the Sierra Nevada Conservancy 
in cooperation with the Forest Service and Tahoe Conservancy developed 
a Climate Change Action Plan in 2009 to determine how best to address 
Climate Change which states:
        WILDFIRE: Reducing the risk of catastrophic fire is critical in 
        terms of maintaining carbon storage and reducing greenhouse gas 
        emissions from fires, not to mention protecting the natural 
        resources and human health, lives and property put at risk 
        during catastrophic fire episodes. Many forests are choked with 
        overstocked biomass ``fuels''--which contribute to conditions 
        that support large, fast-moving and high-intensity wildfires. 
        The urgency of this issue is no better demonstrated than 
        through the devastation of the 2009 Station Fire.

        According to Matthew Goldstein of Reuters News Service, 3 
        ''[t]he so-called Station Fire is the largest in the history of 
        Los Angeles County and one of the 10 biggest ever in 
        California. It has burned 157,220 acres (63,600 hectares)--an 
        area larger than the city of Chicago.'' Not only can this type 
        of fire destroy life, habitat and property, create air quality 
        health hazards and destroy carbon storage potential, it can 
        also weaken mature tree growth, and makes trees susceptible to 
        pests like the bark beetle. Fire risk reduction and maintaining 
        healthy resilient forests can include the controlled and 
        sustainable removal of dangerous and damaging levels of 
        biomass4. Managed properly this biomass has secondary benefits 
        as well, creating a tremendous opportunity for renewable energy 
        production, providing funding for sustainable forest management 
        and creating jobs in the Sierra's rural communities.

        The threat of loss of the resources of the Sierra, many of 
        which cannot be replaced, has devastating implications 
        throughout California and beyond. The potential for climate 
        change impacts to dramatically alter provision of these 
        services and continued existence of the habitat and species of 
        this area is high, and, as emerging research is demonstrating, 
        is increasing each year.

        Fire/Forest: Because climate change and its predicted 
        temperature increases throughout this century are expected to 
        increase the intensity and duration of uncontrolled, 
        catastrophic wildfires in the region, the SN CAP's first focus 
        is on reduction of dangerous levels of fire fuels through 
        application of sustainable land management practices. In a 
        related effort, this plan also supports development and 
        promotion of consensus community decision-making models to 
        promote collaborative planning and reduce traditional regional 
        conflict and resistance to changes in forestry land management 
        practices. (THE CLIMATE ACTION PLAN OF THE SIERRA NEVADA: A 
        Regional Approach to Address Climate Change Version 1.4 9/8/
        2009 www.sierranevada.ca.gov )
    It should be kept in mind that Wilderness lands or Wilderness Study 
Areas prohibit active management. H.R. 1581 would allow agencies to 
actively manage lands in order to address Climate Change to preserve 
irreplaceable forests and ecosystems.
    Should these unsuitable lands ever be designated as Wilderness 
there would be very few if any places left for people to enjoy most 
forms of recreation. There is little doubt the communities around Lake 
Isabella would dry up, as there would no longer be enough population or 
business to support it. A good example of this was when the state of 
California recently restricted fishing on some segments of the local 
Kern River for a period of about one year. As a result of this 
restriction on fishing, the local Chamber of Commerce stated that many 
businesses closed or came near to closing and others complained of a 
drastic reduction in sales, which if continued would have forced them 
to close also.
    Many people retire to rural areas such as Lake Isabella in order to 
be able to be near where they can easily enjoy all forms of recreation. 
Many depend on Off Road Vehicles to get to where they hunt or fish, 
because they are no longer able to walk in. Many people have vacation 
homes or live in the area in order to be able to enjoy Off Road 
Recreation, Mountain Biking and other types of recreation which are not 
allowed in Wilderness. One of the main reasons many people live in the 
area is to enjoy multiple use recreation.
    The attached short 5 minute video ``National Forests Our Trails Are 
In Trouble'' illustrates the need to release these unsuitable lands to 
disperse use and reduce impacts and why we need to keep our roads and 
trails open to everyone. You can also view it on the web at 
www.TrailsInTrouble.org
    The 2008 National Survey on Recreation and the Environment (NSRE -
Ken Cordell et al) states that:
        ``An estimated 94.5 percent of the population reported that 
        during the 12 months just prior to their interview for the NSRE 
        in 1994-95, they participated in one or more of the activities 
        included in the survey activity list.''
    This works out to over 189 million people each year enjoying 
outdoor recreation. Many if not most of the activities these people 
enjoy are prohibited in Wilderness areas. While hiking and bird 
watching are allowed in Wilderness, many people prefer to enjoy them on 
multiple use lands due to easier access. Many people lack the time or 
ability to hike the long distances required to fully access Wilderness 
lands. Multiple Use lands are where the majority of the public 
recreate.
    The public, including environmental groups and recreation groups, 
have worked with the Forest Service over the past five years to draft 
plans for most of the lands contained in this bill. All that work would 
be undermined and the public process ignored if these unsuitable lands 
are ever designated as Wilderness.
    There are probably Wilderness Advocates who will demand that these 
lands, which are clearly unsuitable for Wilderness, continue to be 
studied, reviewed and held in limbo until they can somehow find someone 
that is willing to ignore the facts and find them suitable.
    These public lands have languished in limbo for too long. This bill 
is good for the environment, good for the economy and good for the 
public.

[GRAPHIC] [TIFF OMITTED] T7649.001

[GRAPHIC] [TIFF OMITTED] T7649.002

[GRAPHIC] [TIFF OMITTED] T7649.003

[GRAPHIC] [TIFF OMITTED] T7649.004

    [NOTE: Exhibits 5 and 6 have been retained in the Committee's 
official files.]
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Freeland.

 STATEMENT OF DAVE FREELAND, DISTRICT RANGER, RETIRED, SEQUOIA 
                        NATIONAL FOREST

    Mr. Freeland. Thank you, Mr. Chairman.
    Mr. Bishop. Pull it right to your mouth please.
    Mr. Freeland. There we go.
    Mr. Bishop. Good.
    Mr. Freeland. Thank you. I support H.R. 1581. I retired 
from the United States Forest Service in 2006 after 
successfully completing 34 years of public service. During my 
time with the Forest Service, I served in a variety of 
professional and administrative positions, including Acting 
Deputy Forest Supervisor and a District Ranger for 15 years. I 
am a professional forester and have been a member of the 
Society of American Foresters for approximately 35 years.
    While with the Forest Service, I participated on the 
command staff of several national interagency incident 
management teams that respond to significant natural and human-
caused disasters, including catastrophic wildfire. I have 
personally worked on these dangerous fire lines and have 
mourned the deaths of fellow firefighters. During my career, I 
have witnessed substantial acreage of National Forest System 
lands reallocated from a multiple use category into more 
restrictive designations termed specially designated areas.
    Since the time of the Wilderness Act, the Wild and Scenic 
River Act, the Forest Service Roadless Area Conservation Final 
Rule, and the state petitions for Inventoried Roadless Area 
Management Final Rule, over 95 million acres, or over 50 
percent of the 193 million acre National Forest and Grassland 
System is in wilderness, Wild and Scenic Rivers, and 
inventoried roadless areas. On the Sequoia National Forest 
where I retired, only 22 percent of this 1.1 million acre 
forest currently remains in multiple use.
    As one of those district rangers who had their hands tied 
and as a former local Federal land manager, this conspicuous 
imbalance concerns me for the following reasons. One, most 
recreation visitor use occurs on multiple use designated lands. 
With an ever increasing population of visitors being confined 
to a shrinking multiple use land base adverse consequences 
occur such as unattended resource damage, increased conflicts 
between visitors, and additional law enforcement problems.
    Two, specially designated areas can significantly diminish 
the enjoyment of public lands by limiting and/or prohibiting 
the responsible use of motorized and mechanized equipment such 
as off-road vehicles and mountain bikes. Three, individuals 
with physical disabilities and older Americans have difficulty 
or are completely denied access to a large portion of their 
public lands due to the lack of roaded access. This adverse 
situation will only intensify as millions of baby boomers will 
be retiring over the next couple decades.
    Four, specially designated areas do limit Federal land 
management agencies from adequately treating vast acreages of 
land that are overstocked with trees and other vegetation, 
which contribute to the risk of catastrophic attack by insects, 
disease, and wildfire. Americans lose the benefit of byproducts 
produced from these silvicultural treatments in the form of 
thin trees that contribute to the nation's need for wood fiber 
such as dimensional lumber, wood chips, and other wood 
products. Healthy forests and wood fiber are of critical 
importance to our nation's economy and livelihood.
    In conclusion Congress and the U.S. Forest Service made a 
commitment to the American people that when the roadless area 
review was accomplished those lands not suitable for 
additionally Congressionally designated wilderness would revert 
back to multiple use. Congress and the U.S. Forest Service need 
to meet their commitments. The U.S. Forest Service is equipped 
to manage and conserve multiple use lands in perpetuity as 
guided by the National Environment Policy Act of '69 and by 
each forest, land, and resource management plan and 
accompanying environmental impact statement as required by the 
Forest and Range Land Renewable Resources Planning Act of 1974 
as amended.
    H.R. 1581 is a well thought out piece of legislation 
because it helps get the agencies out of their current analysis 
paralysis, which they are often in, and because it supports 
moving those lands into the nation's wilderness preservation 
system that truly have special characteristics while releasing 
back into multiple use those lands that have no special 
attributes deserving of wilderness classification. Multiple use 
lands provide more Americans with the widest variety of 
resource and social benefits. Multiple use lands best exemplify 
the Forest Service's time tested principle of the greatest good 
for the greatest number of people in the long run. Thank you.
    [The prepared statement of Mr. Freeland follows:]

        Statement of Dave Freeland, District Ranger (Retired), 
                        Sequoia National Forest

    My name is Dave Freeland and I support H.R. 1581--The ``Wilderness 
and Roadless Area Release Act of 2011.''
    I retired from the USDA Forest Service in 2006, after successfully 
completing 34 years of public service. During my time with the U.S. 
Forest Service, I served on three national forests and seven ranger 
districts within California, in a variety of professional and 
administrative positions, including District Ranger and Acting Deputy 
Forest Supervisor. I'm a professional Forester and have been a member 
of the Society of American Foresters for approximately 35 years.
    Additionally, I participated on the command staff of several 
National Interagency Incident Management Teams. These teams respond to 
significant natural and human-caused disasters, including catastrophic 
wildfires.
    I currently work as a part-time private consultant for the County 
of Kern assisting the County with complex and sometimes controversial 
land management issues.
    During my career, I have witnessed substantial acreage of National 
Forest system lands reallocated from a multiple-use category into more 
restrictive designations termed ``Specially Designated Areas.''
    Since the time of the Wilderness Act of 1964, the Wild & Scenic 
Rivers Act of 1968, the Forest Service Roadless Area Conservation Final 
Rule of 2001, and the State Petitions for Inventoried Roadless Area 
Management Final Rule of 2005, approximately 166 million acres or 86% 
of the 192 million acre National Forest and Grassland system is in 
wilderness, wild & scenic rivers and inventoried roadless areas. On the 
Sequoia National Forest where I retired, only 22% of this 1.1 million 
acre forest currently remains in multiple-use.
    As a former federal land manager, this conspicuous imbalance 
concerns me for the following reasons.
        1)  Most recreation visitor use occurs on multiple-use 
        designated lands. With an ever increasing population of 
        visitors being confined to a shrinking multiple-use land base, 
        adverse consequences occur such as unintended resource damage, 
        increased conflicts between visitors and additional law 
        enforcement problems.
        2)  Specially designated areas can significantly diminish the 
        enjoyment of public lands by limiting and/or prohibiting the 
        responsible use of motorized and mechanized equipment such as 
        off-highway vehicles, mountain bikes and mechanized deer 
        carriers.
        3)  Individuals with physical disabilities and older Americans 
        have difficulty or are completely denied access to a large 
        portion of their public lands due to the lack of roaded access. 
        This adverse situation will only intensify as millions of 
        ``Baby Boomers'' will be retiring over the next couple of 
        decades.
        4)  Specially designated areas can limit federal land 
        management agencies from adequately treating vast acreages of 
        land that are over stocked with trees and other vegetation 
        which contribute to the risk of catastrophic attack by insects, 
        disease and wildfire. Americans lose the benefit of by-products 
        produced from these silviculture treatments in the form of 
        thinned trees that contribute to our nation's need for wood 
        fiber such as dimensional lumber, wood chips and other wood 
        products. Wood fiber is of critical importance to our nation's 
        economy and livelihood.
    In summary, Congress and the U.S. Forest Service made a commitment 
to the American people that when the roadless area review was 
accomplished; those lands not suitable for additional congressionally 
designated wilderness would revert back to multiple-use. Congress and 
the U.S. Forest Service need to meet their commitments.
    The U.S. Forest Service is equipped to manage and conserve 
multiple-use lands in perpetuity, as guided by the National 
Environmental Policy Act of 1969, and by each Forest's Land and 
Resource Management Plan and accompanying Environmental Impact 
Statement, as required by the Forest and Rangeland Renewable Resources 
Planning Act of 1974, as amended.
    H.R. 1581 is a well thought out piece of legislation because it 
supports moving those areas into the nation's wilderness preservation 
system that truly have special characteristics while releasing back 
into multiple-use those lands that have no special attributes deserving 
of wilderness classification.
    Multiple-use lands provide more Americans with the widest variety 
of resource and social benefits. Multiple-use lands best exemplify the 
Forest Service's time tested principal of ``The greatest good, for the 
greatest number of people, in the long-run.''
                                 ______
                                 
    Mr. Bishop. Thank you. Mr. Hugelmeyer.

   STATEMENT OF FRANK HUGELMEYER, PRESIDENT AND CEO, OUTDOOR 
                      INDUSTRY ASSOCIATION

    Mr. Hugelmeyer. Thank you, Mr. Chairman and members of the 
Committee, for inviting me to testify. My name is Frank 
Hugelmeyer. As President and CEO of Outdoor Industry 
Association, title sponsor of the world's largest outdoor 
products trade show which serves 4,000 manufacturers and 
retailers in the outdoor recreation industry, there are three 
thoughts I want to discuss.
    One, as Congress struggles with budgets, declining 
revenues, and economic recovery, I urge you to support a 
balanced economic approach. The outdoor industry is a large and 
diverse sector that creates jobs and bolsters tax revenues at 
all levels. In the U.S. the industry has an annual $730 billion 
economic impact, employs 6.5 million Americans, and contributes 
$88 billion in state and national tax revenues, enough to fund 
the entire Department of the Interior for several years.
    Two, the outdoor recreation industry is growing, and vital 
to every community urban and rural. At nearly $300 billion in 
annual retail sales and services our industry prospered during 
and after the recession when others have not, and is leading 
America's recovery. In 2010 our world class specialty outdoor 
industry grew by 6 percent, boosting jobs and tax revenues from 
Washington, D.C., to Coeur D'Alene.
    Three, I ask you to approach H.R. 1581 as a responsible 
CEO. It is bad business to make a sweeping decision based on 
30-year-old data. Unfortunately, this bill does just that. It 
releases all wilderness study areas and roadless areas without 
understanding the true consequences for communities and the 
industry. Our nation's protected lands and waters attract 
millions of tourists, recreationists, and sportsmen, of which I 
am one. They support sustainable and dependable economies in 
rural and gateway communities, balancing the negative effects 
of boom and bust industry so common on 75 percent of the 
Federal estate.
    Back in the 1950s policy makers viewed oil, gas, and timber 
as the only economically productive use of our lands. This old 
world view no longer holds true and dates back before the 
innovative outdoor industry broadly existed. Today protective 
lands support an entrepreneur-led and dynamic economic engine 
that must be given equal consideration to extractive 
industries. America's healthiest local economies now offer a 
balanced mix of extractive, agricultural, recreation, tourism, 
and other jobs.
    Like a good retailer provides a wide array of products, the 
Federal estate must also continue to offer the full spectrum of 
recreational zones, from multi-use high access trails to 
roadless and wilderness areas. Preserving a diverse public 
infrastructure enables the American public to choose from and 
outdoor businesses to provide the widest selection of 
experiences and adventures. The new value proposition of our 
nation's public lands requires a 21st-century approach that 
prioritizes protections where the recreational value is high, 
and I will repeat that. To prioritize protections where 
recreational value is high.
    So what is our recommendation? In 2001 the American people 
voted overwhelmingly for the protection and enjoyment of 
roadless areas. The Roadless Rule was founded after careful 
inventories, agency planning, and nearly 600 public hearings. 
The sheer volume of public comment makes it the most vetted and 
supported USDA rulemaking ever. The American people have spoken 
and we urge you to stand by this decision.
    While wilderness study areas have been in limbo, it is not 
in the nation's best interest to make a single sweeping 
decision. Outdoor businesses support efforts to move forward on 
wilderness review and designation and recognize the value of 
collaborative resource management plans. Following this 
approach will ensure that significant recreation areas are not 
lost. However, until progress is made on this front protections 
for these wilderness study areas must remain in place.
    At the heart of this matter are the hundreds of millions of 
Americans who spend time in the outdoors hiking, biking, 
camping, paddling, hunting, fishing, or wildlife viewing. Our 
nation is blessed to have these lands and activities, and it is 
part of the core American experience to enjoy them. In 
conclusion the outdoor industry will work hard to serve the 
Nation in these challenging times by trying to maintain our 
current growth trajectory. We only ask that you do not pass 
harmful legislation like H.R. 1581 which puts thousands of 
outdoor businesses on the defensive and in the position of 
having to defend the very infrastructure upon which their 
economy and customers depend. Thank you for your time and 
attention.
    [The prepared statement of Mr. Hugelmeyer follows:]

 Statement of Frank Hugelmeyer, President and Chief Executive Officer, 
                      Outdoor Industry Association

    Mr. Chairman and members of the committee, thank you for inviting 
me to testify.
    As president and CEO of Outdoor Industry Association, title sponsor 
of the world's largest outdoor products tradeshow, which serves 4,000 
manufacturers and retailers in the active outdoor recreation industry, 
there are three thoughts I want to discuss:
        1)  As Congress struggles with budgets, declining revenues and 
        economic recovery, I urge you to support a balanced economic 
        approach. The outdoor industry is a large and diverse sector 
        that creates jobs and bolsters tax revenues at all levels. In 
        the U.S., the industry has an annual $730 billion economic 
        impact, employs 6.5 million Americans and contributes $88 
        billion in state and national tax revenue, enough to fund the 
        entire Department of Interior budget for several years.
        2)  Outdoor recreation is growing and vital to every 
        community--urban and rural. At nearly $300 billion in annual 
        retail sales and services, our industry prospered during and 
        after the recession, when others have not, and is leading 
        America's recovery. In 2010, our world-class specialty outdoor 
        industry grew by 6%, boosting jobs and tax revenues from 
        Washington D.C. to Coeur d'Alene.
        3)  I ask you to approach H.R. 1581 as a responsible CEO. It is 
        bad business to make a sweeping decision based on 30-year-old 
        data. Unfortunately, this bill does just that--it releases all 
        Wilderness Study Areas and Roadless Areas without understanding 
        the true consequences for communities and the industry.
    Our nation's protected lands and waters attract millions of 
tourists, recreationists and sportsmen. They support sustainable and 
dependable economies in rural and gateway communities, balancing the 
negative effects of boom and bust industries so common on 75% of the 
federal estate.
    Back in the 1950s, policy makers viewed oil, gas and timber as the 
only economically-productive use of our lands. This old world view no 
longer holds true and dates back before the innovative outdoor industry 
broadly existed. Today, protected lands support an entrepreneur-led and 
dynamic economic engine that must be given equal consideration to the 
extractive industries. America's healthiest local economies now offer a 
balanced mix of extractive, agricultural, recreation, tourism and other 
jobs.
    Like a good retailer provides a wide array of products, the federal 
estate must also continue to offer the full spectrum of recreational 
zones, from multi-use high access trails to roadless and wilderness 
areas. Preserving a diverse public infrastructure enables the American 
public to choose from, and outdoor businesses to provide, the widest 
selection of experiences and adventures.
    The new value proposition of our nation's public lands requires a 
21st century approach that prioritizes protections where the 
recreational value is high. So what is our recommendation?
        <bullet>  In 2001, the American people voted overwhelmingly for 
        the protection and enjoyment of Roadless Areas. The Roadless 
        Rule was founded after careful inventories, agency planning and 
        nearly 600 public hearings. The sheer volume of public comment 
        makes it the most vetted--and supported--USDA rulemaking ever. 
        The American people have spoken, and we urge you to stand by 
        this decision.
        <bullet>  While Wilderness Study Areas have been in limbo, it 
        is not in the nation's best interest to make a single sweeping 
        decision. Outdoor businesses support efforts to move forward on 
        wilderness review and designation, and recognize the value of 
        collaborative resource management plans. Following this 
        approach will ensure that significant recreation areas are not 
        lost. However, until progress is made on this front, 
        protections for these Wilderness Study Areas must remain in 
        place.
    At the heart of this matter are the hundreds of millions of 
Americans who spend time in the outdoors hiking, biking, camping, 
paddling, hunting, fishing, or wildlife viewing. Our nation is blessed 
to have these lands and activities, and it is part of the core American 
experience to enjoy them.
    In conclusion, the outdoor industry will work hard to serve the 
nation in these challenging times by maintaining our current growth 
trajectory. We only ask that you do not pass harmful legislation like 
H.R. 1581 which puts thousands of outdoor businesses on the defensive 
and in the position of having to defend the very infrastructure upon 
which their economy and customers depend.
    Thank you for your time and attention today.
                                 ______
                                 
    Mr. Bishop. I thank the four of you for the testimony so 
your oral testimony will be added to the record as well. I hate 
to do this to you but we are going to suspend for I am going to 
estimate about 20 minutes, 15 to 20 minutes. They are still on 
I think the first vote. They have just started the second vote, 
there are still two more votes plus an activity that is up 
there. So let us, if I could have you reconvene say around 15 
minutes, 20 minutes roughly, give or take. And my goal is to 
try and finish the questioning so that you can go, but I 
appreciate once again your testimonies, I appreciate you 
sticking around this long with us and I appreciate your coming 
here as well as bringing everything that you brought with you. 
So we are in recess roughly 15 to 20 minutes.
    [Recess.]
    Mr. Bishop. We will call this, whatever we are, 
Subcommittee hearing back to order. We once again thank you for 
your patience in waiting for us. We have a few questions still 
to go through for this panel as well. We will, and obviously we 
are somewhat flexible on the time here but we do still want to 
get out at a reasonable manner. I will turn to the Ranking 
Member, Mr. Grijalva, if he has a few questions.
    Mr. Grijalva. Yes, thank you. Ms. Simpson, if I may, do you 
know how many miles of roads already exist in the National 
Forests? How many miles of user created roads and trails exist, 
is there a number you can share with the Committee?
    Ms. Simpson. I don't have a current number on that, we can 
get back to you. Under Secretary Sherman may have, Harris 
Sherman may have put that out there earlier.
    Mr. Grijalva. Mr. Horgan, and I think in your testimony you 
state that the problem is that these areas are already being 
managed as wilderness and that it is hurting your community, 
but at the same time in the testimony you talk about many 
people retire in rural areas such as Lake Isabella in order to 
be able to be near where they can easily enjoy all forms of 
recreation. If these areas are harmful, why would anybody be 
wanting to retire in the community? And if they are popular and 
very rural and the alternative being talked about is they are 
opened up to oil, gas, and timber development, doesn't that 
contradict the purpose and the rationale for people coming 
there? It is just a question, I was confused, I thought there 
was a contradiction in those statements.
    Mr. Horgan. People come to rural areas as I mentioned in my 
testimony to enjoy all forms of recreation. Public lands have 
many different activities on them. One of them may be timber 
management, not necessarily, and that would have to be done 
under the strictest regulations in the world. So there is a way 
of having recreation and timber management work together. Not 
all the forests are clear cut, as a matter of fact most 
management programs don't allow any clear cutting so the timber 
management would just be a matter of thinning, which makes the 
area more healthy.
    It also is usually more aesthetic to the eye, a forest that 
is heavily overgrown you can't hike through. We have to do 
maintenance on the trails and I can tell you over this past 
spring there were over 130 trees per mile down on the trail and 
we have to clear those off the trail. A forest that is 
healthier requires less maintenance and management. But the 
people come there to enjoy.
    Mr. Grijalva. OK, so in your mind there is no contradiction 
with the harmful effect on your community that you mentioned in 
your testimony and the fact that people will come to this rural 
setting in order for them to be able to recreate in the areas 
that you had stated because of the management of them was 
harmful, there is no contradiction there?
    Mr. Horgan. Well, I am not in agreement about the harm. I 
think the management promotes forest health, and we have seen 
both recreation and active management of the forest work well 
together and the people have come there for the forest that is 
actively managed and healthy.
    Mr. Grijalva. OK, thank you, appreciate it.
    Mr. Horgan. You are welcome.
    Mr. Grijalva. Mr. Hugelmeyer, you have a number of 
companies who sell products to hunters and anglers, is that 
correct?
    Mr. Hugelmeyer. Yes.
    Mr. Grijalva. And you feel that those customers are well 
served by having wilderness areas available for hunting and 
fishing?
    Mr. Hugelmeyer. Yes, absolutely, yes.
    Mr. Grijalva. One of the things, one of the remarks about 
wilderness areas or WSAs is that it is wasted space. Is 
development in the sense that that has to be the highest and 
the best use for all Federal land?
    Mr. Hugelmeyer. Well, our opinion in the industry is that 
you have to provide a full spectrum of opportunities. You need 
to be able to provide a menu of recreation options. And 
roadless and wilderness areas provide what we consider the most 
pristine and quiet type of recreation, and not all uses and 
activities should be within the wilderness zone. This has been 
something that Americans have been exploring, the natural 
wilderness, since the beginning of the founding of the country. 
It is as old as Lewis and Clark's exploration, and we still 
have that same spirit as Americans.
    In fact we are seeing a lot of companies right now creating 
particularly around the adaptive sports areas and disabilities 
where they are taking veterans and folks with disabilities into 
wilderness areas as part of recreational therapy. There is even 
an adaptive sports industry growing out of this where they are 
creating tools to row, to climb, hike, bike, paddle, and we are 
seeing nonprofits start up around these active areas as well.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    Mr. Bishop. Thank you. Let me ask a couple questions if I 
could. May I start with Ms. Simpson. I understand you are here 
today representing the Safari Club. Are you aware of other 
hunting groups that support this particular piece of 
legislation?
    Ms. Simpson. Yes, Mr. Chairman. In fact, I have a letter 
from, including Safari Club, nine other hunting organizations 
representing over 5 million hunters across the Nation that have 
written to the Committee in support of the bill based on the 
very issues that I raised in my testimony.
    Mr. Bishop. All right, and you will submit those to us as 
well?
    Ms. Simpson. Yes I will.
    Mr. Bishop. As a sportsmen organization, I am assuming that 
the Safari Club works closely with state game and fish 
agencies. If so, do you know the positions on wilderness policy 
and other wilderness characteristics of these groups?
    Ms. Simpson. We work very closely with individual state 
game and fish management agencies as well as with the 
Association of Fish and Wildlife Agencies here in D.C. Not to 
speak on their behalf, but I do know that they have a letter 
that has gone to BLM Director Abbey raising concerns regarding 
wilderness study areas and wilderness characteristics being 
allocated to public lands. Because of issues with the state 
game and fish having inconsistent direction from how the 
Federal agencies are managing those properties, it causes 
problems for the game and fish agencies to manage the wildlife, 
and we of course being a hunting organization are concerned 
about game.
    Mr. Bishop. So in your opinion is it more cost effective to 
manage areas identified in this bill, H.R. 1581, for multiple 
use or the current status quo?
    Ms. Simpson. Oh definitely more cost effective to manage 
for multiple use.
    Mr. Bishop. Do you feel that one offers better conservation 
than the other?
    Ms. Simpson. I think getting back to our site specific 
discussions that have been raised earlier that would depend. 
Our support for this bill is based in part on the fact that 
these lands would go back into multiple use consideration and 
be part of the land management planning, so that would be up to 
the public and the land managers on individual parcels.
    Mr. Bishop. OK, thank you. Mr. Horgan, if I can ask you a 
couple of questions. The 2001 Roadless Rule has been called the 
most vetted and supported in USDA rulemaking history. Is that 
actually factually correct or would you have a different 
perspective on that?
    Mr. Horgan. Well, in my experience, I understand that it 
has been litigated by a number of states, so I think being most 
vetted would be inaccurate, or supported. As well, I did some 
research and found that over 88 percent of the agencies who 
submitted comments were opposed to the Roadless Rule. There 
were also some comments made that it was illegal. So I would 
disagree that it is the most vetted and supported.
    Mr. Bishop. OK. Mr. Hugelmeyer, when you state that our 
nation's protected lands and waters attract millions of 
tourists and recreationists, sportsmen, are you referring to 
wilderness lands or National Forest lands or other types of 
lands?
    Mr. Hugelmeyer. It is all interconnected, it is one part of 
a large connected infrastructure on which we depend. So from 
our perspective, Mr. Chairman, we need to make sure that the 
areas that are most recreationally significant have some sort 
of protection so that we can make sure that our activities that 
our customers depend on and that our businesses depend on are 
able to be supported on those public lands.
    Mr. Bishop. So you need more than just wilderness lands to 
protect your business?
    Mr. Hugelmeyer. We need the full spectrum of recreational 
zones, yes.
    Mr. Bishop. So when you were also talking about the 
potential of people who are paraplegics or those who have 
handicaps, sometimes it is not possible for them to do the 
kinds of recreation that they are capable of doing solely on 
wilderness lands?
    Mr. Hugelmeyer. No, they need the full spectrum as well 
just like our industry does. But wilderness is part of that 
portfolio of public lands.
    Mr. Bishop. So, Ranger Freeland then, you know, at the time 
of its founding what percentage of the U.S. forests were 
managed as multiple use and do you have any way of relating to 
that to what percentage is used today?
    Mr. Freeland. Well, I can speak for the Sequoia National 
Forest where I came from, and I think it is pretty typical of a 
lot of your National Forests. You know, and we are forgetting 
that there are other special designated areas like Wild and 
Scenic Rivers, there are miles of Wild and Scenic River 
corridors, about a half a mile swath. And on the Sequoia 
National Forest I think only about 20 percent of the Sequoia 
National Forest remain in multiple use, as compared to when I 
first started with the Forest Service, in fact, back when it 
was created, it was 100 percent multiple use, you know, back in 
the day. So very little is left for multiple use, which 
provides more opportunity for more people.
    Mr. Bishop. So if there are a greater number of tourists 
and recreationists today concentrated on fewer and fewer 
remaining multiple use lands that presents a problem, a 
difficulty in times then?
    Mr. Freeland. Yes it does. I have seen it, I have lived it 
as a district ranger, because it is obvious when you put more 
and more people on a smaller land base not only do you receive 
damage to your roads and trails and your wildlife habitat, your 
rivers, but you also get social conflicts too. You get people 
together and I have had experiences where snowmobilers are 
trying to run cross-country skiers off the trail and cross-
country skiers trying to throw their ski poles at, you know, it 
gets to a contentious situation when you get that many people 
together.
    Mr. Bishop. OK, I am not trying to cut you off but my time 
is over, but thank you. Mr. Tipton, do you have any questions 
for this panel?
    Mr. Tipton. Thank you, Mr. Chairman. And I guess, Ms. 
Simpson, I admire what your organization does. I would just 
like to have your comment. It has been my experience, I come 
from a rural part of Colorado, we grew up loving our public 
lands and access to them, I come from a farm and ranch 
community, hunting community. Is it pretty much your experience 
that the industry that is our sportsmen, farm and ranch 
community, have been good custodians of public lands?
    Ms. Simpson. Absolutely. The sportsmen community would say 
that they are first and foremost the true conservationists. It 
is their money that goes back toward conservation, funds the 
state game and fish agencies through excise taxes from 
equipment sales.
    Mr. Tipton. Right, I would agree with that. And, Mr. 
Freeland, I wanted to go back just to your comment.
    Mr. Freeland. Sure.
    Mr. Tipton. And I just want to clarify that. Sequoia 
National Forest when you started it was 100 percent multiple 
use and then?
    Mr. Freeland. Well, I am talking about the National Forest 
System when it first started.
    Mr. Tipton. Right.
    Mr. Freeland. You know, back in Pinchot's day.
    Mr. Tipton. Right.
    Mr. Freeland. But in the 30 years I was there off and on, I 
have transferred around, a significant amount of the land base 
in the Sequoia National Forest has been converted to Wild and 
Scenic Rivers. We had legislation that converted the Kern River 
to a Wild and Scenic River, and we have in my ranger district 
three fairly large wilderness areas, and then we had roadless 
areas for consideration as well.
    Mr. Tipton. Right.
    Mr. Freeland. So when you add all that together, you know, 
about 20 percent is left for that what used to be a lot of 
multiple use is a very small area.
    Mr. Tipton. And so has it been your experience since we 
have restricted access to the people's public lands that we are 
actually creating and damaging some of that 20 percent more 
than would really be necessary if we had more freedom?
    Mr. Freeland. Yes. I think it is just logical if we can 
spread more people out not only does that give them more 
opportunities but it also lessens the degree of resource damage 
and social conflicts and law enforcement problems all the way 
around. So I think it is good sense.
    Mr. Tipton. And was it your experience in the Forest 
Service you still manage that? It wasn't like all of a sudden, 
Katie bar the door, that people could do anything that they 
wanted at any time? You still impose some restrictions?
    Mr. Freeland. You know, there is an impression out there 
unfortunately that if these lands are released back into 
multiple use it is a free for all. That is farthest from the 
truth. These lands have the most stringent environmental laws 
in the world on multiple use lands as well as all the other 
National Forest lands. So there is an extensive environmental 
analysis and public involvement process you have to go through 
for any kind of activity on the National Forest including 
multiple use lands. And that includes fire killed timber that 
you want to harvest, has to go through that process as well.
    Mr. Tipton. Right. I appreciate that. And, Mr. Hugelmeyer, 
I would just kind of like to ask you a question from a Colorado 
standpoint. I do have some real concern particularly driving up 
toward Vale. You know, we see red hillsides right now. We are 
literally, and we hear the words echoed by Members from both 
sides of the aisle that come from the West, that we are very 
concerned about that one lightning strike, that one spark that 
is hitting.
    And we have the Colorado Roadless Rule and I know that a 
lot of work had gone into that, but I am still very concerned, 
are we going to have that ability to be able to get equipment 
in, to be able to address a forest fire where we continue to 
have problems in southwestern Colorado, at where we only have 
one mill left in Colorado right now and it is in receivership 
to be able to harvest the timber. And is there a better way to 
do this?
    Mr. Hugelmeyer. Well, as a fellow Coloradan, I share that 
concern, and go up there often to go fishing into the great 
gold medal waters up there. That is why we supported the 
Roadless Rule and why we were able to get 10,000 executives 
from the industry to sign a support of the Roadless Rule, 
because of the fire protection portion of that. We also worked 
very hard to support the Flame Act, because what we have seen 
is of great underfunding of the Forest Service budget to be 
able to support the fire prevention across the country. So we 
are in great support of what you are bringing up and hope that 
Congress will continue to fund those areas, but not at the 
expense of the recreation management.
    I think as I have been listening to the Committee over the 
course of the day there has been a lot of concern about roads 
and the degradation of roads and the ability of the Forest 
Service to be able to do its job. And it is sort of a catch-22 
when it is underfunded, they don't have the resources to be 
able to do that and we see the appropriations process actually 
fail what the concerns have been from what I have heard from 
many of the Members here today.
    Mr. Tipton. Mr. Chairman, may I do just one more follow up 
on that? I guess one point I would like to explore just a 
little further with you is, with some of the restrictions that 
obviously the Roadless Rule put into place, because as a 
Coloradan you and I have both seen a lot of roads that are 
already carved through there now that are going to be blocked 
off. I will go back to a question that I had asked Director 
Abbey, and I do have a deep concern for that one constituent, 
one person that brought it to my attention out of Montrose, who 
is a handicapped veteran, still ambulatory, he can walk down a 
hallway, but he isn't able to negotiate, he isn't really going 
to have access getting into some of these areas. Does that 
concern you?
    Mr. Hugelmeyer. See that is not our experience that we see 
these areas as locked up. And I hear folks talk about 
challenges, limitations, and we see opportunity and a business 
industry growing when you have nonprofits and adaptive 
businesses starting to focus specifically on the veteran you 
are talking about to help them go into and explore wilderness 
areas in their most pristine. So it is an actual industry that 
is growing and in my written testimony I have actually attached 
some of those adaptive sports groups who are now supporting 
that community.
    So it is not our experience that these are locked up. As 
far as the roads on roadless areas being shut, I personally 
have not experienced that. We share that concern. We would not 
want to see roads being closed off. But again we see that as an 
issue of the funding and the underfunding of the Forest Service 
and that is why that is happening, because they don't have the 
dollars to maintain it.
    Mr. Tipton. I yield back, Mr. Chairman, thanks.
    Mr. Bishop. Thank you. Mr. Grijalva, do you have some more?
    Mr. Grijalva. Yes just a couple of quick ones, and, Mr. 
Chairman, without objection to enter letters of opposition to 
the legislation that we are discussing right now?
    Mr. Bishop. Without objection.
    Mr. Grijalva. Thank you very much. Just, Mr. Hugelmeyer, 
just a couple of questions. When companies are looking to 
relocate or open new locations, they consider the quality of 
life in an area and what it might provide to their employees. 
What are some of the factors as a business person when people 
are relocating businesses, what are some of the factors that go 
into determining what that quality of life is, schools, et 
cetera, if you don't mind?
    Mr. Hugelmeyer. Well, we are actually seeing across the 
West and where there are the largest and greatest number of 
public lands the best companies, the best tech companies, the 
best health companies, it attracts the best employees. So a 
quality of life economy, which we feel the outdoor recreation 
is a key part of, actually has really helped grow many of the 
best western economies and healthiest ones that we are seeing 
today.
    Colorado and Utah come to mind, and I know the Chairman can 
speak to this himself, the quality of life in Utah is one of 
the great environments in all of the country, and it continues 
to attract some of the best outdoor companies there. But it is 
because of the wild and scenic areas and the availability of 
that that really brings these companies there. Obviously tax 
benefits, the regular business issues that any business is 
going to decide in terms of incentives, making sure that there 
are great incentives in that area, but wildlands, public lands, 
and a wide variety of them and a full spectrum of them is one 
of the key reasons we are seeing some of the best western 
economies grow.
    Mr. Grijalva. Thank you. I think the wildlands concept 
hasn't worked really well with Arizona because I think people 
have been fixated on the wildlands that is our local State 
Legislature, so it has been kind of difficult to attract a lot 
of relocations. I was going to talk, as a business person one 
more question, sir. What does the term due diligence mean to 
you? And for is the solution to the issue that Congress do 
their due diligence on these individual proposals that might 
come in for designation? And does this bill in its present form 
deal with the concept of due diligence and does it serve that 
purpose?
    Mr. Hugelmeyer. In our industry's opinion it does not and 
in my personal opinion it does not. It seems to bring a hammer 
to a problem that needs a scissor. And the reality is there are 
a lot of different abilities to carve out, particularly the 
WSAs that have already seen approval, they shouldn't be thrown 
out with the ones that have been found unsuitable. And this 
packages them together from our perspective in the way the 
language reads, along with the roadless areas itself.
    Mr. Grijalva. OK, thank you. I yield back, Mr. Chairman, 
and thank you.
    Mr. Bishop. I think you need to reread the details of that 
particular bill. Ms. Simpson, amongst the groups, the other 
groups that had given you letters, which I once again I hope 
that we make sure that we put those letters in the record as 
well, was the National Rifle Association one of those groups?
    Ms. Simpson. Yes, sir.
    Mr. Bishop. OK. Mr. Freeland, I understand that you are 
also a member of the Back Country Horsemen as well as a retired 
Forest Service district ranger?
    Mr. Freeland. Well, I am not an actual member, but I 
participate with them both when I was a ranger and now that I 
am retired.
    Mr. Bishop. Have you had any personal experience with 
problems in accessing WSAs?
    Mr. Freeland. I have had trouble not so much there, but we 
are dealing with the roadless areas where I am at. However, we 
had some trouble in a wilderness area that had burned in 2000, 
called the Domeland Wilderness, and as a result, and that was 
10 years ago, and trees, dead trees have continued to fall 
because we couldn't harvest them obviously, it is a wilderness 
area. But trying to get permissions, the Back Country Horsemen, 
from the Forest Service to use chainsaws to clear those trails 
out has been a major undertaking, and we still don't have the 
approvals. It forces them to have to use hand equipment, we 
call them misery whips, they are back cut saws, and that is 
impractical.
    And so, you know, even though there is, they say that laws 
and regulations allow you to do certain things, it is easier 
said than done. And as a result we are getting fairly 
significant damage now in the Domeland Wilderness because 
people are going around those dead trees that have fallen and 
livestock are in jeopardy trying to get around those things in 
the brush fields, and it puts people in jeopardy that are using 
hand tools because of the risk of trees falling on them. So, 
you know, these roadless areas are almost treated like 
wilderness, and because the Forest Service takes this very 
restrictive approach on those the likelihood of that occurring 
in roadless areas is pretty high too of getting permissions to 
work in those areas for both safety and prevent resource 
damage.
    Mr. Bishop. So there is, and I guess maybe Mr. Horgan, you 
can both speak to this, there is the ability then by the way 
the reality works that some of these areas that ought to have 
access can be closed off to access simply because the ability 
of maintaining them is not allowed or does not have the 
capability of going forward. And I am assuming, Mr. Horgan, 
your group has faced something similar to that?
    Mr. Horgan. That would be correct. As I mentioned earlier, 
we are seeing over 130 trees down per mile on many of the 
trails, opening up the trails this spring. And that is 
something you have to do every year is clear the downed trees 
off the trail to eliminate resource damage, to make it so that 
it is successful for everybody, and with that amount of 
downfall it is very difficult to have the manpower to do it 
with hand tools, virtually impossible. So you really need to 
have chainsaws and in most of these areas they don't allow it.
    I will note that the Forest Supervisor Terrell went out on 
a limb and did allow chainsaw use to clear down trees in the 
wilderness area, and the Sierra Club pitched such a fit over it 
that now no one is going out on a limb to allow anything, they 
are gun-shy. And I said, geez, if you guys want to clear the 
trails why don't you come and clear the multiple use trails? If 
the Sierra Club doesn't want you in the wilderness, we would be 
more than happy to have you on the multiple-use lands. It is a 
lot of work to clear trail.
    Mr. Bishop. I have sometimes found just anecdotally over 
the years that those people who are working on the ground 
usually have a different perspective and an easier way of 
trying to solve problems than some who stay back here, without 
trying to cast aspersions anywhere. Let me just ask you the 
question I did on the second panel, yes or no, do you consider 
this to be an extreme piece of legislation? Ms. Simpson?
    Ms. Simpson. No.
    Mr. Bishop. Mr. Horgan?
    Mr. Horgan. No.
    Mr. Bishop. Mr. Freeland?
    Mr. Freeland. No, sir.
    Mr. Bishop. Mr. Hugelmeyer?
    Mr. Hugelmeyer. I consider it overreaching.
    Mr. Bishop. Of a region?
    Mr. Hugelmeyer. Overreaching.
    Mr. Bishop. Oh, overreaching, I am sorry.
    Mr. Hugelmeyer. Yes.
    Mr. Bishop. I thought that was a form of veganism. Let me 
just say one last thing. We do have the concept of recapture in 
the State of Utah for our education system. Are you aware of 
any effort where recapture, which means an area was able to 
produce more for the revenue than it is necessary to reach the 
state minimum for funding education and they were able to 
exceed that amount, do you have any recollection of the outdoor 
industry ever being able to generate that type of revenue for 
the education system in Utah?
    Mr. Hugelmeyer. What we know is that the dollars that the 
outdoor industry brings in has not been appropriated in that 
way by the local appropriators. We know what we bring in.
    Mr. Bishop. That is not what I asked you. Has the 
generation of income ever been recaptured in the State of Utah? 
And I will make it easy for you, the answer is no.
    Mr. Hugelmeyer. It has not, but it is big enough.
    Mr. Bishop. And I do agree with what you are saying that 
jobs are attracted by the quality of life. Unfortunately it is 
usually by golf clubs and golf courses, but that is OK, it is 
still a positive that happens to be there. I don't want to 
eliminate any industries that happen to be out there, I just 
want to make sure that all of those industries have the 
capability and especially those that provide for a responsible 
base for building the economy of the State of Utah and paying 
for our infrastructure and paying for our kids are allowed to 
be there. I don't have any other questions. Mr. Grijalva, do 
you have anything else?
    Mr. Grijalva. Not at all.
    Mr. Bishop. With that, if there are no other questions, I 
would like to thank the witnesses, you four who stayed here to 
the bitter end, I appreciate it very much. Those that have 
abandoned you that were our prior panels, I thank you for being 
here, for your staff, your participation. Members of the 
Subcommittee have additional questions they may be asking you 
and we would ask you to respond to those questions. The other 
panels that have already left, they have the same obligation 
they just don't know about it yet. But I thank you for doing 
that. The hearing record will be open for ten days to receive 
responses, and if there is no other business, we stand 
adjourned. Thank you once again for being here.
    [Whereupon, at 2:35 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    The documents listed below were submitted for the record 
and have been retained in the Committee's official files.
        <bullet>  American Whitewater, Letter in opposition to 
        H.R. 2578
        <bullet>  American Fly Fishing Trade Association, 
        Letter in Oppostition to H.R. 1581
        <bullet>  American's for Responsible Recreation; 
        American Council of Snowmobile Associations; American 
        Motorcyclist Association; BlueRibbon Coalition; 
        Motorcycle Industry Council; National Off-Highway 
        Vehicle Conservation Council; Off-Road Business 
        Association; Recreational Off-Highway Vehicle 
        Association; Specialty Equipment Association; Specialty 
        Vehicle Institute of America; and United Four Wheel 
        Drive Association, Letter in support of H.R. 1581
        <bullet>  Association of Fish and Wildlife Agencies, 
        Letter in opposition to Secretary Order 3310
        <bullet>  Barnett, Cara, Program Director, Sun Valley 
        Adaptive Sports, Letter in opposition to H.R. 1581
        <bullet>  Campfire Club of America; Conservation Force; 
        National Rifle Association; National Trappers 
        Association; North American Bear Foundation; Rocky 
        Mountain Elk Foundation; Safari Club International; 
        U.S. Sportsmen's Alliance; Whitetails Unlimited, Letter 
        in support of H.R. 1581
        <bullet>  Crimmins, Tom, Professionals for Managed 
        Recreation, Letter in support of H.R. 1581
        <bullet>  Maggard, Mike, Chairman, Kern County Board of 
        Supervisors, Letter in support of H.R. 1581
        <bullet>  Outdoor Alliance, Letter in opposition to 
        H.R. 1581
        <bullet>  Podliska, Rick, American Motorcyclist 
        Association, Letter in support of H.R. 1581
        <bullet>  Public Lands Council; American Sheep Industry 
        Association; National Cattleman's Beef Association; 
        Arizona Cattle Grower's Association; California 
        Cattleman's Association; Colorado Wool Growers 
        Association; Idaho Cattleman's Association; Idaho Wool 
        Growers Association; Montana Association of State 
        Grazing Districts; Montana Public Lands Council; 
        Montana Stock Growers Association; Nevada Cattleman's 
        Association; Oregon Cattleman's Association; South 
        Dakota Cattlemen's Association; Utah Wool Growers 
        Association; Washington Cattleman's Association; and 
        Wyoming Stock Growers Association, Letter in support of 
        H.R. 1581
        <bullet>  Quinn, Hai, President, The National Mining 
        Association, Letter in support of H.R. 1581
        <bullet>  The National Association of Counties, Letter 
        in support of H.R. 1581
        <bullet>  The Conservation Alliance, Outdoor Industry 
        Association, Letter in opposition to H.R. 1581
        <bullet>  Washington Off Highway Vehicle Association, 
        Letter in support of H.R. 1581
        <bullet>  Webster, Joel, Director, Theodore Roosevelt 
        Conservation Partnership, Letter in opposition to H.R. 
        1581
        <bullet>  White, Melissa M., Regional Council of Rural 
        Counties, Letter in support of H.R. 1581
        <bullet>  Wickman, Bill, Chairman, Plumas County 
        Economic Recovery Committee, Letter in support of H.R. 
        1581
        <bullet>  Wickman, Bill, and Laurel Brent-Dumb, 
        Sustainable Forest Action Coalition, Letter in support 
        of H.R. 1581

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
